<html>
<title> - ENGAGING THE COMMUNITY: PERSPECTIVES ON SCHOOL SECURITY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


        ENGAGING THE COMMUNITY: PERSPECTIVES ON SCHOOL SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                         RESPONSE, AND RECOVERY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 26, 2019

                               __________

                           Serial No. 116-38

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                            

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-454 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                              
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           Van Taylor, Texas
Elissa Slotkin, Michigan             John Joyce, Pennsylvania
Emanuel Cleaver, Missouri            Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

     SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND RECOVERY

               Donald M. Payne Jr., New Jersey, Chairman
Cedric Richmond, Louisiana           Peter T. King, New York, Ranking 
Max Rose, New York                       Member
Lauren Underwood, Illinois           Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
              Lauren McClain, Subcommittee Staff Director
          Diana Bergwin, Minority Subcommittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Donald M. Payne Jr., a Representative in Congress 
  From the State of New Jersey, and Chairman, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     4
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Ms. Lauren Hogg, Co-Founder, March For Our Lives:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Jared Maples, Director, Office of Homeland Security and 
  Preparedness, State of New Jersey:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Ms. Kathy Martinez-Prather, Director, Texas School Safety Center:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
Mr. Max Schachter, Founder and CEO, Safe Schools for Alex:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23

                             For the Record

The Honorable Ted Deutch, a Representative in Congress From the 
  State of Florida:
  Statement of Tony Montalto, President, Stand with Parkland--The 
    National Association of Families for Safe Schools............    46
The Honorable Donald M. Payne Jr., a Representative in Congress 
  From the State of New Jersey, and Chairman, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Statement of Jay M. Brotman, American Institute of Architects 
    (AIA)........................................................    52
  Joint Letter From the Dignity in Schools Campaign and NAACP 
    Legal Defense and Educational Fund, Inc......................    55
  Letter From Everytown for Gun Safety...........................    58
  Letter From the National Association of School Psychologists...    61
  Statement of James ``Mo'' Canady, Executive Director, National 
    Association of School Resource Officers (NASRO)..............    67
  Standards and Best Practices for School Resource Officer 
    Programs.....................................................    68
  Letter From Sandy Hook Promise.................................    81

                                Appendix

Questions From Chairman Donald M. Payne, Jr. For Kathy Martinez-
  Prather........................................................    85

 
        ENGAGING THE COMMUNITY: PERSPECTIVES ON SCHOOL SECURITY

                              ----------                              


                      Thursday, September 26, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                   Subcommittee on Emergency Preparedness, 
                                    Response, and Recovery,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 310, Cannon House Office Building, Hon. Donald M. Payne, 
Jr. (Chairman of the subcommittee) presiding.
    Present: Representatives Payne, Richmond, Rose, Underwood, 
Green, Clarke, King, Joyce, Crenshaw, and Guest.
    Also present: Representatives Jackson Lee and Deutch.
    Mr. Payne. The Subcommittee on Emergency Preparedness, 
Response, and Recovery will come to order.
    The subcommittee is meeting today to receive testimony on 
``Engaging the Community: Perspectives on School Security.''
    Good morning and thank you, everyone who is here today.
    The subcommittee is meeting to discuss community 
perspectives on school safety and how the Federal Government 
can better support local stakeholders in making our children 
safer.
    I want to thank the witnesses for participating in today's 
hearing. Ms. Lauren Hogg's and Mr. Max Schachter's testimonies 
are ones the American public needs to hear and ones that 
Members of Congress should take to heart as we go about our 
work. A special thank you to you both for sharing your 
experience with us.
    The Chair would also like to acknowledge Congressman 
Deutch, who does not sit on this committee but who represents 
Parkland, Florida, and has been a champion for measures to 
improve school safety.
    I ask unanimous consent to allow Congressman Deutch to sit 
and question the witnesses at today's hearing.
    Without objection, it is so ordered.
    I am glad this hearing can build upon the school safety 
field hearing this subcommittee held last year in New Jersey. 
The 2019-2020 school year is well under way, and our kids are 
at risk from violence every day. As a parent of triplets, all 
too often I watch the news and I am terrified by what I see and 
hear. Tragically, school violence has taken the lives of too 
many American children and educators.
    Now, 20 years since the Columbine High School massacre, 
which left 13 victims dead, our children are still incredibly 
vulnerable while attending school. Since Columbine and even 
before, our Nation has been rocked by a tragic cycle of school 
shootings. The 2012 Sandy Hook shooting left a staggering 20 
children and 6 adults dead, yet Congress fell short of passing 
legislation to combat gun violence in schools. In 2018, there 
were 24 shootings in K-12 schools around the country, including 
the shooting at Marjory Stoneman Douglas High School in 
Parkland, Florida, that left 14 children and 3 teachers dead 
and a shooting at Santa Fe High School in Santa Fe, Texas, that 
claimed 10 victims.
    The threat to our students continues. During the first half 
of 2019, there were 22 school shootings. Just last week, a 
teenager was arrested in Washington State for planning to 
attack a school on the 21st anniversary of Columbine. Still, 
the response from the Trump administration and the Republican-
controlled Senate has been wholly inadequate.
    After Parkland, Congress passed the Stop School Violence 
Act to provide funds for schools looking to improve their 
safety infrastructure. However, it is important to remember 
that school infrastructure is only one part of the solution to 
keep our children safe. More must be done.
    In 2018, 113 people were killed or injured in school 
shootings in the United States. In the same year, at least 
1,200 children were killed by gun violence around the country. 
Gun violence must be addressed both inside and outside of 
schools to really improve the safety of children in America. We 
cannot truly improve safety for children until we address these 
threats regardless of where they happen.
    That is why the Democratic-controlled House has passed and 
moved multiple pieces of legislation aimed at making our 
children and our country safer, including universal background 
checks and grants for States who use red-flag laws.
    Additionally, I am proud that on April 1, 2019, the House 
passed my bill, the CLASS Act, which would establish a council 
within DHS to ensure the Department coordinates its school 
safety activities. I hope the Senate will finally act on these 
measures, as the American public awaits a meaningful 
Congressional response.
    Like the Senate, the Trump administration has failed to 
consider serious solutions to address school safety. Last year, 
the administration's Federal Commission on School Safety 
published a report that included no new proposals for Federal 
policy or funding to make schools safer. Instead, it promoted 
arming school personnel, a policy that both students and 
educator groups oppose.
    Perhaps the only positive outcome from the Commission's 
work was the decision to establish a Federal safety 
clearinghouse, which the Department of Homeland Security is 
leading, along with the Departments of Education, Justice, and 
Health and Human Services. This committee will be following the 
roll-out of the clearinghouse later this year.
    I am interested to hear from the witnesses how such a tool 
might be useful to them in their work to improve school safety.
    Additionally, yesterday, the administration published a new 
planning guide to help school districts develop and maintain 
and customize emergency operation plans. While such guidance 
may be useful for districts, it does not address the root 
problems leading to violence in schools, nor does it provide 
school districts that are stretched thin new resources to fill 
their school safety needs.
    Our children are experiencing a new normal and one that 
troubles me. Active-shooter drills are the new normal in 
schools, and while I recognize the importance of them, I am 
saddened that our country has come to a place where they are 
necessary.
    We must do more to ensure that school violence and 
shootings are a thing of the past and our kids feel safe when 
learning. We must do more to protect the next generation. This 
country, communities like the ones I serve, and our kids are 
counting on us. Citizens from across the country are speaking 
loudly about the need for progress on this subject matter, and 
we must do our best to respond.
    [The statement of Chairman Payne follows:]
               Statement of Chairman Donald M. Payne, Jr.
                           September 26, 2019
    The subcommittee is meeting to discuss community perspectives on 
school safety, and how the Federal Government can better support local 
stakeholders in making our children safer. I thank the witnesses for 
participating in today's hearing. Ms. Lauren Hogg and Mr. Max 
Schachter's testimonies are ones the American public needs to hear and 
ones that Members of Congress should take to heart as we go about our 
work. A special thank you to you both for sharing your experience with 
us. I am glad this hearing can build upon the school security field 
hearing this subcommittee held last year in New Jersey. The 2019-2020 
school year is well under way, and our kids are at-risk from violence 
every day. As a parent of triplets, all too often I watch the news and 
I am terrified by what I see and hear.
    Tragically, school violence has taken the lives of too many 
American children and educators. Now, 20 years since the Columbine High 
School massacre, which left 13 victims dead, our children are still 
incredibly vulnerable while attending school. Since Columbine and even 
before, our Nation has been rocked by a tragic cycle of school 
shootings. The 2012 Sandy Hook shooting left a staggering 20 children 
and 6 adults dead, yet Congress fell short of passing legislation to 
combat gun violence in schools. In 2018, there were 24 shootings in K-
12 schools around the country, including the shooting at Marjory 
Stoneman Douglas High School in Parkland, Florida that left 14 children 
and 3 teachers dead, and the shooting at Santa Fe High School in Santa 
Fe, Texas that claimed 10 victims. The threats to our students 
continue. During the first half of 2019, there were 22 school 
shootings. Just last week, a teenager was arrested in Washington State 
for planning to attack a school on the 21st anniversary of Columbine. 
Still, the response from the Trump administration and the Republican-
controlled Senate has been wholly inadequate. After Parkland, Congress 
passed the STOP School Violence Act to provide funds for schools 
looking to improve their safety infrastructure. However, it is 
important to remember that school infrastructure is only one part of 
the solution to keep our children safe--more must be done. In 2018, 113 
people were killed in school shootings in the United States. In the 
same year, at least 1,200 children were killed by gun violence around 
the country. Gun violence must be addressed both inside and outside of 
schools to really improve the safety of children in America.
    We cannot truly improve safety for children until we address these 
threats, regardless of where they happen. That is why the Democratic-
controlled House has passed or moved multiple pieces of legislation 
aimed at making our children, and our country, safer, including 
universal background checks and grants for States who use red flag 
laws. Additionally, I am proud that on April 1, 2019, the House passed 
my bill, the CLASS Act, which would establish a council within DHS to 
ensure the Department coordinates its school safety activities. I hope 
the Senate will finally act on these measures, as the American public 
awaits a meaningful Congressional response. Like the Senate, the Trump 
administration has failed to consider serious solutions to address 
school safety. Last year, the administration's Federal Commission on 
School Safety published a report that included no new proposals for 
Federal policy or funding to make schools safer. Instead, it promoted 
arming school personnel, a policy that both student and education 
groups oppose.
    Perhaps the only positive outcome from the Commission's work was 
the decision to establish a Federal school safety clearinghouse, which 
the Department of Homeland Security is leading along with the 
Departments of Education, Justice, and Health and Human Services. This 
committee will be following the roll out of the clearinghouse later 
this year. I am interested to hear from the witnesses how such a tool 
might be useful to them in their work to improve school safety. Our 
children are experiencing a new normal, and one that troubles me. 
Active-shooter drills are the new normal in schools, and while I 
recognize the importance of them, I am saddened that our country has 
come to a place where they are necessary. We must do more to ensure 
that school violence, and shootings, are a thing of the past, and our 
kids feel safe when learning. We must do more to protect the next 
generation. This country, communities like the ones I serve, and our 
kids are counting on us. Citizens from across the country are speaking 
loudly about the need for progress on this subject matter and we must 
do our best to respond.

    Mr. Payne. With that, now I recognize the Ranking Member of 
the subcommittee, the gentleman from New York, Mr. King, for an 
opening statement.
    Mr. King. Thank you, Mr. Chairman.
    At the outset, let me also commend Congressman Deutch for 
his efforts on this and his dedication both before and ever 
since the tragedy in his district.
    So I want to commend you for that.
    Mr. Chairman, I have a prepared statement. I just want to 
introduce this into record. This is a vital issue, and I would 
just as soon go and, you know, hear the witnesses' own 
testimony. I will submit my statement for the record.
    [The statement of Ranking Member King follows:]
               Statement of Ranking Member Peter T. King
                             Sept. 26, 2019
    Thank you, Mr. Chairman. I'd like to welcome today's witnesses and 
thank them for their time.
    Over the last several decades, our Nation has witnessed egregious 
acts of violence in schools. The tragedy of these events is felt 
Nation-wide and we collectively begin asking ourselves, ``How did this 
happen?'' and ``Why did this happen?''
    After the events at Marjory Stoneman Douglas High School last year, 
President Trump established the Federal Commission on School Safety to 
provide recommendations to keep kids safe at schools.
    This Commission brought together members of the Department of 
Education, the Department of Justice, the Department of Health and 
Human Services, and the Department of Homeland Security. The Commission 
was tasked to provide a view on how to keep our Nation's schools safe.
    After almost a year of review, the Commission developed its final 
report that provides comprehensive recommendations on what we can do to 
better protect students, teachers, and our Nation's schools.
    School security has always been a local issue. Those situated in 
and around our schools are logically the best suited to evaluate the 
needs of the schools they serve. Still, the sad reality is that many 
schools don't have adequate security plans in place or don't regularly 
practice school safety drills.
    The Commission recommended in its final report that a public 
clearinghouse of resources be developed to assist parents, teachers, 
administrators, and local officials with best practices. This one-stop-
shop could provide parents with information on how to talk to their 
children about school safety or principals with tools to assess the 
security of their buildings.
    I'm happy to hear this new clearinghouse website is in development 
and will be operational soon.
    Within this new clearinghouse, users will be able to find a list of 
existing Federal grants and programs available to State and local 
governments. These grants from DHS, DOD, HHS, and the Department of 
Education help fund things like mental health programs, school resource 
officer training, and the development of emergency operating plans.
    There's still more that needs to be done. Children should never 
fear going to school. They should be focused on their academic success 
and not on whether they will be a victim of violence. I hope that the 
testimony we hear today provides insight into what we can to do protect 
students in the future.
    I want to again express my appreciation for our witnesses being 
here today. Mr. Chairman, I yield back.

    Mr. Payne. Thank you.
    With that, I now recognize the Chairman of the full 
committee, Mr. Thompson--who is not here yet. OK.
    Other Members of the subcommittee are reminded that, under 
the committee rules, opening statements may be submitted for 
the record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                           September 26, 2019
    I want to take a moment to specifically thank Lauren Hogg and Max 
Schachter for being here today. What you both went through is something 
no person in our country should have to, but, sadly, it happens all too 
often. I commend you for being able to take your pain and turn it into 
action so other people may not have to go through what you and your 
loved ones did. Your bravery and courage does not go unnoticed.
    It has been 20 years since the Columbine High School massacre, 
where 13 people lost their lives, and schools remain vulnerable to 
attack. In 2007, I chaired a full committee hearing after the Virginia 
Tech shooting to learn more about protecting our Nation's schools. We 
sit here today, over 12 years later, grappling with the same issues 
while the country has experienced tragedy after tragedy. The names 
Sandy Hook Elementary School, Marjory Stoneman Douglas High School, and 
others are forever in our memories because of the tragic shootings 
within their walls. These tragedies not only senselessly take innocent 
lives but do so much to inhibit focus and learning by invoking fear and 
anxiety among students, faculty, and staff, alike.
    Despite the obvious need for improved school security measures, the 
sad truth is that the Federal Government has not done enough to address 
school security concerns and keep weapons out of the hands of those who 
would do our children harm. It has become increasingly clear that we 
cannot depend on the Trump administration to make meaningful progress 
on issues related to school security. The Federal School Safety 
Commission did not seriously consider the issue of guns--though guns 
are the weapon of choice in instances of deadly school violence. In 
addition, the Trump administration and Republican leadership in the 
Senate refuse to come to the table with the House to take common-sense 
steps to mitigate gun violence in schools. Several States are working 
to help address these shortcomings and by-passing gun safety laws and 
making other significant investments in school security improvements. I 
hope that Congress and the White House can be a help rather than a 
hindrance to those efforts.
    I applaud the Emergency Preparedness, Response, and Recovery 
Subcommittee for the work it continues to do on these efforts. In 
addition to holding this hearing and a field hearing in New Jersey, 
Chairman Payne has introduced legislation to make a positive impact on 
school security, like H.R. 1593, the CLASS Act, which would ensure that 
the Department of Homeland Security's various school security 
initiatives are coordinated. This measure passed the House in April. I 
look forward to continuing the important discussion today on what more 
Congress can do to enhance school security in America and appreciate 
all those joining us.

    Mr. Payne. OK. I want to welcome our panel of witnesses.
    Our first witness, who may be the youngest witness to 
appear before this subcommittee, is Lauren Hogg, co-founder of 
March for our Lives and a survivor of the school shooting at 
Marjory Stoneman Douglas High School in Parkland, Florida. 
Although she may be young, Ms. Hogg is undoubtedly and 
unfortunately an expert on this topic. I am thankful she is 
here testifying for her first Congressional hearing to share 
her experiences.
    Next we have Mr. Jared Maples, the director of New Jersey's 
Office of Homeland Security and Preparedness. Mr. Maples has 
appeared before this subcommittee numerous times, and I thank 
him for coming back.
    Next we have Ms. Kathy Martinez-Prather, who is the 
director of Texas School Safety Center, which is a part of the 
Texas State University and has been focused on improving school 
safety in Texas for the past 20 years.
    Last, we have Mr. Max Schachter. He is the founder and CEO 
of Safe Schools for Alex, an organization he founded after 
losing his son to the school shooting in Parkland, Florida.
    Again, thank you for being here today.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each witness to summarize his or her statements 
for 5 minutes, beginning with Ms. Hogg.

   STATEMENT OF LAUREN HOGG, CO-FOUNDER, MARCH FOR OUR LIVES

    Ms. Hogg. Chairman Payne, Chairman Thompson, Ranking Member 
King, Ranking Member Rogers, and Members of the subcommittee, 
thank you all for allowing me the opportunity to give a 
student's perspective on school security.
    My name is Lauren Hogg, and I am a co-founder of March for 
our Lives, as you just heard, a junior in high school, and 
simply a concerned student who just wants to survive high 
school, both metaphorically and literally. I hope that this 
testimony aids in your efforts to protect students from all ZIP 
Codes and all races from going through what myself and my 
classmates have in the wake of a school shooting.
    I want to preface my testimony by saying that, although I 
am honored to be here today, I would not be here if not for the 
horrendous events that took place on February 14, 2018 at my 
high school, Marjory Stoneman Douglas. Thirty-four of my 
classmates, my friends, and my teachers and coaches were 
injured, 17 of them fatally shot with an AR-15 in our hallways.
    Additionally, although I am here today using my own 
experience as evidence against the militarization of schools, I 
am here not to ask for your sympathy; I am here to ask for your 
consideration and your action.
    I was born after Columbine, and I was 9 years old when 
Sandy Hook occurred, so for most of my life, I have been force-
fed the importance of school security. I still remember the 
first week back to school after the Sandy Hook shooting took 
place. I was in fourth grade, and I remember spending the first 
hour of school watching my teacher's shoes on the rainbow 
carpet as she tried, to no avail, to explain what a Code Red 
drill was to a room of rowdy fourth-graders.
    As blood-chilling as the explanation of new security 
measures was, I never thought twice about them until 4 years 
later when my friend Alaina posed a question about why we were 
having the drills in the first place.
    In eighth grade, Alaina Petty sat in front of me in our 
American History class. If I am being honest, we never really 
talked about school security in the context of preventing mass 
shootings until one day when our friend Austin returned to 
school after surviving the Fort Lauderdale shooting that 
previous week. Together, our little friend group contemplated 
the effectiveness of our school safety procedures while 
standing in the adjacent corner of our classroom every 3 
months.
    Nearly a year later, the three of us were at school as 
nervous freshmen on Valentine's Day when, once again, we went 
through the Code Red drill. The only difference was that, this 
time, only 2 of us made it home. Alaina was 14 years old when 
she was murdered.
    The week after Valentine's Day was full of many things. It 
was full of tears, it was full of funerals, and it was full of 
much talk around school security.
    I will never forget the first morning back at school. When 
we first arrived to the walkway and to our campus, we were 
welcomed back by what seemed like every armed security officer 
in the whole county. It was truly a sea of black and blue 
uniforms. They thought they were making us feel safe, and for 
that I am eternally grateful. But the sight of yet another man 
holding a gun was enough to make many of us feel sick. Our 
school, which once was considered a safe haven of learning by 
many of us, was turned into a place of imprisonment.
    Additionally, much like our National incarceration system, 
our school, when flooded with resource officers that ironically 
were considered safety precautions, became a place where my 
black and brown classmates were disproportionately penalized 
and targeted at nearly 3 times the rate of us white students.
    Simply put, schools, when overmilitarized and made to seem 
like prisons, embed in us students the idea that violence is 
something to be expected at school. That is no mindset for any 
child to learn in.
    Following the tragedy at my high school, numerous 
individuals, including the Secretary of Education, looked to 
increase the presence of firearms in schools. I, as an 
individual and as a representative of March for our Lives, 
strongly oppose the notion that arming teachers will make our 
schools safer.
    There is a fine line between proper security and 
militarization, and as you examine this line, I urge you to 
consult those most affected: Students. Having me here as a 
witness is an important first step, but students must continue 
to be consulted.
    As you examine that line, I urge you to consider 
noninvasive, proactive measures, not simply punitive, reactive 
measures. We need to invest in mental health resources of 
trained mental health professionals rather than relying solely 
on academic counselors.
    To those who suggest the solution is to simply hire more 
school resource officers or to arm SROs, let me remind you that 
the armed SRO at my high school did nothing as 17 of my 
classmates and teachers were murdered. That SRO has, in fact, 
been charged with child neglect for his inaction. It was our 
unarmed football coach, Aaron Feis, who protected my classmates 
and lost his life in the process.
    Furthermore, school safety cannot be addressed fully 
without addressing our Nation's gun violence epidemic. Given 
this, I encourage all of you to look into March for our Lives' 
comprehensive, bold plan, ``A Peace Plan for a Safer America.''
    Instead of promoting certain punitive safety measures that 
I would describe as putting a bandaid on a student's bullet 
wounds, I ask of you to think of what is actually beneficial to 
us students. I hope with all of my being that gun violence 
prevention legislation is passed so that perhaps we won't have 
to be having 16-year-olds speaking at hearings on school 
safety.
    Altogether, I hope that when it comes to school security, I 
won't have to someday hear a student half my age claim that 
they were born after Marjory Stoneman Douglas and grew up in an 
environment where they were force-fed the importance of school 
security until they went through a mass shooting of their own.
    Us students are tired of being tired. Our future, the 
future of this country is at stake. The future of this 
country's safety is now in your hands.
    Thank you.
    [The prepared statement of Ms. Hogg follows:]
                   Prepared Statement of Lauren Hogg
                           September 26, 2019
    Chairman Thompson, Chairman Payne, Ranking Member King, Ranking 
Member Rogers, and Members of the subcommittee, thank you all for 
allowing me the opportunity to give a student's perspective on school 
security. My name is Lauren Hogg and I am a cofounder of March For Our 
Lives, a junior in high school, and a concerned student who just wants 
to survive high school both metaphorically and literally. I hope that 
this testimony aids in your efforts to protect students from all ZIP 
codes and all races from going through what myself and my classmates 
have in the wake of surviving a school shooting.
    I want to preface my testimony by saying that although I am honored 
to be here today, I would not be here if not for the horrendous events 
that took place on February 14, 2018 at my high school, Marjory 
Stoneman Douglas. Thirty-four of my classmates, friends, teachers, and 
coaches were injured, 17 of them fatally shot with an AR-15. Thankfully 
many of my classmates and I made it home that day, but we carry with us 
the weight of what I call active trauma. Imagine it as the recurring 
stages of grief every time yet another senseless shooting happens. It 
deeply saddens me to say that this heaviness will be something that 
stays with us the rest of our lives.
    I was born after Columbine and I was 9 years old when Sandy Hook 
occurred, so for most of my life I have been force-fed the importance 
of school security. I still remember the first week back to school 
after the Sandy Hook shooting. I was in fourth grade and I remember 
spending the first hour of school watching my teacher's shoes on the 
rainbow carpet as she tried--to no avail--to explain what a code red 
drill was to a room of 4th-graders. As blood-chilling as the 
explanation of new security measures was I never thought twice about 
them until 4 years later when my friend Alaina posed a question about 
why we were having the drills. In 8th grade Alaina Petty sat in front 
of me in American History. If I am being honest, we never really talked 
about security at school in the context of preventing mass shootings 
until one day when our friend Austin returned to school after surviving 
the Fort Lauderdale airport shooting. Together our little friend group 
contemplated the effectiveness of our school safety procedures while 
standing in the adjacent corner of our classroom every 3 months. Nearly 
a year later, the 3 of us were at school as nervous freshman on 
Valentine's Day when we once again went through a code red drill; the 
only difference was that only 2 of us made it home this time. Alaina 
was 14 years old when she was killed.
    The week after Valentine's Day was full of many things, it was full 
of tears, it was full of funerals, and it was full of much talk around 
school security. I'll never forget the first morning back at school. 
When we first arrived to the walkway into our campus, we were welcomed 
back by what seemed like every armed police officer in the county. It 
was truly a sea of black and blue uniforms, they thought they were 
making us feel safe and for that I am grateful, but the sight of more 
men carrying guns made many of us feel sick not secure.
    When we finally made it through the newly-implemented single 
entrance after waiting in a line of students at a school of nearly 
4,500, we were greeted with things that we had never previously 
experienced at school. There were checkpoints, clear backpacks, and new 
smiling faces of School Resource Officers (SRO's) holding guns in one 
hand and waving us in with the other. Also I feel as though it is 
pertinent to know that, almost every safety implementation was put in 
place without the consultation of even a single student. Our 
administrators were our leaders, supposed to represent and implement 
what we as students feel, but much like political leaders so often do, 
forgot to listen to their constituents before speaking on behalf of 
them.
    Our school which once was considered a safe haven of learning by 
many of us, was turned into a place of imprisonment. Additionally, much 
like our National incarnation system, our school when flooded with 
resource officers that ironically were considered safety precautions 
became a place where my black and brown classmates were 
disproportionately penalized and targeted at nearly 3 times the rate of 
us white students \1\ (Appendix A). Simply put, schools when over-
militarized and made to seem like prisons instead of places of 
learning, embed in us students the idea that violence is something to 
be expected at school, and that is no mindset for a child to learn in. 
Following the tragedy at my high school, numerous individuals, 
including the Secretary of Education looked to increase the presence of 
firearms in schools. I, as an individual, and as a representative of 
March For Our Lives strongly oppose the notion that arming teachers 
will make schools safer.
---------------------------------------------------------------------------
    \1\ Lopez, German. ``Black Kids Are Way More Likely to Be Punished 
in School than White Kids, Study Finds.'' Vox.com, Vox, 5 Apr. 2018, 
https://www.vox.com/identities/2018/4/5/17199810/school-discipline-
race-racism-gao.
---------------------------------------------------------------------------
    There is a fine line between proper security and militarization. As 
you examine this line, I urge you to consult those most affected: 
Students. Having me here as a witness is an important first step, but 
students must continue to be consulted. As you examine that line, I 
urge you to consider non-invasive proactive measures, not simply 
punitive reactive measures. We need to invest in mental health 
resources of trained mental health professionals, rather than relying 
solely on academic counselors or School Resource Officers (SRO's). Such 
academic counselors usually tell us they don't have time to speak about 
mental health, or that they have to focus on what they consider more 
important things like getting into college.
    To those who suggest that the solution is to simply hire more 
School Resource Officers or to arm SRO's, let me remind you that the 
armed SRO at my high school did nothing as 17 of my classmates and 
teachers were murdered. That SRO has in fact been charged with child 
neglect for his inaction.\2\ It was our unarmed football coach, Aaron 
Feis, who protected my classmates and lost his life in the process.
---------------------------------------------------------------------------
    \2\ ``Ex-SRO Charged with Child Neglect for `Inaction' during 
Parkland Massacre.'' WFLA, 4 June 2019, https://www.wfla.com/news/
florida/ex-sro-charged-with-child-neglect-for-inaction-during-parkland-
massacre/.
---------------------------------------------------------------------------
    Furthermore, school safety cannot be addressed fully without 
addressing our Nation's gun violence epidemic. Given this I encourage 
you all to look into March For Our Lives' comprehensive bold plan, A 
Peace Plan For A Safer America (Appendix B).
    Instead of promoting certain punitive safety measures that, which 
constitutes putting a BandAid on a bullet wounds, I ask you to think of 
what is actually beneficial to students. I hope with all of my being 
that gun violence prevention legislation is passed so that perhaps 
someday we won't have to be having hearings on school safety. All 
together I hope that when it comes to school security I won't have 
someday hear a student half my age claim that they were born after 
Marjory Stoneman Douglas and grew up being force-fed ineffective safety 
procedures until the day that they went through mass shooting of their 
own. Us students are tired of being tired. Our future, and the future 
of this country is at stake. The future of this country's safety is in 
your hands.
    Thank you.
                               Appendix A
    ACLU illustrates how school disciplinary policies 
disproportionately impact black students.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Appendix B.-- March For Our Lives' Peace Plan for a Safer America
                           executive summary
    Every day in America, more than 100 lives are taken by the deadly 
epidemic of gun violence.\3\ Among young people, gun violence has 
become a top cause of death, second only to drug overdoses.\4\ It has 
many root causes, including hate, poverty, and despair. It's a deeply 
intersectional issue, inextricably bound with our long journey for 
racial justice, economic justice, immigrant rights, and the rights of 
our LGBTQ allies. And it's amplified by the societal belief that a gun 
can solve our problems. Gun violence is destroying our generation. This 
is simply unacceptable. That's why, as survivors and students of March 
For Our Lives, we believe it's time for a Peace Plan for a Safer 
America.
---------------------------------------------------------------------------
    \3\ Mervosh, Sarah. ``Nearly 40,000 People Died From Guns in U.S. 
Last Year, Highest in 50 Years.'' The New York Times, The New York 
Times, 18 Dec. 2018, https://www.nytimes.com/2018/12/18/us/gun-
deaths.html.
    \4\ Parsons, Chelsea, et al. ``America's Youth Under Fire.'' Center 
for American Progress, https://www.americanprogress.org/issues/guns-
crime/reports/2018/05/04/450343/americas-youth-fire/.
---------------------------------------------------------------------------
    The next President must act with a fierce urgency to call this 
crisis what it is: A National public health emergency. They must 
acknowledge that the level of gun violence in the United States is 
unprecedented for a developed nation\5\--and only bold, new solutions 
can move the needle on the rates of gun injuries and deaths. They must 
recognize that gun violence has many faces in our communities, from 
rural suicides to intimate partner violence to urban youth violence to 
violence driven by white supremacist ideologies. And they must commit 
to holding an unpatriotic gun lobby and gun industry accountable not 
just for weakening our Nation's gun laws, but also for illegal behavior 
in self-dealing \4\ that offends and contradicts America's vast 
majority of responsible gun owners.
---------------------------------------------------------------------------
    \5\ Parsons, Chelsea, et al. ``America's Youth Under Fire: 
America's Youth Under Fire.'' American Progress, Center For American 
Progress, 2 May 2018, https://www.americanprogress.org/issues/guns-
crime/reports/2018/05/04/450343/americas-youth-fire/.
---------------------------------------------------------------------------
    We believe in C.H.A.N.G.E.--6 bold steps that the next Presidential 
administration and Congress must take to address this National gun 
violence epidemic:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    1. CHANGE THE STANDARD OF GUN OWNERSHIP.--Advocate and pass 
legislation to raise the National standard for gun ownership: a 
National licensing and registry system that promotes responsible gun 
ownership; a ban on assault weapons, high-capacity magazines, and other 
weapons of war; policies to disarm gun owners who pose a risk to 
themselves or others; and a National gun buy-back program to reduce the 
estimated 265-393 million firearms in circulation by at least 30 
percent.
    2. HALVE THE RATE OF GUN DEATHS IN 10 YEARS.--Mobilize an urgent 
and comprehensive Federal response: Declare a National emergency around 
gun violence and announce an audacious goal to reduce gun injuries and 
deaths by 50 percent in 10 years, thereby saving up to 200,000 American 
lives.
    3. ACCOUNTABILITY FOR THE GUN LOBBY AND INDUSTRY.--Hold the gun 
lobby and industry accountable for decades of illegal behavior and 
misguided policies intended to shield only themselves; reexamine the 
District of Columbia v. Heller interpretation of the Second Amendment; 
initiate both FEC and IRS investigations into the NRA, and fully repeal 
the Protection of Lawful Commerce in Arms Act.
    4. NAME A DIRECTOR OF GUN VIOLENCE PREVENTION.--Appoint a National 
Director of Gun Violence Prevention (GVP) who reports directly to the 
President, with the mandate to operationalize our Federal goals and 
empower existing Federal agencies such as the Bureau of Alcohol, 
Tobacco, Firearms, and Explosives (ATF), the Department of Health and 
Human Services, and the Centers for Disease Control (CDC)--agencies 
that have all been structurally weakened by the gun lobby. The National 
Director of GVP would begin by overseeing a downpayment of $250 million 
in annual funding for research by the CDC and other Federal agencies on 
gun violence prevention.
    5. GENERATE COMMUNITY-BASED SOLUTIONS.--Fully fund targeted 
interventions addressing the intersectional dimensions of gun violence, 
including community-based urban violence reduction programs, suicide 
prevention programs, domestic violence prevention programs, mental and 
behavioral health service programs, and programs to address police 
violence in our communities.
    6. EMPOWER THE NEXT GENERATION.--Automatically register eligible 
voters and mail voter registration cards to all Americans when they 
turn 18. Create the ``Safety Corps,'' a Peace Corps for gun violence 
prevention. The younger generations are disproportionately affected by 
gun violence. They should have a say in how their country solves this 
epidemic.
    To read the Peace Plan in its entirety, visit 
www.marchforourlives.com/peace-plan.

    Mr. Payne. Thank you for your testimony.
    I now recognize Mr. Maples to summarize his statement for 5 
minutes.

    STATEMENT OF JARED MAPLES, DIRECTOR, OFFICE OF HOMELAND 
         SECURITY AND PREPAREDNESS, STATE OF NEW JERSEY

    Mr. Maples. Chairman Payne, Ranking Member King, Members of 
the committee, thank you for the opportunity to testify before 
you today. It is an honor to speak with you and share the work 
my office is doing to keep the residents and visitors to New 
Jersey safe, especially with regard to educational 
institutions.
    The New Jersey Office of Homeland Security and Preparedness 
is tasked with coordinating counterterrorism, resiliency, and 
cybersecurity efforts across all levels of government, law 
enforcement, nonprofit organizations, and the private sector. 
We are charged with bolstering New Jersey's resources for 
critical infrastructure protection, preparedness, training, and 
Federal grants management.
    Attacks against children and staff in what should be the 
safe haven of education is perhaps the most jarring threat we 
face. Recent incidents at schools across the country serve as 
stark reminders that schools are often targeted by those 
seeking to commit acts of violence.
    For example, law enforcement in New Jersey, with the 
assistance of authorities in Delaware, prevented a potential 
school shooting this past June when we arrested a man 
possessing a loaded firearm and additional ammunition at an 
elementary school in Westfield, New Jersey.
    The safety of our children and those charged with their 
care are paramount. We must do all that is necessary to provide 
students and staff with a sense of comfort and security in 
their learning environments. Parents and guardians deserve the 
peace of mind that their children will return to them at the 
end of the school day.
    For that reason, Governor Murphy's administration is in 
sync on combining our resources to ensure the protection of our 
children. My office's work to protect our students would not be 
possible without the strong partnerships we have with local, 
State, and Federal agencies.
    We are proud of the collaborative progress we continue to 
make as a State in strengthening security throughout all our 
institutions, including in education. However, we recognize 
that our work is never complete, and continual improvement is 
the only way to succeed in protecting New Jersey and the 
country.
    While we provide details on our on-going efforts, please be 
mindful that we will always seek to continue to improve our 
approach toward preventing these incidents from occurring in 
the first place. A focus on prevention is key in stopping an 
incident before it starts and avoiding the need to employ 
response tactics. It is our goal to be first preventers as well 
as first responders and make certain our communities embrace a 
culture of preparedness that invests equally in both practices.
    Heightened awareness from citizens and law enforcement, 
combined with a New Jersey Attorney General directive that 
calls for local law enforcement agencies who receive tips about 
suspicious activity to immediately notify my office's 
counterterrorism watchdog unit, led to an unprecedented 
increase in school-related reports to the NJSAR System.
    Additionally our office, along with the FBI Newark field 
office, created high-level thresholds and notification 
protocols to ensure that all threat-to-life leads, particularly 
ones that involve schools, are immediately actioned to the 
appropriate municipal, county, State, and Federal law 
enforcement entities, which allows for a more standardized and 
faster analysis and expeditious action to mitigate threats.
    We will continue to prioritize the identification of 
suspicious activity as well as ensure there is a clear path for 
reporting and addressing issues before an incident can occur 
through a whole-of-Government approach. We will expand 
innovative efforts through measures such as training school 
personnel, including administrators, faculty, school resource 
officers, custodians, and bus drivers, and the community as a 
whole on how to recognize and report suspicious activity.
    My agency also collaborated with the Department of 
Education and University Hospital to provide in-person training 
for school safety specialists and to distribute more than 
18,000 bleed-control kits to school districts throughout New 
Jersey.
    Through unannounced active-shooter drills throughout the 
State, we can test and gauge the effectiveness of both plans 
and action of students, faculty, and staff in an environment 
that is controlled but realistic. We also continue to conduct 
large-scale active-shooter exercises for K-12 schools, ensuring 
that everyone, including schoolchildren, know what actions to 
take if they face emergency situations.
    With that in mind, New Jersey colleges and universities 
participate in a quarterly Mass Gathering Working Group that is 
aimed at identifying and addressing those common 
vulnerabilities and filling any capability gaps at locations 
where students gather throughout the State.
    We created a School Security subcommittee on the State's 
Domestic Security Preparedness Task Force, which I chair, to 
coordinate best practices across State agencies and relevant 
stakeholders and integrate with National priorities and local 
needs.
    Last, my office and the New Jersey State Police, in 
coordination with county and local partners, conduct physical 
security assessments at schools as well as provide training to 
local law enforcement agencies to increase the capability to 
conduct assessments across the State.
    One of the biggest safety and security challenges facing 
many educational institutions throughout New Jersey is funding. 
Legislation introduced by Chairman Payne, H.R. 6920, would 
provide dedicated Federal funding under current grant funding 
programs of at least $90 million every year that is earmarked 
strictly for school security.
    This funding would greatly assist schools throughout the 
country, including New Jersey, adding resources that would 
enable schools to meet the very goals we have set out to 
achieve in the areas of prevention and response.
    In conclusion, efforts such as the Mass Gathering Working 
Group, committee outreach initiatives, and the countless 
trainings and exercises our office conducts each year highlight 
that we will do all that is necessary to ensure the safety and 
security of the residents and visitors of New Jersey, 
protecting them from terrorist threats to our public spaces. We 
remain dedicated to continuing these efforts, to further 
collaborating with our partners, and to work toward addressing 
threats with a focus on prevention.
    Chairman Payne, Ranking Member King, and distinguished 
Members of the subcommittee, I thank you again for the 
opportunity to testify today. I look forward to your questions 
and yield back to the Chairman.
    [The prepared statement of Mr. Maples follows:]
                 Prepared Statement of Jared M. Maples
                           September 26, 2019
                              introduction
    Chairman Payne and Ranking Member King, thank you for the 
opportunity to testify before you today.
    It is an honor to speak with you and share the work my office is 
doing to keep the residents and visitors of New Jersey safe, especially 
with regard to educational institutions.
    The New Jersey Office of Homeland Security and Preparedness 
(NJOHSP) is tasked with coordinating counterterrorism, resiliency, and 
cybersecurity efforts across all levels of government, law enforcement, 
nonprofit organizations, and the private sector. NJOHSP is charged with 
bolstering New Jersey's resources for counterterrorism, critical 
infrastructure protection, preparedness, training, and Federal grants 
management.
    New Jersey faces a complex, diverse, and fluid security environment 
with real, pervasive, and evolving threats. However, attacks against 
children and staff in what should be the safe haven of education is 
perhaps the most jarring threat we face. Recent incidents at schools in 
Parkland, Florida, and Santa Fe, Texas, serve as stark reminders that 
schools are often targeted by those seeking to commit acts of violence. 
Law enforcement in our own State of New Jersey--with the assistance of 
authorities in Delaware--prevented a potential school shooting this 
past June when they arrested a man possessing a loaded firearm and 
additional ammunition at an elementary school in Westfield.
    The safety of our children and those charged with their care are 
paramount. We must do all that is necessary to provide students and 
staff with a sense of comfort and security in their learning 
environments, and parents and guardians deserve the peace of mind that 
their children will return to them at the end of the school day. For 
that reason, all State leaders are in sync on combining our resources 
to ensure the protection of our children.
                             njohsp actions
    NJOHSP's work to protect our students would not be possible without 
the strong partnerships our Office has with the New Jersey Department 
of Education, New Jersey Office of the Secretary of Higher Education, 
New Jersey Office of Emergency Management, community members, and 
local, State, and Federal law enforcement agencies.
    Our office is proud of the collaborative progress we continue to 
make as a State in strengthening security throughout all our 
institutions, including in education. However, we recognize that our 
work is never complete, and continual improvement is the only way to 
succeed at protecting New Jersey and the country. While we provide 
details on our on-going efforts, be mindful that we always seek to 
improve our approach toward preventing these incidents from occurring 
in the first place.
    A focus on prevention is key in stopping an incident before it 
starts and avoiding the need to employ response tactics. It is our goal 
to be first preventers instead of just first responders and make 
certain our communities embrace a culture of preparedness that invests 
equally in both practices.
    Following the tragic shooting at a high school in Parkland, 
Florida, in February 2018, heightened awareness from citizens and law 
enforcement--combined with the New Jersey Attorney General Directive of 
March 26, 2018, that calls for local law enforcement agencies who 
receive tips about suspicious activity related to terrorism or 
threatened acts of violence, including toward schools, to immediately 
notify their County Counterterrorism Coordinator and our Office's 
Counterterrorism Watch Unit--led to an unprecedented increase in 
school-related reports to the New Jersey Suspicious Activity Reporting 
System.
    As a result of this surge in school-related suspicious activity 
reports, our office analyzed these incidents last year and shared 
recommendations through an intelligence report that included input from 
the New Jersey Department of Education and the Regional Operations 
Intelligence Center, the State's fusion center. The report, distributed 
to school and police officials State-wide and briefed to hundreds of 
law enforcement and school security specialists, resulted in 
improvements to our reporting system to allow for more standardized and 
faster analysis and expeditious action to mitigate threats.
    Additionally, our office, along with the FBI Newark Field Office, 
created high-level thresholds and notification protocols to ensure that 
all ``threat to life'' leads, particularly ones that involve schools, 
are immediately actioned to the appropriate municipal, county, State, 
and Federal law enforcement entities.
    We will continue to prioritize the identification of suspicious 
activity, as well as ensure there is a clear path for reporting and 
addressing issues before an incident can occur.
    We will expand innovative efforts through such measures as training 
school personnel--including administrators, faculty, school resource 
officers, Special Law Enforcement Officers, custodians, and bus 
drivers--and the community as a whole on how to recognize and report 
suspicious activity.
    We will continue to work alongside the Department of Education to 
help school leadership address school threats and the importance of 
reporting suspicious activity with students and their parents and 
guardians.
    We remain committed to a whole-of-government approach, working with 
other departments and agencies within the State administration to 
provide comprehensive active-shooter response training, including ways 
to spot pre-incident indicators and pathways to report those 
indicators.
    Our partners in the New Jersey State Police, Department of 
Education, Department of Human Services, Department of Health, 
Department of Children and Families have achieved tremendous success as 
they built response capabilities that are second-to-none.
    NJOHSP also collaborated with the Department of Education and 
University Hospital to provide in-person training for school safety 
specialists and to distribute more than 18,000 bleed control kits to 
school districts throughout the State.
    Through unannounced active-shooter drills across the State, we can 
test and gauge the effectiveness of both plans and actions of faculty 
and staff in an environment that is controlled, but realistic. We also 
continue to conduct large-scale active-shooter exercises for K-12 
schools.
    Expanding security capabilities is an on-going focus, with 
particular attention paid to mass gatherings; understanding common 
vulnerabilities of these areas and events where large numbers of people 
gather; and ensuring that everyone, including schoolchildren, know what 
actions to take if they face emergency situations.
    With that in mind, New Jersey colleges and universities participate 
in quarterly Mass Gathering Working Group meetings aimed at identifying 
and addressing those common vulnerabilities and filling any capability 
gaps at locations where students gather throughout the State.
    We want to not only make certain that we reinforce security 
measures of buildings, but also that those inside the buildings are 
empowered to safely respond to any incident. Training models and 
traditional planning assumptions must continue to expand in accordance 
with changing tactics and afford the capability to deviate from plans 
in the event of an unexpected scenario.
    We created a School Security subcommittee on the State's Domestic 
Security Preparedness Task Force, which I chair, to coordinate best 
practices across State agencies and integrate with National priorities 
and local needs. Members of the subcommittee include the New Jersey 
Department of Education's Office of Student Support Services, 
University Hospital, the U.S. Department of Homeland Security, and the 
FBI.
    In 2018, with a grant from the Bureau of Justice Assistance STOP 
School Violence Prevention and Mental Health Training Program, the 
Department of Education and the New Jersey Department of Human Services 
Disaster and Terrorism Branch, in partnership with Sandy Hook Promise, 
facilitated training programs to schools across the State that focus on 
identifying warning signs of violence and taking action before an 
incident occurs.
    Last, NJOHSP and the New Jersey State Police, in coordination with 
county and local partners, conduct physical security assessments at 
schools, as well as provide training to local law enforcement agencies 
to increase the capability to conduct assessments across the State.
    NJOHSP is currently developing a methodology to conduct common 
vulnerability analyses from the physical school security assessment 
findings.
                             njccic actions
    The New Jersey Cybersecurity and Communications Integration Cell 
(NJCCIC), a component organization within NJOHSP, is charged with 
leading and coordinating New Jersey's cybersecurity efforts while 
building resiliency to cyber threats throughout the State.
    In March 2019, the NJCCIC hosted a Cybersecurity Symposium for 
public-sector organizations, including those with limited cybersecurity 
resources, such as school systems and districts. The purpose of this 
conference was to provide attendees with practical strategies, tactics, 
resources, and tools to help manage cyber risk in their respective 
organizations and become more resilient to cyber attacks. One key 
takeaway from the symposium was hearing from IT administrators in 
school systems about lacking cybersecurity resources.
    Over the past year, the NJCCIC has conducted 26 Cybersecurity 
Threat and Risk Mitigation Briefings for K-12 and higher education 
schools throughout New Jersey. In October, NJCCIC Director Michael 
Geraghty is providing a cybersecurity briefing at the annual New Jersey 
School Boards Association conference.
    Over the past 2 years, the NJCCIC has received and/or responded to 
166 cybersecurity incidents (38 in 2018 and 128 to date in 2019) 
affecting New Jersey K-12 schools and higher education institutions. 
The NJCCIC is continuously working to encourage institutions to report 
incidents so that we may identify patterns and trends, as well as 
provide risk mitigation strategies that would help the school community 
at large thwart emerging threats.
  h.r. 6920, the ``school security is homeland security grant act of 
                                 2018''
    One of the biggest safety and security challenges facing many 
educational institutions throughout New Jersey is funding. While the 
importance of enhancing security efforts and resources is shared by 
all, it is often difficult for schools to make the necessary financial 
commitment to provide both appropriate and effective safety measures 
for their facilities.
    Legislation introduced by Chairman Payne--H.R. 6920, The ``School 
Security is Homeland Security Grant Act of 2018''--would provide 
dedicated Federal funding under current grant funding programs of at 
least $90 million every year that is earmarked strictly for school 
security.
    This funding would greatly assist schools throughout the country, 
including New Jersey, in enhancing the presence of security personnel 
at their facilities and in the acquisition of target-hardening 
equipment to secure those facilities.
    This added resource would enable schools to meet the very goals we 
have set out to achieve in the areas of prevention and response. 
Through added security equipment, personnel, and trainings, schools 
would increase their preparedness level exponentially to confront 
threats.
                               conclusion
    While mass gathering events and areas provide numerous benefits to 
the public, such as fun, valuable learning experiences and a sense of 
community, we cannot overlook the need for safety and security in these 
areas. Those who wish to do harm at a heightened scale will continually 
target these types of locations. Schools, colleges, and universities 
are included in this trend and must remain a constant focus as we look 
to secure mass gathering facilities that also encompass amusement 
parks, arenas, casinos, and stadiums.
    Efforts such as the Mass Gathering Working Group, community 
outreach initiatives, and the countless trainings and exercises our 
Office conducts each year highlight that we will do all that is 
necessary to ensure the safety and security of the residents and 
visitors throughout New Jersey, protecting them from terrorist threats 
to our public spaces.
    We remain dedicated to continuing these efforts; to further 
collaborating with our law enforcement partners at the local, county, 
State, and Federal levels; and to work toward addressing threats with a 
focus on prevention.
    Chairman Payne, Ranking Member King, and distinguished Members of 
the subcommittee, I thank you again for the opportunity to testify 
today.
    I look forward to your questions and yield back to the Chairman.

    Mr. Payne. Thank you for your testimony, sir.
    I now recognize Ms. Martinez-Prather to summarize her 
statement for 5 minutes.

  STATEMENT OF KATHY MARTINEZ-PRATHER, DIRECTOR, TEXAS SCHOOL 
                         SAFETY CENTER

    Ms. Martinez-Prather. Chairman Payne, Ranking Member King, 
and Members of the committee, thank you for the opportunity to 
testify today on the topic of school safety and for your 
leadership in making school safety a priority and a critical 
part of the educational agenda for all of our schools across 
the country.
    I am the director of the Texas School Safety Center at 
Texas State University, and I am here to discuss the efforts of 
the Center to support schools in effectively carrying out 
school safety mandates and best practices in Texas, the 
importance of prevention efforts in developing a comprehensive 
approach to school safety, and the impact that community 
violence also has in our schools.
    As you are aware, every day, our schools face challenges 
that have the potential to impede the learning process for our 
students. And these challenges can range from human-caused acts 
of violence, to natural disasters, to more frequent safety 
issues that our schools deal with every single day.
    The tragic events in Santa Fe, Texas, and Parkland, 
Florida, and countless others that have impacted our Nation's 
schools continue to remind us that we have a lot of work to do. 
We all need to continue to work and collaborate to ensure that 
our students have a safe place to learn and thrive.
    The Texas School Safety Center was created in 1999 
following the Columbine school shooting. The Center is tasked 
in the Texas Education Code and the Governor's Homeland 
Security Strategic Plan to serve as the central clearinghouse 
for the dissemination of school safety information, including 
training, research, and technical assistance for all K-12 
districts, charter schools, and community colleges across the 
State.
    The Center has a Governor-appointed board of directors that 
represent practitioners such as teachers and principals, 
superintendents, school board members, school-based law 
enforcement, and parents, all who provide a diverse perspective 
to inform the work that we do.
    Texas has approximately 1,025 school districts that include 
over 9,000 individual campuses, 700 charter schools, and 50 
community colleges, all serving over 5.3 million students.
    Texas schools are charged currently with several school 
safety mandates. Some of those include the adoption and 
implementation of a multi-hazard emergency operations plan; 
providing for employee training in responding to an emergency; 
conducting drills and exercises to prepare students and 
employees, including substitute teachers, for responding to an 
emergency; conducting an audit of all their district facilities 
once every 3 years; and establishing a school safety and 
security committee.
    This last Texas legislative session, our State passed 
significant school safety mandates to further enhance the 
posture of safety in our Texas schools. Those mandates I will 
highlight:
    School districts, charter schools, and community colleges 
must submit their multi-hazard emergency operation plans now 
for review and verification to the School Safety Center, with 
the opportunity for the Center to provide feedback and for the 
school district to make corrective action.
    Each school district also must now establish a behavioral 
threat assessment team to serve each campus of the district.
    Then a licensed architect will also be another school 
safety board member to inform and prioritize the critical role 
that school design plays to uphold the positive safe and 
learning environment.
    Our commissioner of education has to also adopt facility 
standards for schools that provide for a safe and secure 
learning environment.
    On May 18, 2018, Santa Fe High School was the target of a 
senseless attack, taking the lives of 10 people--8 students and 
2 teachers. While the high school and school district as well 
as community continue to recover from this tragic event, the 
State of Texas also continues to make school safety a priority.
    The Center knows that schools face many threats, hazards, 
and vulnerabilities, and, although an active attack is rare, 
the impact is no doubt catastrophic. That is why we take a 
comprehensive approach to school safety. We provide training, 
develop tools and resources for schools on how to prevent and/
or mitigate, as well as respond to, and recover from, any type 
of threat or hazard that could arise.
    School architecture and design is one of those key 
mitigation strategies. To be clear, this is not about 
installing cameras and metal detectors, although that may be 
appropriate for some schools. This is about designing schools 
to be learning spaces first, ones that contain minimally 
invasive but effective security measures. This best practice 
ensures that, whether a building is new or existing, its 
physical features do not negatively impact teachers, students, 
or the community at large.
    The Center also stresses to schools the importance of 
prevention efforts in the overall comprehensive approach to 
school safety. As I mentioned earlier, Texas now requires 
school districts to have behavioral threat assessment teams. 
Responding to an active-shooter event or knowing what to do if 
an intruder enters the bills are skills that students, 
teachers, and administrators unfortunately need to practice and 
perfect.
    However, we know that educators are most interested in 
being preventative and proactive, not reactive. After a violent 
event occurs in our schools, educators, parents, community 
members, and legislators want to know what we could have done 
to have this event prevented.
    Research of U.S. school shootings has shown that these 
events can be prevented because the acts are typically planned 
in advance, the actors tell others beforehand about their 
violent plans, and the acts are often carried out because there 
is a level of desperation or the view that violence is the only 
option left to solve problems.
    Behavioral threat assessment provides a proactive, 
evidence-based approach for identifying individuals who may 
pose a threat to themselves or others, intervening with 
appropriate resources, and ultimately improving the safety and 
well-being of the individual of concern, the situation, and the 
school.
    The goal of threat assessment is not to punish the child. 
It is not intended to be an adversarial process, but to connect 
them with the appropriate interventions they need so a threat 
can be averted.
    Last, I want to bring attention to the impact that 
community violence has on schools. Most recently, on August 3, 
2019, a gunman in El Paso, Texas, entered a Walmart and took 
the lives of 22 people, including a student from a nearby 
school district. Weeks later, on August 31, a gunman 
senselessly killed 7 people throughout the Midland-Odessa 
community, including a student from a nearby school district.
    Although these were not school shootings, they had a 
significant impact on the school districts in those 
communities. As mentioned, 2 of those individuals killed were 
students, and many others either friends or family members and 
in some way connected to the school district.
    In the aftermath that these acts of violence, many of the 
school districts in these communities were provided resources 
to assist with counseling for students, staff, and parents, 
which in some districts still continues today.
    I want to finally communicate that school safety is a 
shared responsibility that involves school boards, 
superintendents, principals, teachers, mental health 
professionals, law enforcement, architects, State agencies and 
organizations, parents, students, and policy makers.
    By ensuring that our schools are safe and healthy learning 
environments, we give our children the opportunity to excel 
academically, emotionally, and socially.
    Again, thank you for the opportunity to speak today, and I 
look forward to answering any questions you may have.
    [The prepared statement of Ms. Martinez-Prather follows:]
                  Statement of Kathy Martinez-Prather
                           September 26, 2019
    Chairman Payne, Ranking Member King, and Members of the 
subcommittee, thank you for the opportunity to testify today on the 
topic of school safety and for your leadership in making school safety 
a priority and a critical part of the educational agenda for all our 
schools across the country. I am the director of the Texas School 
Safety Center (TxSSC) at Texas State University, and I am here to 
discuss the efforts of the TxSSC to support schools in effectively 
carrying out school safety mandates and best practices in Texas, the 
importance of prevention efforts in developing a comprehensive approach 
to school safety, and the impact community acts of violence have on 
schools.
    As you are aware, every day our schools face challenges that have 
the potential to impede the learning process for our students. These 
challenges can range from human-caused acts of violence or natural 
disasters to more frequent safety issues that educators confront daily. 
The tragic events in Santa Fe, TX and Parkland, FL, and countless 
others that have impacted our Nation's schools continue to remind us 
that we have a lot of work to do and we all need to continue to work 
and collaborate together to ensure that our students have a safe place 
to learn every day.
             background of txssc and school safety mandates
    The Texas School Safety Center at Texas State University, was 
created in 1999 following the tragic Columbine school shooting, and 
authorized by the Texas Legislature in 2001. The TxSSC is tasked in the 
Texas Education Code and the Governor's Homeland Security Strategic 
Plan to serve as the clearinghouse for the dissemination of school 
safety and security information, including training, research, and 
technical assistance for K-12 school districts, community colleges, and 
most recently--charter schools, in Texas. The Center has a Governor 
appointed board of directors that represent practitioners such as 
teachers, principals, superintendents, school board members, school-
based law enforcement officers, and parents--who all provide a diverse 
perceptive to inform the work of the TxSSC.
    As a research center, the TxSSC also engages in applied research 
that informs guidance for school practitioners about effective best 
practices in school safety. Our mission is to serve schools to create 
safe, secure, and healthy learning environments. Texas has 
approximately 1,025 school districts--that include over 9,000 
individual campuses, 700 charter schools, and 50 community colleges--
all serving over 5.3 million students.
    Texas schools are charged with several school safety mandates that 
require:
  <bullet> The adoption and implementation of a multi-hazard emergency 
        operation plan
  <bullet> Providing for employee training in responding to an 
        emergency
  <bullet> Conducting drills and exercises to prepare students and 
        employees, including substitute teachers, for responding to an 
        emergency
  <bullet> Conducting an audit of their district facilities, at least 
        once every 3 years, and submitting their audit data to the 
        TxSSC
  <bullet> Establishing a school safety and security committee.
    This last Texas Legislative Session--our State passed significant 
school safety legislation to further enhance the posture of safety in 
our Texas schools. Three of those mandates I will highlight:
  <bullet> School districts, charter schools, and community colleges 
        must submit their Multi-hazard Emergency Operations Plan for 
        review and verification to the TxSSC--with the opportunity for 
        the TxSSC to provide feedback and for the school district to 
        make corrective action.
  <bullet> Each school district must establish a behavioral threat 
        assessment team to serve each campus of the district.
  <bullet> A licensed architect will be a TxSSC board member to inform 
        and prioritize the critical role that school design plays to 
        uphold a positive and safe learning environment.
    Since its inception, the TxSSC has provided training and developed 
resources to stakeholders such as district and campus administrators, 
teachers, school counselors, school board members, and school-based law 
enforcement in areas such as emergency operations planning, multi-
hazard response protocols, drilling and exercising, the school safety 
and security audit process, behavioral threat assessment, development 
of MOUs, youth preparedness, bullying prevention, suicide prevention, 
and internet safety, and specialized training to school-based law 
enforcement--just to name a few.
           prevention and mitigation efforts in school safety
    On May 18, 2018, Santa Fe High School, located in Santa Fe, TX was 
the target of a senseless active attack taking the lives of 10 people--
8 students and 2 teachers. While the high school and school district, 
as well as the community continue to recover from this tragic event, 
the State of Texas also continues to make school safety a priority.
    The TxSSC knows that schools face many threats, hazards, and 
vulnerabilities--and although an active attack is still rare--the 
impact is no doubt catastrophic. That's why we take a comprehensive 
approach to school safety. We provide training and develop tools/
resources for schools on how to prevent and/or mitigate as well as 
respond to and recover from, any type of threat that could arise.
    School architecture and design is one of those key mitigation 
strategies. To be clear, this isn't about installing cameras and metal 
detectors, although that may be appropriate for some schools. This is 
about designing schools to be learning spaces first; ones that contain 
minimally invasive but effective security measures. This best practice 
ensures that whether a building is new or existing, its physical 
features don't negatively impact teachers, students, or the community 
at-large.
    The TxSSC also stresses to schools the importance of prevention 
efforts in the overall comprehensive approach to school safety. Modeled 
after the State of Virginia legislation, Texas now requires school 
districts to have behavioral threat assessment teams. Responding to an 
active-shooter event or knowing what to do if an intruder enters the 
building are skills students, teachers, and administrators 
unfortunately need to practice and perfect. However, we know that 
educators are most interested in being preventative and proactive, not 
reactive. After a violent event occurs in our schools, educators, 
parents, community members, and legislators want to know how it could 
have been prevented.
    Research of U.S. school shootings has shown that these violent 
events can be prevented because the acts are typically planned in 
advance, the actors tell others beforehand about their violent plans, 
and the acts are often carried out because there is a level of 
desperation or the view that violence is the only option left to solve 
problems.
    Behavioral threat assessment provides a proactive, evidence-based 
approach for identifying individuals who may pose a threat to self or 
others, intervening with appropriate resources, and ultimately 
improving the safety and well-being of the individual of concern, the 
situation, and the school.
    The goal of threat assessment is not to punish a child, but to 
connect them with the appropriate interventions they need so a threat 
can be averted and that individual can be put on a path to success. 
Keeping our schools safe involves not just effectively responding to 
violent events, but working to prevent them as well. Behavioral threat 
assessment management is a means to do just that.
                impact of community violence on schools
    Community acts of violence also have a significant impact on 
schools. Most recently, on August 3, 2019, a gunman in El Paso, TX 
entered a Walmart and took the lives of 22 people, including a student 
from a nearby school district. Weeks later on August 31, a gunman 
senselessly killed 7 people throughout the Midland/Odessa community, 
including a student from a nearby school district. On November 5, 2017, 
a gunman fatally shot and killed 26 people at the First Baptist Church 
in Sutherland Springs, TX.
    Although these were not school shootings, they had a significant 
impact on the school districts in those communities. As mentioned, 2 of 
the individuals killed were students and many others either friends or 
family members of those in the school district. In the aftermath of 
these acts of violence, many of the school districts in these 
communities were also provided resources to assist with counseling for 
students, staff, and parents, which in some cases still continues 
today. It is important to understand that these acts of violence in the 
community also impact schools. I have spoken with several of the 
superintendents in these communities, who also knew I would be here 
today, and what is paramount throughout these discussions is the desire 
to engage in preventative strategies--specifically through the threat 
assessment process--to avert acts of violence before they ever occur, 
whether in our schools or in our communities.
    School safety is a shared responsibility that involves school 
boards, superintendents, principals, teachers, mental health 
professionals, law enforcement, architects, school safety 
professionals, various State agencies/organizations, parents, students, 
policy makers, and the entire community. By ensuring that our schools 
are safe and healthy learning environments, we give our children the 
opportunity to excel both academically and socially.
    Thank you for the opportunity to speak with you today and I look 
forward answering any questions you may have.

    Mr. Payne. Thank you for your testimony.
    I now recognize Mr. Schachter to summarize his statement 
for 5 minutes.

 STATEMENT OF MAX SCHACHTER, FOUNDER AND CEO, SAFE SCHOOLS FOR 
                              ALEX

    Mr. Schachter. My name is Max Schachter. My son Alex was 
one of 17 people that were brutally murdered at Marjory 
Stoneman Douglas High School last year. After I buried my son, 
my priority was to make sure that my other 3 children were safe 
in their schools.
    I have spent the past year advocating for National school 
safety best practices that can be recognized at the Federal 
level and housed a school safety website and made available to 
all schools. My goal is to make it as easy as possible for 
schools to be as safe as possible.
    I am pleased to see the President's Federal Commission on 
School Safety report recommend development of this 
clearinghouse, and the Department of Homeland Security, along 
with other Federal agencies, have been working extremely hard 
to implement this recommendation.
    I recently reviewed a demonstration of the DHS new school 
safety clearinghouse website. It is schoolsafety.gov. I was 
extremely impressed as well. I hope once the website is 
launched there will be an aggressive outreach campaign to 
schools and school districts so they take advantage of this 
information as quickly as possible.
    Two areas that this committee can have the most impact are 
in the areas of grants and emergency communications.
    With regard to grants, grants can be used so--I understand 
that FEMA preparedness grants can be used today by local 
jurisdictions to support school safety enhancements. I 
recommend this committee consider ways to ensure FEMA grant 
dollars that are used for school safety are used to implement 
the best practices identified on the DHS school safety 
clearinghouse website and that they should be used on the most 
basic safety enhancements before anything else. Expensive 
technology upgrades should take a back seat to common-sense 
measures that enhance security.
    With regard to emergency communications, in Parkland, the 
first-responder radios failed and were not interoperable, 
delaying help for victims who were dying on the third floor, 
waiting for medical attention. SWAT teams had to resort to 
using hand signals to avoid shooting each other because their 
radios failed.
    The 9/11 Commission report highlighted this problem at the 
Pentagon and at Ground Zero, and nearly 20 years later the same 
problem plagued our first responders at my son's school. This 
is not acceptable, and it has to stop.
    Congress can't force all first-responder agencies to use a 
single radio system, but you can incentivize agencies to become 
instantly interoperable as soon as an incident happens 
regardless of what radio system you are using.
    In addition to grants and communications improvements, I 
recommend Congress pass the EAGLES Act to reauthorize the U.S. 
Secret Service's National Threat Assessment Center so that they 
can expand the reach to help States develop threat assessment 
programs. These programs can identify students that exhibit 
concerning behavior and get them the help they need before they 
commit acts of targeted violence.
    I also support the TAPS Act, which would result in a DHS-
led process to develop threat assessment capabilities at the 
broadest level across the United States. The Secret Service 
uses threat assessment teams to protect the President. The 
Capitol Hill police use threat assessment teams to protect you 
in Congress. Our children deserve the same protection.
    In my view, the reason school shootings have been an 
epidemic for the last two decades is, No. 1, parents and 
community members have a mindset that it can't happen here. 
That false sense of security is partly due to the fact that 
schools are not being honest with the public about violence on 
their campus.
    Additionally, schools are not successfully establishing a 
positive culture and climate, as in many cases result in 
bullying, which can lead to school mass murder. We need to do a 
better job of teaching kids the tools to deal with their anger, 
rejection, and failure later in life.
    Florida has implemented laws to gain school district 
compliance, but I believe the most effective strategy to doing 
this is public pressure to make school districts prioritize 
safety and security.
    Unfortunately, there is no school safety rating system that 
currently exists to tell parents whether or not their school is 
safe. When parents go on-line to look at ratings of K through 
12, many of them have an A rating. They don't realize that that 
is just academics. Academics are important, but if the children 
do not come home from their school every day, nothing else 
matters.
    The car industry's crash test rating has improved car 
safety and decreased fatalities, but for parents, there is no 
way to know if their child's school is safe. I believe a school 
safety rating system would influence change Nation-wide.
    It has been 20 years since Columbine, and children continue 
to be murdered in their classroom. Unfortunately, we know that 
the next school mass murderer is already out there. It is not a 
question of if; it is a question of when. We know what can be 
done to prevent it, and we know what must be done to mitigate 
the risk of more lives lost.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Mr. Schachter follows:]
                  Prepared Statement of Max Schachter
                                9/26/19
    My name is Max Schachter, my son Alex was one of 17 people that 
were brutally murdered at Marjory Stoneman Douglas High School last 
year. After I buried my son my priority was to make sure my other 3 
children were safe in their schools. I could not afford to lose another 
child. I said to law enforcement and school officials show me the best 
practices, show me the school safety standards and they all told me 
there were none. I couldn't understand how that was possible. We 
developed fire codes after 92 children died in a school fire in 1958 
and it has worked. No child has died in a school fire in 60 years. It 
has been 20 years since Columbine and children and teachers continue to 
be murdered in their classrooms.
    I traveled the country and came to realize that in all of the 
139,000 K-12 schools, each principal had to become a school security 
expert. It made no sense to me that each school had to reinvent the 
wheel. The idea that crystalized for me was the need to create National 
School Safety Best Practices at the Federal level. Those best practices 
would be housed on a clearinghouse website so that all schools had a 
repository to find the most effective ways to secure their school.
    I was pleased to see this idea highlighted in President Trump's 
Federal Commission on School Safety report and the subsequent 
development of the clearinghouse in DHS. I received an in-depth demo of 
their new website SchoolSafety.gov several days ago and I was very 
impressed. DHS hopes to have it live by the end of October. Once the 
website has been launched there needs to be a huge outreach to schools 
and school districts.
    Once we have the best practices, we need to make sure that all 
Federal grant dollars are being used to implement the newly-developed 
best practices. For example, Broward County received $500,000 from COPS 
for analytic cameras when they did not even have an active assailant 
response policy. They were not training their teachers and staff what 
to do in a school shooting. They did not identify safer corner of the 
classrooms. They didn't have coverings for the windows to obscure the 
sight line of the shooter. In order to move the needle, we have to make 
sure schools are not just throwing money at the problem (analytic 
cameras) but they're doing things in a systematic planned approach.
    Unfortunately, we know we can't prevent 100 percent of these school 
mass murders. But we know that we can absolutely mitigate a lot of risk 
to students, teachers, and staff when they do happen. Every school can 
do things TODAY to improve school safety. Many of those things are low-
cost or no-cost. Those measures will be on SchoolSafety.gov. Things 
like developing a formal active assailant response policy, training 
your teachers and students what to do in an emergency, train all staff 
to lock doors, identify the safer corners in the classroom, If you have 
an app for students to report threats advertise it, train your students 
how to use it, make sure all teachers have the ability to block the 
sightline of the window, make sure law enforcement has live real-time 
access to school cameras during emergencies.
    Other measures I support are implementing Stop The Bleed kits in 
all classrooms and offices. That way your teachers and staff can be 
first responders. SWAT will not arrive for over 30 minutes. if you do 
not stop an arterial bleed within 5 minutes your chance of survival is 
minute.
    Given the fact that most school shootings take place in 4-5 
minutes, immediate notification to law enforcement and the entire 
school campus is paramount. The process in most K-12 schools takes way 
to long and people die due to the time lapse.
    One of best ways to prevent the next school shooting are threat 
assessment teams. After the VA Tech shooting the State of Virginia 
implemented the threat assessment program developed by the USSS 
National Threat Assessment Center. As a result, they have not had a 
school shooting since. I recommend all members to co-sponsor and pass 
the EAGLES Act. It reauthorizes the U.S. Secret Service National Threat 
Assessment Center so they will be able to expand their reach in order 
to help other States develop threat assessment programs to identify 
students that exhibit concerning behavior and to get them the help they 
need before they commit acts of targeted violence. I support the TAPS 
Act as well. The U.S. Secret Service uses threat assessments to protect 
the President. The Capitol Hill Police uses threat assessment teams to 
protect Congress. Our children deserve the same protection. Pass the 
EAGLES Act!
    In my view the main reason school shootings have been an epidemic 
for the past 2 decades is two-fold. No. 1, parents and community 
members have an ``it can't happen here'' mindset. That mindset lets 
complacency set in and prevents them from having a security mindset. 
Schools are not being honest about the violence on their campus and 
there is no way for parents to know if their child's school is safe. 
No. 2, schools are not successfully establishing a positive culture and 
climate on their campus which results in bullying. Kids are not being 
given enough tools to function after they graduate to deal with their 
anger, rejection, failure, and crisis they will no question experience.
    A prime example of the underreporting of campus violence can be 
seen in in what Marjory Stoneman Douglas reported to the State for the 
years 2014-2017. They reported No bullying, No harassment, and ZERO 
Threat/Intimidation. We all know those numbers are bogus and far from 
true. It's not just Broward County that is inaccurately reporting these 
incidents. This is pervasive across the entire country. The result is a 
false sense of security which leads to complacency in implementing 
school safety best practices. School districts around the country must 
ensure that each school accurately report all required incidents and 
that under-reporting is eliminated. Unfortunately, there IS AN 
incentive to underreport so the numbers look good.
    On college campuses, the Federal Cleary Act imposes large financial 
penalties for inaccurate reporting of campus crime statistics. In K-12 
there is such no requirement. When the public goes on-line to look at 
the ratings of K-12 many of them, including MSD, have an `A' rating. 
The public does not understand that has nothing to do with the safety 
of that institution. That is just academics. Academics are important, 
but if children do not come home from school every day NOTHING else 
matters. There is no school safety rating system currently to inform 
parents and teachers whether or not their school has implemented best 
practices to prevent and mitigate casualties during the next school 
attack. Florida has implemented laws to gain school district 
compliance, but I believe the most effective strategy is to use public 
pressure to make school districts prioritize safety and security. I 
believe we need a school safety rating system. The car industry's crash 
test rating system has improved car safety and decreased fatalities. 
But for parents there is nothing. No way to know if your child's school 
is safe or not.
    Broward County Public School pre-arrest diversionary program known 
as PROMISE created a culture of leniency within its schools. This 
prevented the judicial system from having an opportunity to address the 
murderer's systematic violent behavior and resulted in him never being 
arrested. He was able to accumulate 55 instances of disciplinary 
action. Everyone is in favor of giving kids a ``second chance'' but not 
55 of them. This disciplinary system prioritized the rights of the 
murderer over the rights of every other child in his classes and 
schools that he tormented, assaulted, and threatened. There were 69 
documented incidents where the murderer threaten someone, engaged in 
violence, talked about guns or other weapons. It was no surprise to 
anyone on campus that he had committed this horrible act of violence. 
He had been violent since age 3. There were an additional 43 instances 
of law enforcement interaction with him outside of school. He was never 
arrested. He had all the red flags of a future school mass murderer. He 
was suicidal, homicidal, killed animals, mutilated their bodies, 
obsessed with weapons, and when he turned 18 his mother bought him a 
gun.
    Broward County public schools used FERPA to not share information 
and data with law enforcement. Their refusal to let law enforcement 
have access to school cameras prevented law enforcement from having 
live actionable intelligence inside the building. They waited 11 
minutes to enter the building. Upon arriving law enforcement thought 
the murderer was still inside. They did not go up to the third floor 
for over 40 minutes to administer medical attention to the 10 kids that 
had been shot and were dying. They had no idea the murderer had escaped 
after 6 minutes.
    There must be a conversation with the law enforcement about active-
shooter training. Broward Sheriff Office Active Shooter policy on 2/14/
18 was that officers MAY go toward the shooter as opposed to SHALL go 
toward the shooter. During the interviews of BSO deputies some could 
not remember if their last active-shooter training was 10 years ago or 
20 years ago. That is probably because their training frequency was 
only every 3 years. The SRO on campus Deputy Peterson underwent a 
single, 1-hour active-shooter exercise in the 3 years leading up to the 
mass shooting. They only had 5 trainers for a force of over 5k 
officers. The SRO on campus arrived at the front of the building in 1 
min 44 seconds. By then 24 people had been shot and or killed on the 
first floor. After arriving to the front of the building the SRO heard 
the gun fire. He then went and hid behind a concrete pillar for 48 
minutes. He never entered the building. Active-shooter training builds 
muscle memory. Unfortunately, during a mass casualty event people do 
not rise to the occasion. they fall to their lowest level of training. 
The other responding agency, Coral Springs Police Department, conducts 
active-shooter training every year. Those officer in contrast went 
right into the building. Eight Sheriff deputies heard gunshots and did 
not attempt to enter the building. They are either under investigation, 
reassigned, or retired. [sic] no active bulletproof vest wear policy
    After Columbine, all responding officers were required to rapidly 
deploy directly to the threat. Yet in Parkland, 8 deputies waited 
outside for 11 minutes while kids and staff were being slaughtered. In 
Parkland, first responder radios failed and were not interoperable, 
delaying help for victims. SWAT teams had to resort to hand signals to 
avoid shooting each other because their radios failed. Yet as a country 
we haven't truly committed to solving the communications problems. We 
can't force all agencies to use a single radio system, but we CAN make 
it possible for them to communicate no matter what system they are 
using. After Sandy Hook each school should have trained their students 
and staff how to respond to active shooters. Sadly, many did not. 
During the 2017-2018 school year, Marjory Stoneman Douglas did not hold 
a single code red drill. Students and staff did not know what to do 
when the murderer fired his AR-15 into classrooms and killing their 
classmates. No staff member called a code red until 3 minutes after the 
shooting had started. By then all 17 people were dead, including my 
little Alex.
    It has been 20 years since the Columbine massacre and children 
continue to be murdered in their classrooms. We know the next school 
mass murderer is already out there. The gun that he will use is already 
out there. It is not a question of IF, it is a question of WHEN. We 
know what can be done to prevent it, and we know what MUST be done to 
mitigate the risk of more lives lost.
  Attachment.--School Safety Measures Implemented in Florida Post the 
             Marjory Stoneman Douglas High School Massacre
    *Majority of measures were recommended by the Marjory Stoneman 
Douglas High School Public Safety Commission after their 14-month 
investigation into the 2/14/18 massacre. Their recommendations were 
subsequently signed into law by Florida Governor Ron DeSantis.
    *All measures are completed except for ones marked
                               gun safety
  <bullet> Created a legal process (Risk Protection Orders) that 
        requires people meeting certain criteria (threatened self-harm 
        or harm toward others) to surrender their firearms and 
        prohibits them from purchasing firearms.
  <bullet> Prohibits gun purchases by anyone under age 21 and requires 
        a 3-day waiting period for all gun purchases.
  <bullet> Authorizes law enforcement officers to seize firearms when 
        taking someone into custody under the Baker Act for threatened 
        harm toward another person.
                            guardian program
  <bullet> Created the Guardian Program and required that there be an 
        armed Safe School Officer (armed person) on every school 
        campus.
  <bullet> The legislature should expand the Guardian Program to 
        include all school personnel.
  <bullet> Law enforcement and guardian staffing should be sufficient 
        on each charter, elementary, middle, and high school campus to 
        provide immediate back-up and appropriate and timely response 
        to an active assailant situation. (Pending. Most schools have 
        one or two SROs or guardians, but most school districts still 
        prohibit any school staff from participating in the guardian 
        program.)
                             mental health
  <bullet> Expanded mental health Community Action Teams to focus on 
        people up to age 21 who have a history of criminal justice and 
        law enforcement involvement.
  <bullet> Expanded multi-agency network of mental health services in 
        K-12 schools.
  <bullet> Expanded mental health Mobile Response Teams focusing on 
        people up to age 25 who are in crisis and need intensive case 
        management until they are placed into services.
  <bullet> At registration, every student is required to disclose any 
        prior mental health referrals and schools are permitted to 
        refer students for mental health services.
  <bullet> Courts are required to report to the school superintendent 
        any child they refer to mental health services.
  <bullet> Mandated that mental health professionals report and warn 
        others of impending threats by their patients.
  <bullet> School mental health records must be placed in the student 
        record and follow the student when he/she transfers from school 
        to school and inter-district. Records are now required to be 
        transferred within 3 days and if a student is under care of a 
        Threat Assessment Team the transferring team is responsible to 
        ensure continuity of services until the receiving school's team 
        evaluates the student.
  <bullet> Students referred for mental health services must commence 
        treatment within 45 days. School-based treatment must begin 
        within 15 days and community treatment within 30 days.
  <bullet> Consider targeted mental health case management for people 
        in 13 to 25 age range.
  <bullet> School districts should coordinate mental health services 
        with community providers. (Pending, but law now permits 
        referrals by school providers to community-based providers).
                               prevention
  <bullet> Created FortifyFL app as a mobile suspicious activity 
        reporting tool and requires that all Florida schools promote 
        the app.
  <bullet> Every school in the State is required to have a Behavioral 
        Threat Assessment Team. The team is required to have certain 
        members, including a law enforcement officer.
  <bullet> FLDOE will provide all districts a standardized behavioral 
        threat assessment instrument and develop an on-line threat 
        assessment database.
  <bullet> Required the development of an Integrated Data Repository 
        and Social Media Monitoring tool.
  <bullet> Makes it a felony to threaten to kill someone without the 
        previous ``transmission'' requirement.
                            school hardening
  <bullet> Every classroom must have a designated safe area or hard 
        corner.
  <bullet> Require that all gates to school campuses are closed and 
        locked. When open the gates must be staffed. (Pending. Survey 
        shows compliance in 59/67 districts.)
  <bullet> All campuses should have single ingress and egress points. 
        (Pending)
  <bullet> Each classroom door should have an immediately available 
        opaque covering to block the line of sight from the outside. 
        (Pending)
  <bullet> Every school should have a policy requiring that classroom 
        doors be locked when occupied.
  <bullet> All law enforcement agencies in Broward County should have 
        live, real-time access to cameras in all Broward County 
        schools. (Pending. BSO has access and access is pending by 
        other agencies.)
  <bullet> Every school must have an effective communication system 
        through which all personnel may transmit and receive threat 
        notifications. (Pending. Survey shows some compliance but still 
        pending in many schools).
  <bullet> Required annual physical site security assessment of every 
        school in the State, and report to DOE using the Florida Safe 
        School Assessment Tool (FSSAT). In addition to the school 
        specific assessment and report, a separate district-wide report 
        is required annually.
  <bullet> Established School Hardening and Harm Mitigation Workgroup. 
        The workgroup must be comprised of school security subject-
        matter experts and the workgroup must submit a report with 
        recommendations to DOE by August 1, 2020.
                            training/drills
  <bullet> Every school must conduct monthly active assailant drills.
  <bullet> Every school district and charter school must adopt an 
        active-shooter response plan and all school personnel must be 
        trained on the plan.
  <bullet> All school active assailant policies must make clear that 
        all staff are empowered to initiate an active-shooter response.
                  discipline policy/diversion program
  <bullet> School district ``zero tolerance'' policies cannot apply to 
        petty acts, except acts of violence, but when a student commits 
        more than one misdemeanor the Threat Assessment Team must 
        consult with law enforcement to determine if the act should be 
        ``reported'' to law enforcement.
  <bullet> Include school diversion programs under the same auspices as 
        community juvenile diversion programs. (Not completed but DJJ 
        report just issued.)
                        broward sheriff's office
  <bullet> BSO should change its active assailant response policy from 
        ``may'' to ``shall,'' requiring that deputies enter an active-
        shooter situation to stop the threat.
  <bullet> BSO should increase the frequency and quality of its active 
        assailant response training.
                       radio/communications/9-1-1
  <bullet> Law enforcement agencies throughout Florida should be 
        required to have radio interoperability in each county and with 
        surrounding jurisdictions.
  <bullet> Police agencies should be required to share primary patrol 
        radio channels with other agencies.
  <bullet> All 9-1-1 centers should have direct radio communication 
        with all first responder agencies in their service area.
                  broward county public schools (bcps)
  <bullet> BCPS should conduct an internal investigation into the 
        actions and inactions of AP Jeff Morford (mishandling of the 
        Cruz threat assessment), Principal Ty Thompson and others. 
        (Pending).
  <bullet> Require that all school personnel report suspicious 
        incidents to a school administrator, that the incidents be 
        tracked, and their disposition documented.
  <bullet> BCPS should evaluate its threat assessment process.
                    florida department of education
  <bullet> Every school district is required to have a School Safety 
        Specialist to oversee school safety in the district.
  <bullet> Created the Office of Safe School (OSS) within the 
        Department of Education (DOE). OSS is responsible for 
        compliance and oversight of all school safety and security 
        matters throughout the State.
  <bullet> Establish a workgroup to recommend FERPA changes. (Pending. 
        The DOE analysis was just completed.)
  <bullet> Require mandatory use of the Florida Safe School Assessment 
        Tool (FSSAT) by all districts and schools.
  <bullet> Authorizes the FLDOE commissioner to oversee and require 
        compliance with all Florida school safety laws including 
        completion and submission of the FSSAT.
  <bullet> FL DOE commissioner and State BOE now has sanction authority 
        to ensure compliance with all mandated school safety 
        requirements.
  <bullet> CJSTC should require single officer response training. CJSTC 
        has not acted on this but FDLE has created the training. 
        (Pending.)

    Mr. Payne. I would like to thank all the witnesses for 
their testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel.
    I will now recognize myself for questions.
    Ms. Hogg, I want to take a minute before I ask my question 
to show a video that March for our Lives put out about active-
shooter drills in schools and the reality of what kids are 
going through today. For context, this is a real student and 
was not scripted.
    So let us play the video, please.
    [Video shown.]
    Mr. Payne. Ms. Hogg, can you tell the subcommittee what 
goes through your mind when you see this video? What should 
Congress be doing to help ensure kids are safe in schools, 
rather than putting the responsibility on kids to become 
experts in active-shooter situations?
    Ms. Hogg. So I was grateful enough to be able to be part of 
the creation team on this video. I remember, when I first saw 
it, the first thing that came to mind is myself. I saw myself 
in that little girl that was giving that training because that 
was me; that has been me my whole life. As I said, I was born 
after Columbine, and we learned those little rhymes, nursery 
rhyme things, that are supposed to teach you how to try and 
survive when somebody comes into your school to murder you.
    Additionally, I think there are many things that can be 
done that I addressed in my testimony. But I think, of course, 
I will always say this: The first step, although it may be 
difficult, is to address the gun violence epidemic.
    Additionally, like I said, we must invest money into school 
mental health resources. We cannot just say again or hear 
again, from my perspective, Members of Congress say that they 
are going to do something about mental health--because I 
completely agree with that--but then do absolutely nothing.
    I have seen what it is like. I am still in school. I think 
for many people, many legislators, like yourselves, school is 
different these days, probably, than when you went to school. 
There are so many extended pressures, extra pressures, that we 
deal with every single day. So I really would push mental 
health. I think you need to have those conversations with 
mental health professionals themselves to see what works best.
    Yes, I think, like I said, with that video, all I saw was 
myself growing up, because that was me, and that still is me, 
and it will probably forever be me, because that is what I was 
taught as I was learning my ABCs.
    Mr. Payne. Thank you.
    The Chair recognizes Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    Let me thank all the witnesses, especially Ms. Hogg and Mr. 
Schachter, for being here today and trying to make something 
positive out of something so horrible. So I want to thank you 
for that.
    Director Maples, let me lead off with you. First of all, 
thank you for your work on homeland security from a neighboring 
State. I know the work you are doing, and I am very 
appreciative of that.
    Mr. Maples. Thank you.
    Mr. King. You mentioned training programs from grants. Do 
you think those programs are successful in preventing violence? 
Are schools implementing them?
    Mr. Maples. So the training programs that we have existing 
in New Jersey, one of the biggest focus areas for us is on that 
preventive part. So we are really focusing on everything from 
bus drivers, to custodians, to teachers, to students, as far as 
if a classmate is demonstrating or a person they know in the 
community is demonstrating behavioral indicators, that they 
should report that.
    So part of training becomes, No. 1, recognizing what those 
behaviors are and, No. 2, where to go with the information in a 
way that maintains everyone's rights but allows us to look into 
it and work with mental health professionals, the school 
district, the law enforcement part, et cetera.
    So, from that perspective, we are implementing those across 
the State----
    Mr. King. Do you find the school districts are taking it 
seriously?
    Mr. Maples. We do. In New Jersey, we definitely have--I am 
sure there are some outliers. There definitely are outliers. 
But we continually work with them and with the Department of 
Education to make sure that that training gets out there and 
they are taking it seriously.
    Mr. King. Mr. Schachter, along those lines--again, thank 
you for your testimony. You basically discussed the lack of 
concern that too many school districts have had. You have 
spoken all over the country now. Do you find that the concern 
is increasing? Is there still an apathy in certain districts, 
thinking it is never going to hit them?
    Mr. Schachter. It depends. If you have had a school 
shooting in your community, you are hyper-vigilant, but many 
schools districts around this country still think it is not 
going to happen to them.
    You know, there is no way for parents to know whether or 
not your school is safe. There are so many things that we can 
do today that are low-cost, no-cost that have been implemented 
in Florida.
    Just to give you an example, in Broward County, which is 
the sixth-largest school district in the country, we didn't 
even have a formal active assailant response policy. Marjory 
Stoneman Douglas did not conduct a Code Red drill for several 
years prior to the shooting. So they didn't train their 
teachers, they didn't train their staff what to do in an 
emergency. If, God forbid, an active shooter walks on your 
campus, what is happening--what happened at Marjory Stoneman 
Douglas is a lot of dead people. That needs to change.
    So, you know, in Florida, we have mandated--we have come to 
the realization that schools are not going to do the right 
thing. They have failed to protect our children. In Florida, we 
have mandated that schools implement drills. We have mandated 
every one of them has to have an active assailant response 
policy. They all have to train.
    Training in a lockdown, which is what many schools are 
doing, is just teaching the next school shooter exactly where 
to go. We need to be training them and giving them options-
based training so that they have lots of different options if, 
God forbid, something happens.
    So, extremely happy that we have the school safety website 
coming live, but we need more schools to be able to access that 
information and make their schools safe. There is still a lot 
of apathy in this country.
    Mr. King. Is there any resistance, or is it just apathy?
    Mr. Schachter. You know, I think----
    Mr. King. A lot of people don't want to hear about it. I 
remember, like, for instance, when the heroin epidemic was 
starting, many schools didn't want to admit that there was a 
heroin epidemic. They didn't want to admit it was in their 
district. They were afraid of what was going to happen in the 
next school budget or what the rating of the school would be. 
Do you find any resistance like that when it comes to gun 
safety?
    Mr. Schachter. You know, there is a culture to underreport 
violence on campus. Just to give you an example, in Broward 
County, at Marjory Stoneman Douglas, between 2014 to 2017, they 
reported zero assaults, zero threats, zero intimidation. These 
are all not true and lies.
    So we need accurate reporting of violence on campus. 
Bullying can lead to mass murder. We need to be able to know 
what is happening on our campus so we can help the children, we 
can reduce violence on campus. That will make all children 
safe, that will make communities safe.
    It is a cooperative effort, so it is working with law 
enforcement inside the community, inside the schools.
    Mr. King. Thank you for your dedication and for your 
eloquence.
    Mr. Schachter. Thank you.
    Mr. King. I yield back, Mr. Chairman.
    Mr. Payne. Thank you.
    I now recognize the gentleman from New York, Mr. Rose.
    Mr. Rose. Thank you, Mr. Chairman.
    Ms. Hogg, thank you for showing the courage to come here 
today.
    Do you think we have done enough, Congress?
    Ms. Hogg. I mean, I think if you would have done enough, we 
wouldn't have to be having this conversation today, right? Just 
to be frank with you.
    I think if we did enough, I wouldn't be here. I wouldn't 
have lost my friends. Lots of people back in my community in 
Florida would not have lost their children or their loved ones. 
I think there is much more that needs to be done.
    I appreciate, as I stated in my testimony, you allowing me 
to be here today, because that is the first step, but I think 
there is a myriad of things that we need to work on, like I 
said.
    I believe part of school safety is implementing proactive 
measures that include things like gun violence prevention. And 
that something that is so often is not wanted to be something 
that is talked about.
    But I think we need to remember, I think one of the 
greatest things you all can do as Congressmen and -women is 
continue to have young people who are being affected by this be 
at the forefront of these conversations.
    Mr. Rose. I want to get a sense of what you and your 
friends who went through this horrific crisis think about us in 
Washington, DC.
    If Parkland happened tomorrow, again----
    Ms. Hogg. It might, at a different school.
    Mr. Rose. It might.
    Ms. Hogg. Yes.
    Mr. Rose [continuing]. If Sandy Hook happened again 
tomorrow somewhere else, do you think we would act?
    Ms. Hogg. With regards to school safety?
    Mr. Rose. And gun control.
    Ms. Hogg. I hope one day you will.
    Unfortunately, if that takes until people my age are in 
your position, to have grown up learning school safety 
procedures and losing loved ones to gun violence. If you guys 
don't act, eventually I know things will happen. Because people 
my age, who have been continuously traumatized by instances of 
gun violence, whether that be with in regards to in-school or 
out-of-school gun violence, and especially communities of 
color, we are going to be the legislators, sitting in your 
seats. We are going to be the ones who have lived through this. 
We will have to make these changes.
    Trying to imagine a world where school shootings aren't a 
thing that happened to myself is like trying to describe a 
color to a blind man. I mean, this has been my normal my whole 
life. It is unfortunate, but it has.
    I mean, I think if Sandy Hook or Stoneman Douglas happened 
tomorrow, I am not sure if many of Congressmen, Congresswomen 
today would do anything unless it was their own child or their 
own loved one who was taken to gun violence.
    Mr. Rose. Ms. Hogg, I don't think you and your friends at 
this point have any reason to trust us.
    I think--I share your sentiments. I don't know how much 
more blood has to be spilled in this country, I don't know how 
many more children have to be afraid to go to school, I don't 
know how many more parents have to hug their kids before they 
go to school, fearing that they are not going to come home, 
before we do something.
    This is as sad as it gets. You are right; it may have to 
come to you and your friends replacing us up here before we 
actually act.
    Ms. Hogg, as you think about your teachers that you have 
had, do you think that they are capable during another Parkland 
of discharging a weapon in your defense?
    Ms. Hogg. I think it is not their responsibility.
    I come from a family of teachers. I think when they went to 
college, when they went to school to become an educator, they 
weren't thinking that part of their job was going to have to be 
a security officer.
    So, like I stated in my testimony once before, we had an 
armed officer at my school, and when it came to that moment of 
fight or flight, he went away.
    So the idea that teachers having guns would solve this 
issue is the same idea as giving another person a gun to solve 
gun violence is the issue, if you know what I am saying.
    When we hear those things, like, two guns will protect the 
majority of people from one bad guy with a gun, that is kind of 
just sounding like we are trying to turn every single 
individual, or in this case every single teacher, into an armed 
vigilante. That is something that no teacher should have to be.
    Also, I just cannot imagine, if teachers were armed, the 
amount of incidents that would take place, that would be them 
killing a student who didn't happen to be the perpetrator of 
the violence. I think there would just be more violence coming 
out of that if teachers were armed.
    Mr. Rose. Thank you, Ms. Hogg, for your testimony, and 
thank you for your leadership. I wish there were more folks 
around here like you.
    Ms. Hogg. Thank you.
    Mr. Payne. Thank you.
    I now recognize the gentleman from Pennsylvania, Mr. Joyce.
    Oh, I am sorry. He is gone.
    I recognize the gentleman from Texas, Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    Thank you, everyone, for being here.
    Mr. Schachter, thank you for being here. You are doing a 
great justice to your son's memory----
    Mr. Schachter. Thank you.
    Mr. Crenshaw [continuing]. By looking for the right 
solutions to this.
    You answered a lot of my questions because your testimony 
was so exact. You mentioned the National best practices 
clearinghouse and the schoolsafety.gov being a great first 
step. But you said that there is going to be an issue with how 
well we get that information out to schools. Do you have any 
recommendations on the best way to do that?
    I would like Ms. Martinez-Prather to also answer that 
question. What is the next step--after Mr. Maples as well--what 
is the next step after what are deemed to be pretty good next 
steps or pretty good solutions already?
    Mr. Schachter. The first thing that we are lacking is--you 
know, at the end of October, that website is going to go live. 
So, you know, there are going to be a lot of great resources on 
that website. It is very interactive, so schools will be able 
to go on there, answer a series of questions to see where they 
are in the process of making their school safe. Then that 
website will walk you through the process, it will tell you 
where your gaps are, where your deficiencies are. Then it will 
actually direct you to grant dollars.
    To give you an example, one of the deficiencies that we 
have currently is that a lot of our grant programs, they are 
not implementing best practices. So what I would like to see is 
that, once we have these best practices, once the website goes 
live, tie those best practices to the grant dollars.
    We want to make sure that schools are implementing the most 
effective measures to make schools safe. We don't want schools 
implementing just some shiny object that is not really going to 
have an impact.
    Mr. Crenshaw. So the issue isn't necessarily that there is 
not enough grants or not the right grants; the issue is that we 
are not tying that grant money to the right basic practices.
    You mentioned this, too, about what are the basic measures, 
not the fancy bells and whistles, but what are the basic 
measures. Can you answer that as well?
    That is the next question I have for you both, as well.
    Thank you.
    Mr. Schachter. So, as far as low-cost, no-cost measures, 
for instance, just having a formal active assailant response 
policy. I mean, to think that the sixth-largest school in the 
country didn't have it, I am sure there are a lot of other 
schools around this country that don't have a simple policy.
    You know, to train your teachers and staff. These are low-
cost measures. Training your staff to lock your doors, to teach 
with a locked door; identifying a safer corner in the classroom 
that children know where to go in an emergency.
    Then it is encouraging students to report violent threats. 
Kids know, you know, who put something on Snapchat or 
Instagram. We need to encourage them, see something, say 
something, but, more importantly, do something with that 
information that they know about.
    Then one of the problems at Marjory Stoneman Douglas is, 
law enforcement that responded did not have access to live, 
actionable intelligence. The school district used FERPA to not 
share cameras with law enforcement. So when they came on-scene, 
they didn't know where the shooter was. It took them 11 minutes 
to get into the first floor and 40 minutes to get to the third 
floor to administer medical attention to the 10 kids that were 
shot and dying on the third floor.
    You know, as far as getting the word out, we need to work 
with every State school safety center to get that information 
out and populated as broadly as possible.
    Mr. Crenshaw. OK. We have one of those right here.
    Ms. Martinez-Prather, could you expand on that? Also tell 
us about the threat behavioral assessments that Texas uses. Are 
there any metrics or any successes there we could speak of?
    Ms. Martinez-Prather. Yes, sir.
    Well, regarding the Federal clearinghouse, what is great 
about that is it is an interagency effort. So, oftentimes, from 
a State perspective, you have multiple agencies working on this 
effort in good faith, saying different things, and that 
confuses school districts. Our role at the State level is to 
bring all that together, synthesize it, incorporate Texas 
considerations--because we have pretty comprehensive mandates 
for schools to follow--and push that back out to school 
districts.
    So I think that it is great that all of the agencies are 
working together on this effort. I think that is going to help 
with clear lines of communication and guidance.
    Texas really took a page from the State of Virginia in 
passing its behavioral threat assessment legislation this 
session with this idea of prevention really needing to have a 
focus. It is part of that comprehensive piece.
    In the Center, we focus on mitigation prevention primarily. 
The idea here is, we are creating a culture of situational 
awareness where students trust adults, they know they can go to 
somebody, they know they are not snitching on another peer. 
Because we know that they have that intel, they have that 
information to share, and most oftentimes they don't, for 
various reasons.
    But knowing that they are able to report that information, 
knowing that that individual is going to get help. We always 
stress that it is not intended to be a means of engaging in 
exclusionary discipline.
    In Texas, there are going to be several pieces of data that 
will have to be collected and which our State education agency 
will be overseeing in terms of who is on that behavioral threat 
assessment team, because the big focus here is that it has to 
be multidisciplinary. It is not just the school principal. It 
is not just the school counselor. You have your campus 
administration, a law enforcement officer, a mental health 
professional, a teacher. Depending on the situation, it is 
fluid. You may bring in an ad hoc member that has a close 
relationship with the students.
    The idea here is that it captures pre-incident indicators 
or alarming behaviors that may not just be leading to an act of 
violence. It----
    Mr. Payne. Thank you.
    Ms. Martinez-Prather. Can be a student who is, you know, 
threatening harm to themselves. It may be behaviors have 
changed that show there may be a substance abuse problem. Maybe 
there is trauma experienced at home. So how can we----
    Mr. Payne. Please wrap up your answer, please.
    Ms. Martinez-Prather. I am sorry? Oh, yes.
    Mr. Payne. No, you can finish your answer.
    Ms. Martinez-Prather. Sorry about that.
    Mr. Crenshaw. We only get 5 minutes.
    Ms. Martinez-Prather. It is a long answer, but that is 
where Texas is going in terms of its threat assessment.
    Mr. Crenshaw. OK.
    Well, my time is up. Thank you all for being here. I am 
sorry I didn't get to everyone. Thank you all for being here. 
It takes a lot of guts, especially at a young age, to come 
here. So thank you very much.
    Mr. Payne. Thank you. Next we will recognize the gentlelady 
from Illinois, Ms. Underwood.
    Ms. Underwood. Thank you, Mr. Chairman.
    Children should be free to live their lives and go to 
school without the fear of gun violence. Unfortunately, this is 
not a reality for the 58 million students who are in their 
first weeks of a new school year. Just this Tuesday, students 
from Courtland Elementary School in my district participated in 
their first active-shooter drill of the year. This is one of 
the many active-shooter drills and trainings students and 
teachers will participate in this year to prepare for a day we 
all hope will never come.
    Mr. Schachter, thank you so much for being here to honor 
your son and to protect communities around the country. Ms. 
Hogg, thank you so much for joining us here today and sharing 
your experience. Thank you for your leadership. You, your 
brother, and your fellow advocates are an incredible 
inspiration to me.
    I also applaud March for Our Lives peace plan for a safer 
America, which makes a number of recommendations to help ensure 
our communities are safe from gun violence. When I reviewed 
your plan, I was especially glad to see that it includes 
expanding background checks and dedicating annual funding for 
gun violence prevention research. Proposals that I am proud the 
House has passed this year. These are just the first in a 
series of necessary steps.
    So Ms. Hogg in your testimony, you encourage investments in 
mental health resources in schools. Can you tell us more about 
why these investments are so important to students like you?
    Ms. Hogg. Well, thank you for that. I feel kind-of hyped-
up. So I think I have said this, I am just going to reiterate 
some things that I have said before. Like I said, we need 
nonaggressive pro-actionary measures because when we put in 
these measures, by that I mean, security measures and not 
mental health measures, it is almost as if our students are 
being punished for the ways of the world to protect us. 
Punishment to protect is something that has been shown to be 
ineffective.
    Additionally, we must not be suffocated by school security 
measures and by having mental--trained mental health 
professionals there. I think that is helping, you know. I think 
that is decreasing the amount of suffocation that these 
increased security measures are causing.
    I think when it comes to school security specifically, 
mental health professionals can help us deal with the increase 
of security due to the ways of the world, like I said, the lack 
of action around gun violence prevention. I think specific 
mental health counselors, not just guidance counselors--because 
I cannot tell you the amount of times before even the shooting 
that happened at my school, I went to my guidance counselor and 
the ratio of guidance counselor to student number is something 
that is outrageous to me.
    I remember--I didn't do the math until after, and at a 
school Marjory Stoneman Douglas was about 4,500 kids and there 
were like 4 or 5 guidance counselors. So I remember my guidance 
counselor did not know my name until after the shooting when I 
went to her to ask for help and then again, I had to schedule 
toward the end of the week because she said she was busy 
because it was when spring was and she was trying to get kids 
into college.
    But really, mental health professionals have helped me so 
much and even then, I mean, I had some difficulty with the 
mental health professionals that were put in place at my school 
as a reactive measure after the shooting that occurred. But we 
have to ensure that, especially if it is in the post of a 
school shooting, these people are trauma-trained.
    Ms. Underwood. Yes.
    Ms. Hogg. Because if you put a guidance counselor who 
spends the majority of their time doing academic counseling 
into a situation where kids have watched their friends be 
murdered and bleed out on the floor next to them, it doesn't 
work. Trying to get a kid into college and trying to explain to 
the kid why they saw what they saw is something that is 
impossible.
    Ms. Underwood. Thank you.
    Ms. Hogg. Thank you.
    Ms. Underwood. The conversation around keeping our school 
safe has to include a discussion on how we can ensure that 
students feel safe again at school after the traumatic event as 
you just described.
    Last year The Washington Post had an analysis which found 
that 187,000 students had been exposed to gun violence at 
schools since Columbine. We are facing a future in which 
hundreds of thousands of Americans will be carrying these 
physical and mental scars for the rest of their lives.
    Can you talk a little bit, and briefly, about the long-term 
challenges that you and your classmates face in the aftermath 
of the shooting? We touched on the trauma, but anything else 
that you want to share with the committee today?
    Ms. Hogg. Yes. I mean, additionally, when it comes to what 
you guys can do to help in aiding in trauma, the first thing 
you can do is address gun violence as an issue and take action 
on that because, at least for my trauma, I know many other of 
my friends and other victims of gun violence, every single week 
when another shooting happens and we see it on the news whether 
it be a mass shooting or a local shooting in a community 
nearby, we are retraumatized.
    We feel as though we are back in the moment that we went 
through a shooting of ourselves and those stages of grief 
restart every single week. Every single week--sorry I am 
continuing on--but every single week I watch CBS Sunday Morning 
and they usually address school shootings when they happen.
    So every single Sunday for a long time--and that has been a 
family tradition of mine since I was like 5 years old watching 
that--I had to stop watching it because I would hear the 
stories of the people that went through the school shootings 
every single Sunday and I could no longer do it because I 
wouldn't be ready to go to school the next day mentally.
    So that is the first thing you can do, addressing gun 
violence as an epidemic.
    Ms. Underwood. Yes, Ms. Hogg. Thank you.
    As a nurse I know it is not uncommon for people who have 
lived through school shootings to experience post-traumatic 
stress and other traumas. This is especially true for children 
and we are going to work to address it. Thanks to all the 
witnesses for being here.
    I yield back my time.
    Mr. Payne. Thank you. I now recognize the gentleman from 
Mississippi, Mr. Guest.
    Mr. Guest. Thank you, Mr. Chairman. I also have an 
experience with school shootings. As a prosecutor, I had the 
opportunity to be involved in the investigation and preparing a 
case for trial of one of the first school shootings in the 
country, the Pearl High School shooting.
    On October 1, 1997, Luke Woodham, early that morning, 
killed his mother before going to school. He then concealed a 
rifle in an overcoat, entered Pearl High School where he then 
opened fire on multiple students killing Christina Menefee and 
Lydia Dew and injuring 7 other students. I am also aware of the 
mental health aspect because Luke Woodham also had mental 
health issues and attempted at trial to claim that the jury 
should find him not guilty by reason of insanity.
    The jury rejected that claim, and even though the jury 
found that he did suffer from mental illness, that that mental 
illness did not arise to the level where he should not be held 
responsible for his actions and Luke Woodham today is currently 
serving 3 life sentences plus 140 years. But one of the actions 
on that day was an action by one of the school administrators.
    The school administrator who was there in school when the 
school administrator heard gunfire, he immediately went to his 
vehicle, he obtained his firearm, and he was able to apprehend 
Luke Woodham before he left the campus that day. I will tell 
you from my investigation and my working with law enforcement, 
we believe and are very confident that his actions that day 
saved additional lives.
    Because of his prompt response, because there was 
additional rounds of ammunition, Luke Woodham would have 
continued this rampage if he would not have been apprehended 
very quickly. I am aware that in response to Parkland that 
recently earlier this year, the legislature in Florida passed a 
law which was signed by the Governor that would allow school 
officials in Florida to be armed.
    It expands what they call in Florida the Guardian Program, 
and that program, though, does set forth stipulations. Those 
stipulations include, No. 1, that the school district must 
approve the measures so, therefore, schools are not required to 
do that, but schools have the option to opt in.
    No. 2, teachers must volunteer for the program. No one is 
required to participate, but teachers have the opportunity to 
volunteer. They must undergo background checks, there must be 
psychiatric evaluations, and there also must be specific 
training by law enforcement to make sure that teachers are 
trained.
    So, Mr. Maples, my question to you is, do you believe that 
the response by the Florida legislature in allowing school 
districts to opt in to a system that I just referred to, do you 
believe that should be part of this discussion that we are 
having as it relates to school violence and school shootings?
    Mr. Maples. So let me start out by saying this is an 
incredibly complex issue, the school safety in general, and I 
think that is pretty clear from the testimony and certainly 
from all of your questions. As part of what we are trying to do 
in New Jersey and that is the only thing I can answer to is the 
New Jersey aspect of this, we are looking at every solution out 
there whether it be the violence prevention, whether it be 
measures like arming teachers. We are looking at everything.
    But I will tell you that the very first steps--and I think 
Mr. Crenshaw asked a question about what are the next steps 
that we take, it has to be about that initial training exactly 
what Mr. Schachter was talking about, adhering to those best 
practices, the plan. No plan survives first contact. That is 
something we used to say in my community and I worked at CIA 
for most of my career protecting people. It is what I did and 
no plan survives first contact.
    We have to have a plan in place and until--one great 
example is, you can have the best S.W.A.T. team in the world on 
standby in the east wing of a school like Stoneman Douglas and 
if somebody lets him in the back door on another wing, people 
are going to die and it is an unfortunate consequence of that. 
So we have to talk about locking the doors as Mr. Schachter 
said. Teaching kids not to open the doors.
    So I will tell you that while we looked at those, we really 
want to make sure those fundamental foundational aspects are in 
place, first and foremost. We will get to that conversation.
    Mr. Guest. I would agree with you. Our first mission should 
be that our children, when we put them on the bus or parents 
drop them off at schools, that even before those children are 
educated that they return home safely to their families and so 
I understand that and I have worked with law enforcement and I 
have worked with other groups to try to make our schools safe.
    First and foremost, we want to be able to prevent anyone 
from going on to the school to accomplish any act of violence, 
and I understand that. There are multiple programs and we are 
talking about prevention, but in the case where someone does 
enter on to the school grounds and where there is an active-
shooter situation, do you believe that laws such as those 
passed in Florida, should those be things that we are also 
talking about? Should that be part of the discussion, the 
overall global discussion on how we are going to protect our 
children?
    I have a sophomore in high school and every day when he 
goes to school, I am confident he is going to return, but I 
know just as you have talked about as well. We always say it is 
not going to happen in our community. That is going to happen 
some where else. That is not going to happen in my school.
    I have seen first-hand it happen in my community. I know 
about it and so my question is, once we get past the things 
that we are going to try to do to, first of all, prevent is 
arming teachers, should that be something that we should 
consider as a last resort to make sure that we can stop the 
shooting as quickly as possible?
    Mr. Maples. Just to simply sum up, as part of looking at 
addressing and everything, I think we should have the 
conversation about everything. Whatever we can do to support 
and protect our students, but recognizing that things like 
training, things like real world pulling the trigger is a very 
difficult thing to do and making sure that somebody's prepared 
to do that and I think Ms. Hogg summed it up as far as teachers 
are there to teach and so it can be a big challenge for them to 
adopt a mind set that they are then a protector in that way 
with a weapon, for example.
    So yes, we should consider everything on the table and have 
reasonable discourse about it 100 percent, but as a last 
measure at the end of that conversation, once you hit the 
fundamentals, then I think we should have that conversation, 
again, very carefully because there are a lot of challenges 
associated with it, if that makes sense.
    Mr. Guest. Thank you, Mr. Chairman, and I apologize for 
going over.
    I yield back.
    Mr. Payne. Thank you. The gentleman from Louisiana is 
recognized, Mr. Richmond.
    Mr. Richmond. Let me thank you, Mr. Chairman, for convening 
this hearing today on a very complex but serious matter and I 
will just respond to my colleague, Mr. Guest, that we are 
really all just a product of our life experiences and they 
shape how we think of things, and I know the conversation about 
arming teachers.
    I coached high school baseball and Mr. Schachter mentioned 
interoperability and the ability to communicate. I would in my 
life experience, I would have grave concern as a baseball coach 
if there was an active-shooter situation about what happens if 
I have a gun and the perpetrator has a gun and the police 
officers get there and have to decide who is the good guy and 
who is the bad guy.
    In my experience, most times people, especially police, 
assume that I am the bad guy and that would worry me, but I 
don't think it is something that we can't have a conversation 
about and I think interoperability is important and we went 
through that after Hurricane Katrina where we lost 1,500 people 
that we could not talk to each other. The fact that when these 
incidents occur you can't talk to each other is very scary. 
That part of the conversation is really about limiting the 
carnage.
    I really want us to focus on preventing it in the first 
place and so when we have that conversation, I think there are 
small steps we can take such as universal background checks, 
things of that nature. Limiting the size of ammunition 
magazines, if we are talking about limiting carnage.
    But my question for you, Ms. Hogg, would be that do you 
think students are ready for a see something, say something 
approach, which has made this country safer in airports and to 
terrorism and the question would be, do you think our students 
are ready for approach like a see something, say something?
    Ms. Hogg. First of all, thank you for that question. I 
think it is really important in this conversation.
    So I can speak on behalf of myself, but not every student, 
of course. But for myself how I personally feel about the whole 
idea of see something, say something, is that, although it is 
important, although it can prevent major things like what 
happened at my school, it puts a certain pressure on the 
student as though it is our responsibility to take care of 
these things. After something happens, like what happened at my 
school, often times I feel as though students felt as though 
they were being the ones being accountable for the Government 
and police officers in action at my school.
    So as much as I think it is important and I think it is a 
good way, a good noninvasive, pretty noninvasive way of 
preventing these things from happening, I genuinely do not 
think it is drastic enough.
    Additionally, much like what happened with increased 
security at places like airports and everywhere else after 
everything that happened in September 2001, I think we need to 
acknowledge that there are always--when you have that situation 
see something, say something, there is going to be personal 
biases that are injected into the minds, the souls of 
individuals who are being the ones who are supposed to be 
seeing something and saying something.
    I think that leads to a lot of danger within regards to 
whether that be a student seeing something and saying something 
about a student maybe just because of their personal bias, 
personal racial bias, or personal ideologic bias, if you know 
what I am saying.
    Mr. Richmond. I do. I think that something this complex and 
something this drastic, we really do need a belt-and-
suspenders-type approach to it so whether that is more school 
counselors who would also have an obligation to see something 
and say something where there is a concern, I look at it how we 
fight terrorism in this country and we do it with intelligence 
and information gathering, and I think that at some point we 
all have--unfortunately, we all have that responsibility and we 
would hope that people don't bring in their personal bias, but 
it is America.
    We are humans and I think that, you know, it is a problem 
and as much as we can prepare for the active-shooter situation, 
what we really want is to prevent it. I will just tell you as a 
parent who drops a kid off to kindergarten every day that I am 
possible, I am very fearful that he doesn't go home.
    As I bought his school uniforms this year, Mr. Schachter, I 
am sure that you have had to go through this especially because 
you have other children, I had to make a decision do I buy the 
kevlar square that goes in the backpack so that I can teach him 
to hide behind it in case of an active-shooter situation. 
Parents shouldn't have to be doing that.
    When I was in high school, our drills consisted of stop, 
drop, and roll. Now the drills that our children are going 
through are run, hide, and fight. So the real thing is that we 
as Americans also have to accept our responsibility as adults 
to the divide, to the hate, to the bullying, and to all the 
other things that are adding to this sense.
    Because if it is not in a school, then it will be in a 
church like Mother Emanuel. If it is not in a church like 
Mother Emanuel, it will be Tree of Life Synagogue. If it is not 
there, it will be at a Safeway store where our colleague, Gabby 
Giffords, was shot. If it is not at a grocery store, it will be 
on a baseball field where our colleague Steve Scalise was shot. 
We have to protect our most vulnerable, which is our children, 
but we have to do a better job as Americans of leading, loving, 
and showing the leadership to prevent this.
    So I think you all did your part today by being here and I 
think Congress needs to do our part by enacting those 
reasonable measures that can stop these things before they 
start.
    So thank you for being here.
    Mr. Payne. I would like to thank the gentleman and, you 
know, it is unfortunate that this year one of the highest-
selling products in New Jersey for going back to school were 
bulletproof book bags.
    I now recognize the gentlelady from New York, Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman, and I thank 
our panelists for really lending your expertise and your 
common-sense concerns to today's discussion. Columbine, 
Virginia Tech, Sandy Hook, Umpqua Community College, Parkland, 
each time our Nation experiences another school shooting, we 
send out our thoughts and prayers, but thoughts and prayers 
don't stop bullets.
    Twenty years have passed since Columbine, but school 
shootings have become only more and more common. We need to 
take action; we must take action. We need to and must confront, 
tackle, and end this gun violence epidemic once and for all.
    Ms. Hogg, I want to get from you how your daily life has 
changed since that shooting?
    Ms. Hogg. So when I was preparing for my testimony today 
and we were discussing this, I realized that pretty much 
everything in my life has changed. I think one of the greatest 
changes was the loss, not necessarily, the physical loss of 
people like my brother and other victims and my friends that 
went through the school shooting alongside me, but the loss of 
our past selves, the loss of ourselves who were innocent and 
believed like Mr. Schachter said so eloquently today that we 
believed that this would never happen to us.
    I mean, I could go through the specifics, but it would take 
me probably days, but every single aspect of my life has 
changed. It seems as though, like I stated before, I was 14 
when I experienced the school shooting and that is the age when 
kids are kind of ready to have that John Hughes high school 
experience, if you know what I am saying, and for me I went 
directly from--it seems as though I had to go from childhood to 
adulthood and skip that period of my life that most people do 
have the chance to experience where they get to be--they get to 
be a teenager, they get to be a child, and I think about this 
every single day.
    My goal for this year was to learn how to be a teenager and 
that is something that no child who is 16 should have to 
experience. But I mean, like I said, the fact that I am even 
here today, the fact that I spend my weekends on the Hill when 
I can talking with my policy makers, everything has changed, 
and I really just hope that no other child has to have this 
experience of losing those precious teenage years where they 
get the chance to have--to be stupid in a sense, to have fun, 
but I think that is one of the greatest ways my life has been 
affected.
    Ms. Clarke. Thank you for sharing that with us.
    Mr. Maples, when you testified in front of the subcommittee 
last year, the horrific shootings in Parkland, Florida, Santa 
Fe, Texas, were still recent and many States were just in the 
beginning phases of instituting policies to improve school 
safety and in some cases gun control measures.
    Now over a year out, can you tell the committee of any 
challenges that you have had while instituting new school 
security measures and are there any lessons learned that you 
think are important for other States to know?
    Mr. Maples. Well, I will start off by addressing the 
challenges piece. Some of the challenges have been making sure 
that the school districts are all getting the relevant 
information in a coordinated way. We continue to work on that 
and that is something we are able to do at the State level in 
New Jersey.
    The implementation of the see something, say something--Mr. 
Richmond just brought up that piece and in New Jersey we are 
doing that. We have rolled that in through an attorney 
general's directive that all suspicious activity, that school-
related threats, are rolled into our See Something Say 
Something Campaign.
    New Jersey's a little bit different than a lot of other 
States. My office coordinates everything from the Federal, 
State, to local levels, so the bureau, the FBI, gets their 
leads from my folks at one hub location or fusion center, and 
that is a little bit different model than many other States.
    I will tell you that getting school districts to recognize 
those threats, in the See Something, Say--what are the threats 
and reporting those to law enforcement who then report it to us 
or directly to us, that is a challenge, but it is something 
that we are really focused on, getting that public messaging 
out there.
    My staff is constantly engaging with the schools and one of 
the great benefits we have in New Jersey is the Department of 
Education, the commissioner has essentially loaned us his 
school safety team. They actually report to me, but they are 
education employees. They come to Homeland Security spaces.
    So we are trying to really coalesce around that one common 
goal of protecting our schools together in that way.
    So the challenges of joining any type of unit--you wouldn't 
think of Homeland Security and education kind-of linking up the 
way that we do, but we do and we are really focused on that.
    Ms. Clarke. We appreciate that, Mr. Maples. Let me just 
close by saying that having been a victim myself watching my 
colleague getting gunned down in the New York City Council, 
that trauma never leaves you. So Ms. Hogg, I thank you for your 
courage. The trauma goes beyond what anyone can imagine when 
you are in a space, you are a survivor.
    There is so many other dynamics, so I can relate to all 
that you have shared with us today because I am still 
recovering to this very day.
    I yield back, Mr. Chairman.
    Mr. Payne. I would like to thank the gentlelady.
    The gentleman from Texas, Mr. Green, is recognized.
    Mr. Green of Texas. Thank you, Mr. Chairman. I thank the 
Ranking Member as well, and I apologize for the condition that 
we find ourselves in. I say I apologize because we have failed 
you. The adults have failed you.
    We shouldn't have allowed unlimited assault weapons on the 
streets capable of killing scores in seconds. We failed you, 
and we ought to do something about it. We don't have the will. 
We have lost our way. We failed you.
    We are at a point regrettably in our history where we have 
to prepare for the unthinkable to deal with the inconceivable. 
It is where we are. Gone are the days when children had to have 
as a part of their exercise a fire drill. There is an active-
shooter drill now.
    Gone are the days when there was a rumor of a person having 
a knife on campus at my school and the principal just stopped 
everything, brought us all into the auditorium, and had a 
meeting, who has the knife? Now we have assault weapons on 
campuses.
    So we have to deal with the inconceivable, and I have to 
ask you about something that I regrettably must ask about, but 
I think we have to prepare for this unthinkable inconceivable 
event and that would be, of course, whether or not we are ready 
to deal with a chemical or biological event.
    We can't wait. We have to prepare for the unthinkable if we 
are going to deal with the inconceivable. So I ask as gently as 
I can, are we adequately prepared for an attack of this kind on 
a school campus where it should never happen, where it would be 
inconceivable? Are we having any drills, any information, 
intelligence accorded our students so that they can deal with 
these things?
    Do we have proper equipment available? Where are we? If we 
are not there, then perhaps the adults won't fail us as we go 
forward. I am one of the adults. Would someone care to answer, 
please?
    Mr. Schachter. Yes I mean, obviously we are extremely 
unprepared. Our county doesn't even have an active-shooter 
policy, let alone a policy to protect us from a chemical or 
biological attack.
    We are just trying to get teachers to teach with a locked 
door, you know. We are just trying to move the needle. We are 
so far away from where we need to be, but we can prevent, you 
know, 80, 90 percent of these attacks, you know.
    We have got the gold standard in anonymous reporting app 
was developed in Colorado. It is called Safe to Tell. They have 
stopped thousands of young people from committing suicide. 
Suicide is the homicide issue. If we can stop suicide, we can 
stop homicide and they have stopped hundreds of school 
shootings.
    Post-Parkland, we have had dozens of States implement those 
anonymous threat reporting apps. Every day we hear in the news 
about mass shootings that are stopped by courageous people that 
are sending in tips and kids do it. So we can stop a lot of 
these as we were talking about on the prevention side, but we 
have to prepare.
    We can't stop 100 percent of these. We have to be cognizant 
of that, and so that is why--what are we going to do? We need 
to decide what are we going to do if a guy with a gun walks on 
that school campus, how are we going to save lives? That is 
what we need. That needs to be addressed, unfortunately, you 
know, all over this country.
    Mr. Green of Texas. Thank you. I could not agree with you 
more, and I regret that we find ourselves being reactive when 
we had a great opportunity to be proactive and deal with these 
issues such that we wouldn't have to deal with the unthinkable, 
but there is a future and we still have the opportunity to 
change this circumstance if we but only will acquire the 
courage and the will.
    I yield back the balance of my time.
    Mr. Payne. I thank the gentleman.
    I would like to now recognize the gentlelady from Texas, 
Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you. I want to ask 
whether the chairman, the gentleman from Florida, wants to go 
and I will go after him.
    You all right?
    OK. Just wanted to offer it to you.
    Mr. Deutch. Thanks.
    Ms. Jackson Lee. Mr. Chairman, thank you and to the Ranking 
Member for this very vital hearing, and I thank the witnesses. 
We are sometimes in overlapping hearings and we have to make 
our way to an important hearing. Let me acknowledge, in 
particular, a dad who lost his son. Your face is familiar. I 
know that you wish that it was not, and I thank you for putting 
your energy in a place where those of us who are parents would 
never want to imagine.
    I think this committee is well-suited and this House and 
this present leadership with the Members of this committee, 
with Congressman Deutch are prepared to listen and to adhere to 
some of the things that we can do. We don't want to call the 
role, but I think you know, why didn't it stop at Sandy Hook? 
Why wasn't something done? We tried very hard.
    So I want to first start with Lauren. We work a lot in 
Houston with March for Our Lives. I like the word ``march'' 
because we follow, but I know that it is important that we act.
    Let me ask you this question because I have talked to 
teenagers who, like you, have to learn to be a teenager. What 
is it like with your peers to have to live with the idea of 
death, death of your fellow students, death at a school site? 
What should we know about that as you are growing up?
    Ms. Hogg. So for myself because I was 14 years old when 
this happened as I stated previously, I think that is a pivotal 
time in your life. I mean, all of the 4 high school years are a 
pivotal time in your life. It is when a lot of your brain 
development occurs, it is when you are supposed to learn a lot 
of things at school.
    When you have something like a school shooting, when you 
have something like your friends and teachers being murdered in 
your classroom next to you, I think there is something drastic 
that happens within yourself and I think it is important to 
address that within regards to trauma to gun violence, it is 
hard to heal when this issue continues every single day. It is 
kind of like rubbing salt into the wound that is our trauma.
    I mean, the previous question earlier that I was asked when 
it was how has your life changed, every single day. I think 
just every single aspect--like when I go into a restaurant, I 
have to sit with my back not against the door because I will 
feel like somebody will come in. When I go to a movie theater, 
I have to always make sure I know where the exits are and know 
if I can be close enough to be able to run out in time.
    Even in crowded spaces, places I used to go and love to go 
to, whether that be Disneyland or a concert, I can't go there 
without being scared that something is going to happen. So even 
the things that would be traditionally viewed as fun and an 
escape turn into themselves an act of trauma where you don't 
know what to do and you don't know how to act.
    Ms. Jackson Lee. Thank you.
    Ms. Hogg. Yes. Thank you.
    Ms. Jackson Lee. Let me ask Alex's father.
    I am going to give you a combined answer. You obviously 
can't hear that from Alex, but for us to do something along 
with what we have heard from our experts, you are an expert in 
terms of making a school solid, but in doing this 
comprehensively, we have to deal with guns--this is my 
question--mental health and added resources for those students 
who we miss.
    I have been working on for many years anti-bullying, which 
is accelerated, cyber-bullying and otherwise, and then a 
positive way of reinforcing schools. So would you respond to 
that in the context of your organization and your group.
    Mental health, anti-bullying, guns, and the idea of how we 
strengthen a school to protect its most precious inhabitants.
    Mr. Schachter. You know, I am on the commission that is 
investigating the Marjory Stoneman Douglas tragedy and we had a 
presentation by Flagler High School which developed a culture 
and climate survey that they give to tribute to all of their 
students and it has made their school safe. That--you know, I 
think that sets a deficiency in our schools that we are not 
doing culture-climate surveys of our students and of our 
teachers because to reduce violence on campus, reduce bullying, 
if we don't know what is happening on campus, we can't fix it.
    I alluded in my presentation and in questions that we don't 
know--you know, schools underreport violence on campus. We need 
to get an accurate reporting. In Florida, we require schools to 
report in violence and we came to the conclusion that what they 
are reporting is absolutely garbage and it is totally 
incorrect. We have now put measures in place to the 
commissioner of education to financially penalize 
superintendents that consistently underreport school violence.
    So we need to get that under control, but we need to find 
out what is happening first so that we can tackle this bullying 
problem and we can provide better mental health to our students 
and reduce violence on campus which will reduce violence in our 
community because if we are not giving kids when they are in 
school the tools to deal with rejection and failure, as they 
get older, we have horrible consequences.
    Ms. Jackson Lee. Let me thank you and the experts as well. 
My time has expired, but let me just say to the Chairman using 
the experts, but using the passion of our two witnesses who 
have experienced it first-hand can help us be guided in the 
right direction for working on this very crucial issue.
    With that, Mr. Chairman, I yield back.
    Mr. Payne. I would like to thank the gentlelady.
    I recognize the patient gentleman from Florida, Mr. Deutch.
    Mr. Deutch. Thanks very much, Mr. Chairman. Thanks to you 
and the Ranking Member for calling the hearing. I am grateful 
to you and your staff for including 2 of my constituents as 
witnesses and extending the invitation to me to join you as 
your guest.
    I also want to express my gratitude to the thoughtful and 
dedicated participation of so many Members of this committee 
today.
    Thanks to the witnesses, all of you, for your testimony and 
your hard work to make students safer.
    First, I would like to seek unanimous consent to enter a 
statement for the record from Tony Montalto, the surviving 
father of Gina Montalto and president of ``Stand with 
Parkland'', a group formed by parents from Stoneman Douglas, if 
I may.
    Mr. Payne. Without objection.
    [The information follows:]
    Statement of Tony Montalto, President, Stand with Parkland--The 
           National Association of Families for Safe Schools
                           September 26, 2019
    Chairman Payne, Ranking Member King, and Members of the committee, 
thank you for the opportunity to submit a statement for the record for 
today's hearing. Nothing is more important than the safety of our 
Nation's children and I appreciate your decision to hold this hearing 
on this important issue.
    My name is Tony Montalto. I am the president of Stand with 
Parkland--The National Association of Families for Safe Schools. Stand 
with Parkland was founded by the families of the children and school 
staff murdered in the Parkland school massacre on February 14, 2018. I 
lost my 14-year-old daughter Gina on that day and have engaged in this 
activism because her death was preventable. It is our desire to keep 
any other parent from experiencing the profound loss that myself and 
others have gone through as a result of this tragedy.
    We are now part of the many who bring a human face to these grim 
statistics: Since Columbine, there have been 710 school shootings in 
the United States; 341 people have been killed and 653 injured, 
including the 17 killed and the additional 17 injured in the Parkland 
shooting.\1\ Using our unique and inclusive approach, Stand with 
Parkland has grown into a National organization focused on identifying 
and advocating for practical solutions that will keep our kids and 
teachers safe in school. We are fundamentally a non-partisan group. We 
believe that the safety of our kids and teachers in school is not a 
political issue and we will work with anyone who shares our goal for 
safe schools.
---------------------------------------------------------------------------
    \1\ Center for Homeland Defense and Security, ``K-12 School 
Shooting Database,'' 2019.
---------------------------------------------------------------------------
    Stand with Parkland's founding families have different political 
views, but when it comes to protecting our children and staff members 
at school, we all agree on 3 key outcomes: Secure the school campus, 
implement better mental health screening and support programs, and 
practice responsible firearms ownership. We are committed to advocating 
for practical public safety reforms focused on these goals. Absent 
addressing all 3 of these components, the uniquely American tragedy of 
mass school shootings will not find a solution.
    Personal responsibility and a desire for change are paramount to 
this effort, and it will require action at all levels of government to 
make these goals a reality. Violence in our schools affects everyone. 
It is an American epidemic and it is time for us to come together as 
the American family to do something about it--to demand action from our 
elected leaders.
    Even now, 20 years after Columbine, our Nation is still grappling 
with this issue. It is extremely unfortunate that it took the murder of 
our loved ones at school to rekindle the National discussion. The 
voices of the surviving students kept this tragic story in the news. 
However, it has been the relentless pursuit of the facts and the 
determination of the victims' families that has driven change to both 
policies and laws across the country. Those changes began with the help 
of former Governor (now Senator) Rick Scott and the bipartisan support 
of the Florida legislature when the Marjory Stoneman Douglas High 
School Public Safety Act was passed in March 2018. Stand with 
Parkland's advocacy began when our families spoke with lawmakers from 
both sides of the aisle about the importance of passing the law to 
protect students and staff members from harm. Our collective voice made 
a difference then and we will continue to use it to prevent anyone else 
from suffering a similar tragedy. We want to ensure that children and 
staff members are safe at school and can focus on their true purpose: 
Learning and growing into responsible young adults.
    Our children are the future. This is a fairly common adage on which 
there is almost universal agreement. But it is not enough to merely 
acknowledge this and repeat it in public--that future is at risk and 
action is necessary. Before this tragedy, we had happy families. We had 
whole families. Now that is forever changed--our daughters, sons, and 
spouses never made it home from school that day.
    When we look at the history of mass school shootings, we are here 
to point out that this issue affects all segments of America, all 
sharing the same misconception that it couldn't happen in their 
community. That false sense of security is dangerous.
    This is not a Republican problem; it's not a Democratic problem; it 
cannot be laid at the feet of either end of the political spectrum or 
any group. This is an American problem that requires collective action. 
Our children are in danger; inaction in the face of that danger is not 
merely negligent but constitutes a dereliction of duty.
    While our organization supports certain specific proposals, we 
recognize the importance of a fulsome discussion and building consensus 
as we develop and implement specific solutions. This model of 
discussion and willingness to compromise, while maintaining a steadfast 
commitment to meaningful action and fighting against mere window-
dressing, was effective when we worked on school safety legislation in 
Florida--leaving partisan politics behind was instrumental.
    As a result of this willingness to compromise, and the commitment 
to not permit perfection to stand in the way of meaningful progress, we 
supported the recent passage in Florida of SB 7030--Implementation of 
Legislative Recommendations of the Marjory Stoneman Douglas High School 
Public Safety Commission--even though we did not agree with all of its 
provisions.
    While Stand with Parkland supports armed guardians at schools, we 
believe that arming teachers is a misguided idea that could actually 
undermine efforts to safeguard our schools against mass shootings like 
the one that took our loved ones. We believe our teachers should be 
focused on teaching and trained law enforcement or school security 
officers should be provided to protect the students and staff at 
school. However, even though we opposed this provision, we supported 
the majority of the bill and accordingly worked to ensure its passage 
because we believed the legislation made our schools safer.
    Our Nation needs an open and continuous discussion that leads to 
the collective development of specific solutions. Stand with Parkland 
is firm in its advocacy for a holistic approach toward improving the 
safety of all the Nation's schools by:
    (1) Securing the school campus
    (2) Improving mental health screening and support programs
    (3) Supporting responsible firearms ownership.
    All of these issues must be addressed in a meaningful way and we 
have developed specific proposals that can help achieve our goals in 
each of these areas:
    Securing the Campus.--The Parkland shooter walked onto campus 
through an open and unmonitored gate; even though he was identified as 
he entered campus, nobody called a code red until more than 3 minutes 
after the shooting started. Furthermore, the school did not have an 
active-shooter policy or any plan for dealing with school shootings.
    Securing the school campus starts with securing the perimeter and 
creating a single point of entry. Other low-cost items such as locked 
doors, safe corners in classrooms, and active-shooter policies and 
drills are vital to protecting America's schools. Taking these 
straight-forward steps will give our students and teachers a chance of 
survival when confronted by a school shooter. I want to emphasize that 
we must encourage all of our school administrators to prepare for an 
active shooter by having a policy in place and training students and 
staff accordingly. In this same spirit, it is essential that we develop 
a Federal standard for minimum school safety features and best 
practices, as well as bring the resources of our Federal Government to 
bear. We need Congress to provide continuous Federal funding of school 
security enhancements, upon which State and local governments can rely.
    There has been some progress--the Departments of Health and Human 
Services, Justice, Education, and Homeland Security are working 
together to create a clearinghouse website that will serve as a 
National resource. This clearinghouse will provide school safety best 
practices collected from various schools and related organizations. Our 
organization has continued to be involved in this process and our 
entire membership strongly supports its continued development. In light 
of the potential impact of this project, we hope that the House can 
lead the way with a bipartisan bill that will codify and provide 
funding for this groundbreaking initiative.
    Improving Mental Health Screening and Support Programs.--To improve 
mental health screening, support, and intervention, we need to take 
actions such as funding and promoting suicide detection and 
intervention programs because 67 percent of mass shooters are 
suicidal.\2\ Additionally, Congressional action is needed to relax and 
clarify Health Insurance Portability and Accountability Act (HIPAA) and 
Family Educational Rights and Privacy Act (FERPA) regulations, so that 
schools, law enforcement, and mental health professionals are allowed 
to share mental health information, as well as permit the release of 
mental health information for threat assessments and background checks. 
Fixing these issues will allow for more effective use of the provisions 
enacted by the STOP School Violence Act, which was contained within the 
Consolidated Appropriations Act of 2018, and other existing laws. 
Permitting this exchange of information would allow a team of 
professionals--including school counselors, police, and mental health 
care providers--to assess at-risk individuals and likely prevent 
tragedies like the one that took our loved ones.
---------------------------------------------------------------------------
    \2\ US DHS, US Secret Service National Threat Assessment Center 
March 2018.
---------------------------------------------------------------------------
    My daughter's killer, we've since found out, was known to the 
school, the sheriff's office, a local mental health agency, and the 
FBI, as an angry, violent, and potentially dangerous person. They never 
shared information about him; they never connected the dots. Because of 
this, Gina's killer was able to purchase a rifle legally. Had an 
effective threat assessment been conducted, and a corresponding 
exchange of information permitted, there may have been a better 
understanding of just how dangerous this individual was--my family 
could be whole today.
    Additionally, more research is required to support threat 
assessments and their efficacy. The U.S. Secret Service's National 
Threat Assessment Center (NTAC) is dedicated to the advanced research 
that is the basic building block of all threat assessments. In today's 
environment of ever-increasing threats, the NTAC needs more funding and 
resources. One path to provide this is through bipartisan legislation 
that has been introduced in both chambers, the Eagles Act. This bill is 
named after Marjory Stoneman Douglas High School's mascot and would 
help provide a lasting legacy to our beloved children and spouses who 
were murdered that day. We urge the House to consider and vote on this 
important legislation, which will help protect not only students and 
staff members, but any American from being subjected to similarly 
targeted violence.
    Stand with Parkland also urges Congress to provide funding to 
support and implement successful ``off-the-shelf'' programs, such as 
Sandy Hook Promise's Know the Signs or It Starts with Hello. 
Additionally, there is a proven suicide prevention product developed by 
Columbia University: The Columbia Protocol, which provides an 
evidenced-based threshold for determining imminent risk. This protocol 
has already been adopted by the Department of Defense and many other 
governmental agencies. In fact, a total force roll-out by the Marine 
Corps helped lead to a 22 percent reduction in suicides.\3\ These are 
only a few of the highly effective non-Governmental programs that could 
use a boost from the Federal Government to expand their reach and 
improve the safety of America's students and teachers.
---------------------------------------------------------------------------
    \3\ Columbia University, ``C-SSRS Helping to Reduce Suicide and 
Decrease Workload via Evidence-Based Thresholds for Imminent Risk,'' 
2016.
---------------------------------------------------------------------------
    Supporting Responsible Firearm Ownership.--There are many elements 
that contribute to responsible firearms ownership. This starts with 
enforcing the laws already on the books and personal responsibility. 
Owners of firearms must ensure they are practicing safe firearm 
storage, such as ensuring they are kept out of the reach of children, 
because many school shooters get their weapon from the home.
    Another important area is Extreme Risk Protection Orders (ERPO), or 
Red Flag laws, which can save lives by creating a way for family 
members and law enforcement to act before a situation escalates, 
providing an opportunity for the individual subject to the order to get 
help. ERPOs also touch on the mental health pillar of our holistic 
approach to school safety; they are powerful tools that enable law 
enforcement officers to protect themselves and the community at-large. 
In the wake of the Parkland tragedy, Florida enacted Red Flag laws with 
strong bipartisan support. As of this past February, 13 States had 
these powerful law enforcement tools in place, and it is likely that 
they have already saved many lives. Had these laws been in place on 
February 14, 2018, the numerous warnings regarding the murderer of our 
loved ones would have provided law enforcement a chance to remove the 
firearms from his home and Parkland would still be an idyllic town and 
our families would be whole instead of broken.
    This year, Rep. Salud Carbajal (D-CA) reintroduced H.R. 1236, the 
Extreme Risk Protection Order Act of 2019. On September 10, the bill 
passed out of the House Judiciary Committee's gun violence prevention 
markup, moving it one step closer to a vote on the House floor. This 
bill would utilize Department of Justice funds to encourage States to 
enact laws that provide law enforcement or family members the option of 
obtaining a court order to prevent firearm purchases and possession by 
individuals who pose a significant threat to themselves or others, 
while also providing due process protections. Additionally, the bill 
establishes a grant program that would incentivize States to adopt 
extreme risk laws, which in turn would reduce gun deaths and injuries 
while protecting due process rights. We strongly urge Republicans and 
Democrats to support this bill and hope it is swiftly brought to the 
House floor for a vote.
    Finally, our Nation must improve the current background check laws 
and make them more comprehensive. This can be achieved through 
legislation like H.R. 8, ``the Bipartisan Background Checks Act of 
2019'' that has been passed by the House of Representatives and we've 
been working with the Senate to consider similar legislation. We need 
to do more than just talk about these measures--the American public 
expects that our representatives will take meaningful action to protect 
our children.
    While we commend our National leaders for taking some action, such 
as the recently-issued final Report of the Federal Commission on School 
Safety from the Trump administration, these actions have continued the 
trend of only partially addressing this issue. The report contained 
recommended changes that address the first 2 items in our holistic 
approach, securing the school campus and better mental health programs, 
but little is mentioned regarding firearms. It is clear that the status 
quo is ineffective, or our loved ones would not have been shot and 
killed in their school on February 14, 2018.
    We hope that the vast majority of Americans, who are in the 
ideological middle, come out and support the change for which Stand 
with Parkland--The National Association of Families for Safe Schools is 
advocating. Continued conversations about how we can't agree and what 
we don't agree on will not make our children safer. This Congress, and 
the Nation as a whole, needs to have an open discussion and actively 
listen to one another. This cannot be a rhetorical battle centered 
around partisan messaging and talking points--every step we take must 
be meaningful and make our children safer. We will be failing in the 
duty to protect our children and future generations of Americans if all 
we do is talk and take symbolic steps.
    I would like to conclude by saying that there can be no more 
excuses. The safety of students and teachers at school is something 
that this country can unite around. We must stop the divisive rhetoric 
and work together to stop these uniquely American tragedies. Surely, 
where it concerns the safety of our children, there is more that unites 
than divides us.
    Again, thank you for the opportunity to submit this statement for 
the record and your willingness to address this vital matter facing our 
Nation.

    Mr. Deutch. Thank you, Mr. Chairman. These families have 
varying political views, but they write when it comes to 
protecting our children and staff at school we all agree on 3 
key outcomes: Secure the school campus, implement better mental 
health programs, and practice responsible firearms ownership. I 
hope their goals can be shared by all of us here today 
regardless of our political affiliation.
    Mr. Schachter, Ms. Hogg, I feel so fortune to know you, so 
proud to represent you, and so utterly heartbroken by the 
circumstances that have brought us together. You are survivors 
of this horrible crisis of gun violence in America.
    Mr. Schachter, you lost your beloved Alex. Ms. Hogg, you 
lost friends, classmates, and teachers. In addition to Alex, 
Alyssa, Scott, Martin, Nicholas, Aaron, Jaime, Chris, Luke, 
Cara, Gina, Joaquin, Alaina, Meadow, Helena, Carmen, and Peter 
were all lost at Marjory Stoneman Douglas on February 14, 2018, 
but you have turned your pain into action.
    Mr. Schachter, you have been a fierce advocate for 
expanding the level of expertise in schools, school districts, 
and States to improve policies. You have become an expert in 
security infrastructure. I knew from the first moment I spoke 
with you that within a short period of time you would be a 
National leader on keeping our schools safe.
    So I want to ask you, the EAGLES Act, H.R. 3714 will expand 
the National Threat Assessment Center. By doing that, what can 
that do to help ensure that schools have the expertise to keep 
their students and staff safe?
    Mr. Schachter. Thank you, Congressman, and thank you for 
everything you have done to protect our children. You have been 
a great championing of that.
    As far as the EAGLES Act goes, I talked about this in my 
opening statement, I am a strong supporter. I hope that we can 
get the full committee support and pass this. It is great 
legislation.
    We know that threat assessment teams, that the Secret 
Service, has developed protect the President and protect 
Congress and this is a major problem in schools. We know that 
threat assessments work, but, you know, it needs to be done 
correctly.
    There was a threat assessment done on the murderer in 2016 
that was completely botched. The problem was the assistant 
principal that did the threat assessment had no idea how to 
perform one. He had never conducted a threat assessment in his 
30-year history, he didn't know where the paperwork was, and it 
was completely done wrong.
    I feel that if it was done correctly, my little boy might 
be still alive today, so by passing the EAGLES Act, we can give 
education to all schools on proper threat assessments, to 
prevent these acts of targeted violence before they happen and 
we have got to stop being reactionary and be proactive, and 
that is what threat assessments do.
    Mr. Deutch. Thank you very much.
    Ms. Hogg, thanks for your leadership in your school and 
across the country through March for Our Lives and thanks for 
your really powerful testimony today.
    The March for Our Lives Peace Plan for a Safer America 
includes a call, among other things, for community-based 
solutions. As part of that call, you support Representative 
Moore's bill, H.R. 2457, the National De-Escalation of Violence 
and Community Safety Training Act. One thing you have not had 
an opportunity to talk about is why community-based 
interventions is such an important part of your peace plan?
    Ms. Hogg. Community-based intervention programs as we have 
talked about today, earlier when we are talking about proactive 
measures, are the perfect example of this. They go in before 
these things happen as I stated previously.
    It is so important for us when we created this plan to 
include that because we have seen across the country and 
especially communities of color and lower socioeconomic 
communities how effective these are in preventing community gun 
violence.
    I have some examples of individuals and stats about stuff 
that are within regards to violence intervention programs, but 
one of the greatest examples is Life Camp. It is out of the 
Bronx founded by this woman named Erica Ford and they have 
violence interrupters that go in and they train youth from the 
community how to be violence interrupters instead of inciters 
of this violence and how to keep out of this violence.
    I think if we could apply that to our school system across 
the country, I cannot even imagine the great effects we would 
see in preventing things like what happened at our school.
    Mr. Deutch. Thank you, Mr. Chairman. I am--I want to just 
thank you again. It is so clear from the testimony today from 
the expertise on this panel, from the dedication of all 4 of 
our panelists that there is more that we can do in a bipartisan 
way to help strengthen and bolster the efforts of our witnesses 
and people just like them all around the country to help keep 
our school safe. And to help keep kids safe and to prevent the 
kind of trauma that we have heard so eloquently spoken about.
    We can do this and I am so grateful for your leadership on 
this issue. I look forward to working with you, and again, your 
extending an invitation for me to join you today is something 
that I will forever be grateful for.
    Mr. Payne. Well, I would like to thank the gentleman for 
accepting the invitation and they are very fortunate to have 
you as their Representative in Congress. I know the work that 
you do tirelessly for your constituents and you have been 
proactive on these issues.
    So I just thought it was fair you had the opportunity today 
to be here, so thank you.
    We are going to go for a quick second round. I just wanted 
to ask Mr. Maples, as I mentioned in my opening statement, DHS 
along with other agencies is working on the clearinghouse that 
will compile best practices for various school safety 
practices, can you describe what you want to see out of a 
clearinghouse to make it useful for New Jersey?
    Mr. Maples. Sure, absolutely. So one of my roles in 
addition to being the director of homeland security, I am also 
the Federally-designated homeland security adviser, which is a 
DHS designation, so we work hand-in-hand with Federal DHS on 
the wide variety of issues that we confront in the State of New 
Jersey.
    I lead in to say that from a clearinghouse perspective, we 
absolutely welcome that. I think a place for a structured, 
directed, and concise plan, the best practices themselves can 
really help us bolster what we are trying to do at the State 
level.
    We do a lot proactively in New Jersey, but having that 
Federal interface and to be able to point that back to someone 
from the Federal Government can be very powerful in talking to 
a superintendent across our 21 counties. So to the degree that 
the clearinghouse is coming on-line, we welcome it and I think 
that it will continue to help make our schools safe.
    Mr. Payne. Thank you.
    I don't want to keep people much longer, but I just want to 
thank all the witnesses for their testimony today. This has 
been an honor for me to chair this hearing and hear from all of 
you, all with different experiences on this one very important 
subject.
    Mr. Schachter, you brought up interoperability, which has 
been my main focus since 2012 arriving here on this committee 
and the author of the interoperability bill for DHS and just 
issues around school safety has been my main thrust.
    So thank all of you for being here today for your expert 
testimony and with that--there is something I have to do here.
    All right. Now that we have finished with our questions, I 
would like to ask unanimous consent to enter into the official 
record written testimony from the National Association of 
School Resource Officers, Everytown for Gun Safety, Sandy Hook 
Promise, the National Association of School Psychologists, the 
NAACP legal defense fund, and materials from the American 
Institute of Architects,* without objection, is so ordered.
---------------------------------------------------------------------------
    * A portion of the information has been retained in committee files 
and is also available at http://content.aia.org/sites/default/files/
2019-09/CAE_Report_v7_FINAL_interactive.pdf.
---------------------------------------------------------------------------
    [The information follows:]
  Statement of Jay M. Brotman, American Institute of Architects (AIA)
                            August 16, 2018
                              introduction
    Secretary DeVos, Secretary Azar, Secretary Nielsen, Attorney 
General Sessions, and Deputy Secretary Zais, thank you for the 
invitation to appear before you today. On behalf of the American 
Institute of Architects (AIA), it is an honor to partner with you and 
your staff to promote design solutions for the challenges and 
opportunities facing today's schools. For over 20 years, the AIA, 
through its Committee on Architecture for Education, has been working 
to develop and disseminate best practices in education architecture--
ones that create positive learning environments while better 
safeguarding students and school faculty.
    While I have designed many schools during my 40-plus years 
practicing architecture, perhaps none has been more impactful and 
fulfilling than the new Sandy Hook Elementary School. And while it is 
only I who appear before you today, the success of the new Sandy Hook 
school was possible only with the full participation and collaboration 
of several hundred partners including my fellow architects, our 
consulting engineers, the construction management team, the 
construction workers and most importantly the people of Newtown.
    Not surprisingly, there was a significant focus to design this new 
school in a way that would prevent a tragedy of this caliber from 
happening again. To be clear though, no school design can stop all 
school violence, especially ones involving guns. There is no single 
``design solution'' or design standard to prevent them. However, there 
are design principles and best practices that can help to mitigate 
risk, both before and during an act of mass violence such as a 
shooting.
    In general, each school, whether a new build or a retrofit, must be 
designed for its unique student population, for its unique location, 
and to meet the needs of its unique community. More specifically, and 
of paramount importance, the primary goal of each school is to provide 
an inspiring, healthy environment that promotes learning. As we address 
this particular threat to children and adults in our schools, we must 
remember that schools are buildings that must be designed as schools 
first and foremost. Their security features, while vital and necessary, 
should be as passive as possible. They should be incorporated into the 
school's design, rather than define the school. Failing to do so puts 
children's education, emotional development, and pro-social behavior at 
risk. To that point, I'd like to provide some specific design 
principles and strategies that architects can routinely use.
                           design principles
    There has been much discussion about ``hardening'' schools. This 
may be the most common reaction to recent tragic events, and while 
hardening elements have their place within a strategic plan of security 
measures, hardening alone can be costly, ineffective, and counter-
productive to a positive learning environment. Furthermore, physical 
design features, such as hardening, are only one leg of an effective 
School Security Plan. Hardening must be coordinated with Technology 
components, such as security cameras, and the third critical aspect, 
Operations, which are the safety protocols and procedures that need to 
be well-designed, rehearsed, and enforced.
    With this 3-leg approach, the architects' key security design focus 
is ``layering'' the physical environment with bringing in those 
particular security elements that are most suitable to each unique 
design. This layered concept arose from Crime Prevention Through 
Environmental Design or CPTED. The goal of CPTED design principles is 
to Deter, Detect, and Delay the assailant, and last to Defend the 
occupants. With layering, if one design element or layer is breached, 
another layer will be encountered to continue to slow or limit the 
assailant's progress. ``Layering'' reinforces each selected security 
design solution to build in more minutes for first responders. School 
site and building designs can actually slow down an assailant, giving 
students and school personnel more time to react and position 
themselves securely while allowing law enforcement more time to arrive 
on the scene and intervene. This is critically important in all school 
settings, but especially in rural and more remote areas where the 
average law enforcement response time is longer because their 
jurisdictions cover more geography.
    Architects utilize 5 primary strategies of CPTED: Territory 
Reinforcement, Natural Surveillance, Access Control, Image, and Access 
Hardening.
                               sandy hook
    When redesigning Sandy Hook Elementary School, we applied these 
design principles based on input and feedback from the community. As 
architects, it is our responsibility to bring together the community's 
perspectives, especially when designing a school. Convening 
stakeholders and gathering their feedback is central to how architects 
craft a design solution--one that is both functionally responsive and 
contextually sensitive to a variety of community stakeholders' 
interests.
    In the case of Sandy Hook and given the nature of the attack, many 
parents initially envisioned impenetrable fencing and high windows. 
However, these reactions had to be balanced against the negative effect 
such overt security tactics would have on both students and staff. 
Instead of costly perimeter fencing, CPTED principles rely on defining 
the site through a combination of minimal fencing, landscaping 
materials, and natural geography, which achieves the goal of signaling 
where you are being observed and monitored. There are no blind 
approaches to the school.
    Incoming traffic is diverted into staff or visitor parking lots, 
while school busses and deliveries are the only vehicles allowed to 
enter the bus loop that comes closest to the school. All of this 
activity is readily visible from the school. This natural surveillance 
is maximized through careful design of vegetation and the placement of 
the main office to provide an unobstructed view of the approach to the 
school. Natural surveillance is paired with surveillance by technology, 
in the form of well-placed video cameras, to offer early detection.
    Architects are especially concerned with maximizing transparency to 
the greatest extent practicable within the school. Not only does it 
allow for more passive natural surveillance and supervision of the 
surrounding exterior space of the school by staff and faculty, it also 
allows more daylight to illuminate classrooms while using less 
electrical energy, and as research shows, daylight is one of the most 
powerful antidepressants and positive boosts to one's mood and ability 
to concentrate and learn. This transparency can also establish a 
greater sense of school community among the students and faculty.
    As noted earlier, a reaction to limit windows or a desire for only 
high windows also removes the ability for inhabitants to view the 
outdoors and eliminating natural surveillance, but also eliminating the 
proven benefits of a connection to nature. Based on research, high 
windows would be perceived as a fortress, and young elementary school 
students would have been too short to see out the windows. Instead our 
approach was to slope the grade away from the building, such that the 
windows are higher to a potential assailant but feel normal to the 
children inside.
    Another example from Sandy Hook incorporated a variety of 
requirements in a single design element. Our security consultant had 
advised that an important layer would be a stand-off area from the 
front of the school, where both vehicles and people would not be 
allowed. At the same time, our sustainability consultant was advising 
on environmentally-friendly methods of diverting rain water from the 
school roof. And for the front facade design, we were looking to create 
a beautiful approach as well as something symbolic of the community 
identity. Our solution to all three concerns was a rain garden. With 
hardy colorful plants and a sunken rock ``river,'' it is a decorative 
natural element that runs along the entire front of the school--
creating a moat of sorts, that is clearly not friendly to cars or 
people. The rain water is channeled into the garden where it percolates 
into the soil and is naturally cleansed by the plants. The design then 
has three small footbridges to cross the rain garden to enter the 
school--a reflection of the community identity and the many streams and 
rivers of the area that are crossed everyday with bridges throughout 
town.
    The children are unaware about the security benefits provided by 
the rain garden--and they don't need to know. For them, the rain garden 
is a teaching tool where they can see and learn about the cycle of 
water and the seasonal plants with which we share our land. This small 
but impactful example shows the value of taking a comprehensive, 
design-centered approach to school security: It is a highly-specific 
answer to multiple physical and emotional considerations at once.
                               conclusion
    The desire to craft design solutions for the challenges facing 
schools is absolutely a priority for communities. As architects, we see 
this every day. However, 2 on-going problems prevent local school 
officials from implementing these solutions: Lack of access to quality 
information regarding design solutions and the ability to fund them. 
Consider that a survey was conducted 1 year after the Sandy Hook 
shooting. It polled architecture and design firms across the country 
with the simple question: Has there been an increase in requests from 
education officials for security features in schools. Most of the 
responses were ``no'' or ``about the same''.
    Part of the reason for this was lack of funding. However, the other 
part was due to a lack of quality information. The truth is local 
education officials don't have reliable information. Most don't know 
where to begin or what information to trust in their efforts to make 
their schools safe and secure. These two issues could be solved by 
allowing certain Federal grants to fund design services and 
furthermore, establishing a Federally-housed school design clearing 
house that serves as an independent, unbiased, and ``one stop shop'' 
informational repository for State and local education officials.
    In conclusion, while there are limitations on design to prevent 
these tragedies, design can significantly mitigate them. Therefore, the 
AIA would like to continue working with you and your Congressional 
colleagues on potential solutions that can truly help protect our 
children.
    Thank you again for the opportunity to speak. I look forward to 
your questions, and, on behalf of the AIA, continuing to be a resource 
on this important issue.
                               Attachment
            where we stand: school design and student safety
    Protecting the health, safety, and welfare of building occupants is 
fundamental to what architects do. Over the course of almost 2 decades, 
architects have worked with school communities across the country in 
response to repeated acts of deadly violence targeting students and 
educators. Architects feel a deep responsibility to contribute to 
solutions on this troubling issue. We're committed to working with all 
concerned stakeholders and every level of government, on both sides of 
the aisle, to keep our children safe.
    As architects, we believe that schools are intended to be 
communities and should be planned without sacrificing the inherent 
positive qualities of the school environments we all desire for our 
children. We know there is no one-size-fits-all design solution to 
school safety. School design must adapt to differing and evolving 
community concerns, support student health and safety, and create 
productive learning environments, all while respecting stretched school 
budgets.
    Architects address social, psychological, economic, and 
environmental factors in building design. Architects believe that 
innovative architectural design solutions can keep learners and 
learning central to the decision-making process in designing safe 
schools. As the professional association of architects, the American 
Institute of Architects (AIA) supports architects and their communities 
by dedicating resources and expertise in the following ways:
    AIA will lead efforts at the local, State, and Federal levels of 
government to update school design guidelines.--Architects can offer 
strategies designed to avert and restrict violence while preserving 
open learning environments that can positively influence student 
behavior and create more connected, open school communities. Achieving 
this critical balance in schools requires the development of best 
practice design standards and guidelines. AIA commits to advising on 
best practices and to monitor their effectiveness. AIA will work 
collaboratively with all levels of government to ensure they are 
adopted and followed.
    AIA will support collaborative and continuing education to achieve 
safe school design.--The AIA will continue to engage in activities to 
better inform its members and leaders in the community of the many 
design options and avenues available for school officials to access. 
AIA will aggregate and disseminate school safety best practices by 
engaging its members, Knowledge Communities, and chapters across the 
country. AIA will conduct grassroots efforts to educate State and local 
government officials on the importance of implementing safe school 
design in their communities.
    AIA will strive to make safe school design eligible for Federal 
grants.--AIA will spearhead the formation of a multi-stakeholder 
coalition to support a bipartisan effort that makes architectural and 
design services for schools an allowable use of funds within existing 
Federal funding and grants.
    AIA will establish a Federal clearinghouse on school design.--AIA 
is pursuing Federal public policy to establish a repository of 
architectural and design resources that is accessible by educational 
officials, architects and other design professionals to inform the 
design of safe, productive learning environments.
    Much of the public debate about school safety has focused on access 
to firearms and mental health services. Neither approach to solving 
school violence has progressed much over many years despite all-too-
frequent tragedies. Architects can improve school safety through the 
power of design now.
    By design, innovative learning environments address the need for 
contemporary learners to work peacefully, collaboratively, and safely. 
To design and build the new schools we need and to retrofit existing 
schools requires significant support and resources that go beyond just 
the architecture, engineering, and construction communities. The AIA 
urgently calls on all policy makers and stakeholders to work with 
school communities to safeguard students and teachers while keeping 
schools positive places of learning and growth.
                                 ______
                                 
   Joint Letter From the Dignity in Schools Campaign and NAACP Legal 
                   Defense and Educational Fund, Inc.
Committee on Homeland Security, Subcommittee on Emergency Preparedness, 
        Response, & Recovery, U.S. House of Representatives, H2-176 
        Ford House Office Building, Washington, DC 20515.

RE: Letter for the Record for the September 26, 2019, Hearing of the 
U.S. House Committee on Homeland Security's Subcommittee on Emergency 
Preparedness, Response, & Recovery, ``Engaging the Community: 
Perspectives on School Security''

    Dear Chairman Payne, Ranking Member King and Subcommittee Members: 
On behalf of the Dignity in Schools Campaign (DSC) and the NAACP Legal 
Defense and Educational Fund, Inc. (LDF), we encourage the 
Subcommittee, and all Members of Congress, to focus on providing 
students with positive supports that maintain safe, healthy, and 
inclusive schools and to avoid the use of any Federal resources on 
hardening schools, which does not make students safer and contributes 
to the school-to-prison pipeline for historically marginalized 
students.
    DSC is a coalition of over 100 grassroots and education advocacy 
organizations in 28 States. Since its inception in 2006, DSC members 
have worked to dismantle the school-to-prison pipeline by advocating 
for educational environments that keep students in school and learning. 
DSC has challenged the systemic use of exclusionary discipline 
practices that disproportionately impact students of color, students 
with disabilities, and students who identify as Lesbian, Gay, Bisexual, 
Transgender, and Queer (LGBTQ), which the Department of Education's 
(ED's) most recent civil rights data and other national research 
verifies.\1\
---------------------------------------------------------------------------
    \1\ U.S. Dep't of Education, 2015-2016 Civil Rights Data 
Collection: School Climate and Safety (April 2018), https://
www2.ed.gov/about/offices/list/ocr/docs/school-climate-and-safety.pdf. 
See also, Hilary Burdge, Adela C. Licona & Zemi T. Hyemingway, LGBTQ 
Youth of Color: Discipline Disparities, School Push-out, and the 
School-to-Prison Pipeline 2, https://gsanetwork.org/files/aboutus/
LGBTQ_brief_FINAL-web.pdf (``Research shows that LGBTQ youth of color 
in particular face persistent and frequent harassment and bias-based 
bullying form peers and school staff as well as increased surveillance 
and policing, relatively greater incidents of harsh school discipline, 
and consistent blame for their own victimization.'').
---------------------------------------------------------------------------
    Founded in 1940 by Thurgood Marshall, LDF is the nation's oldest 
civil rights law organization. For almost 80 years, LDF has relied on 
the Constitution and Federal and State civil rights laws to pursue 
equality and justice for African Americans and other people of color. 
Since the historic U.S. Supreme Court decision in Brown v. Board of 
Education,\2\ which LDF litigated and won, we have continued to 
represent students of color to ensure they receive quality and 
equitable educational opportunities \3\ and are not subject to 
racially-biased school practices and policies.\4\
---------------------------------------------------------------------------
    \2\ 347 U.S. 483 (1954).
    \3\ See, e.g., Thomas, et al. v. St. Martin Parish Sch. Dist., et 
al., Civil Action No. 6:65-cv-11314, Doc. 178 (W.D. La., Jan. 25, 2016) 
(approving plan to integrate the district & ensure Black students equal 
access to educ. opportunities), available at http://www.naacpldf.org/
update/ldf-announces-consent-decree-thomas-v-school-board-st-martin-; 
Br. for Black Student Alliance at Univ. of Tex. at Austin, Black Ex-
Students of Tex., & LDF as Amici Curiae, Fisher v. Univ. of Tex. at 
Austin, 2015 WL 6690039 (Nov. 2, 2015), available at http://
www.naacpldf.org/files/case_issue/14-
981%20bsac%20The%20Black%20Student%20Alliance%20at%20the%20Uni- 
versity%20of%20Texas%20at%20Austin%20et%20al._1_1.pdf.
    \4\ See Complaint from LDF & Nat'l Ctr. for Youth Law to U.S. Dep't 
of Educ. Office for Civil Rights (hereinafter OCR) against Bryan Indep. 
Sch. Dist. (Feb. 20, 2013), available at http://www.naacpldf.org/files/
case_issue/Bryan%20ISD%20OCR%20Complaint.pdf.
---------------------------------------------------------------------------
    DSC's and LDF's recent joint national advocacy efforts have 
included releasing a toolkit for school communities on how to engage in 
the implementation of State plans under the Every Student Succeeds Act 
(ESSA),\5\ including the promotion of effective strategies for reducing 
these persistent racial disparities in school discipline and providing 
meaningful supports to school districts to reduce the overuse of 
exclusionary discipline; and re-releasing a brief on why increasing the 
police presence in schools would lead to further disparities for 
students of color.\6\
---------------------------------------------------------------------------
    \5\ Dignity in Schools, Engage for Equity: A Toolkit for School 
Communities on the Every Student Succeeds Act, http://
dignityinschools.org/resources/engageforequity.
    \6\ Dignity in Schools, Police in Schools are Not the Answer to 
School Shootings, http://dignityinschools.org/resources/police-in-
schools-are-not-the-answer-to-school-shootings/.
---------------------------------------------------------------------------
    Research and experience show that increasing school safety hinges 
on creating a positive school climate where students feel welcome and 
safe.\7\ Efforts to harden schools both undermine efforts to improve 
school climate and pose a particular problem for students of color and 
students with disabilities, increasing the risk that they will enter 
the school-to-prison pipeline.
---------------------------------------------------------------------------
    \7\ Steinberg, Matthew, Elaine Allensworth, and David Johnson. 
Student and Teacher Safety in Chicago Public Schools. Consortium on 
Chicago School Research, 2011, available at: https://
consortium.uchicago.edu/publications/student-and-teacher-safety-
chicago-public-schools-roles-community-context-and-school.
---------------------------------------------------------------------------
    For example, there is no evidence to show that the assignment of 
law enforcement officers to schools makes students safer. However, law 
enforcement officers placed in schools too often engage in routine 
disciplinary matters best left to educators. Students who attend 
schools where a school resource officer is present are more likely to 
be referred to law enforcement for typical childhood behaviors that 
previously would have been handled by educators using developmentally 
appropriate, pedagogically sound interventions.\8\ For example, police 
have arrested students, some as young as 5 years old, for throwing a 
tantrum, texting, passing gas, violating the school dress code, 
arriving late, bringing a cell phone to school, or having a nonviolent 
verbal disagreement with a schoolmate.\9\ Just last week, 2 6-year-olds 
were arrested at school in Florida, one for kicking someone and the 
other for an unspecified misdemeanor, with all charges having since 
been dropped.\10\
---------------------------------------------------------------------------
    \8\ Jason Nance, Students, Police, and the School-to-Prison 
Pipeline, U. of Fla. Levin College of L., 2016, available at http://
papers.ssrn.com/sol3/papers.cfm?abstract_id=2577333.
    \9\ Id.
    \10\ Allyson Chiu, Florida officer fired for `traumatic' arrests of 
two 6-year-old students at school, Wash. Post, Sep. 24, 2019, https://
www.washingtonpost.com/nation/2019/09/23/girl-tantrum-orlando-
classroom-arrested-battery-school-investigation/.
---------------------------------------------------------------------------
    These are unfortunately not isolated incidents. In Florida, for 
example, during the 2010-11 school year, assigning police to schools 
led to 16,377 referrals of students to the juvenile justice system--an 
astounding 45 students each day.\11\ Two-thirds of these referrals were 
for misdemeanors such as disruption of a school function, disorderly 
conduct, or minor scuffles with schoolmates.\12\ This criminalization 
of developmentally appropriate childhood misbehavior has dire 
consequences. Turning police into school disciplinarians increases 
student anxiety, creates alienation and distrust, diminishes students' 
faith in the legitimacy of the authority of school staff, and can 
trigger, rather than prevent, misbehavior.\13\ Harsh disciplinary 
practices, such as school-based arrests, increase the risk that 
students will fail a grade, drop out of school, and become entangled in 
the criminal justice system.\14\
---------------------------------------------------------------------------
    \11\ Fla. Dep't of Juv. Just., Delinquency in Florida's Schools: A 
Seven Year Study 3 (Nov. 2011), available at http://
www.djj.state.fl.us/docs/research2/2010-11-delinquency-in-schools-
analysis.pdf?sfvrsn=0.
    \12\ ACLU of Fla., Advancement Project, & Fla. St. Conf. of the 
NAACP, Still Haven't Shut Down the School-to-Prison Pipeline 6-8 (Mar. 
2011), available at http://b.3cdn.net/advancement/
be89ef01bcb350c7fc_z5m6btbgo.pdf.
    \13\ Philip J. Cook, et al., School Crime Control and Prevention, 
39 CRIME & JUST. 313, 372 (2010). Accord Matthew J. Meyer et al., A 
Structural Analysis of School Violence and Disruption: Implications for 
Creating Safer Schools, 22 EDUC. & TREATMENT OF CHILD. 333, 352 (1999); 
Randall R. Beger, The Worst of Both Worlds, 28 CRIM. JUST. REV. 336, 
340 (2003); Kathleen Nolan, POLICE IN THE HALLWAYS: DISCIPLINE IN AN 
URBAN HIGH SCHOOL 53 (2011).
    \14\ Russell Skiba et al., Are Zero Tolerance Policies Effective in 
the Schools? A Report by the American Psychological Association Task 
Force (2006), available at http://www.apa.org/pubs/info/reports/zero-
tolerance-report.pdf; Tony Fabelo et al., Breaking Schools' Rules: A 
Statewide Study of How School Discipline Relates to Students' Success 
and Juvenile Justice Involvement (2011); Centers for Disease Control, 
Health Risk Behaviors Among Adolescents Who Do and Do Not Attend 
School--United States, 1992, 43 MORBIDITY & MORTALITY WEEKLY REP. 129 
(1994). See also Robert Balfanz et al., Sent Home and Put Off-Track: 
The Antecedents, Disproportionalities, and Consequences of Being 
Suspended in the Ninth Grade (Dec. 2012) (Paper prepared for the 
Closing the School Discipline Gap: Research to Practice national 
conference in Washington, DC, Jan. 10, 2013) (finding that students who 
were suspended even 1 time in ninth grade were twice as likely to drop 
out).
---------------------------------------------------------------------------
    Furthermore, law enforcement officers placed in schools too often 
discipline, arrest, and assault Black children at a higher rate than 
their White peers,\15\ violating Federal law prohibiting discrimination 
based on race. Although Black and Latinx students do not misbehave more 
than White students,\16\ they make up over 58 percent of school-based 
arrests, but only 40 percent of public school enrollment.\17\ Black 
students are more than twice as likely as their White peers to be 
referred to law enforcement or arrested at school.\18\ The presence of 
police in schools makes Black students and students who have been 
victims feel less safe,\19\ which negatively affects school climate. 
The prohibition of the assignment of law enforcement officers to school 
would positively impact school safety by creating a more positive 
school climate and therefore contributing to a welcoming environment 
conducive to learning for students, particularly those of color.
---------------------------------------------------------------------------
    \15\ See Ajmel Quereshi et al., Locked Out of the Classroom: How 
Implicit Bias Contributes to Disparities in School Discipline, NAACP 
LEGAL DEFENSE & EDUCATIONAL FUND, INC., 2017, available at http://
www.naacpldf.org/files/about-us/Bias_Reportv2017_30_11_FI- NAL.pdf.
    \16\ Russell J. Skiba, et al., Are Black Kids Worse? Myths and 
Facts About Racial Differences in Behavior: A Summary of the 
Literature, Indiana U., Mar. 2014, available at http://www.indiana.edu/
?atlantic/wp-content/uploads/2014/03/African-American-Differential-
Behavior_031214.pdf.
    \17\ Education Week Research Center original analysis of Civil 
Rights Data Collection, 2017, available at https://www.npr.org/
sections/ed/2017/01/27/511428075/does-your-school-arrest-students.
    \18\ 2013-2014 Civil Rights Data Collection (CRDC), A First Look: 
Key Data Highlights on Equity and Opportunity Gaps in Our Nation's 
Public Schools, U.S. DEP'T OF EDUC. OFFICE FOR CIV. RTS (June 7, 2016).
    \19\ Matthew T. Theriot et al., School Resource Officers and 
Students' Feelings of Safety at School, 14 YOUTH VIOLENCE & JUV. JUST. 
2, 130-146 (Dec. 2014), abstract available at http://
journals.sagepub.com/doi/10.1177/1541204014564472.
---------------------------------------------------------------------------
    These consequences are not limited to increasing law enforcement 
presence. Many recent efforts to address school safety concerns have 
included the use of technology like facial recognition software,\20\ 
increased use of threat assessments,\21\ and increased data sharing 
with law enforcement.\22\ These and other similar recommendations that 
rely upon the use of data and technology are often presented as 
transparent and objective innovations, but they each come with serious 
civil rights concerns. Where schools do implement threat assessments 
and data sharing, they must also ensure that proper due process and 
privacy protections are implemented to guard against subjecting 
innocent students to false and malicious allegations of wrongdoing 
without any recourse.\23\ In addition, protections should be in place, 
including a robust system of feedback and review, to ensure that these 
systems are not having a disparate impact on students of color or other 
groups at risk of being targeted. Even well-meaning students or staff 
who unknowingly hold implicit biases against students of color \24\ may 
act on those biases by reporting those students as a threat. For 
guidance on how to implement threat assessment teams to address these 
concerns, please see the enclosed upcoming chapter from DSC's Model 
School Code,\25\ entitled ``Using an Intervention Support Team Model to 
Conduct ``Threat Assessments.''\26\ Facial recognition software should 
not be used at all, as it has been shown to be inaccurate in 
identifying Black faces, darker-skinned women, and children and has 
been found to be completely ineffective in making schools safer.\27\ 
Additional measures like arming school staff, adding metal detectors, 
and other efforts to ``harden'' schools have not been found to increase 
school safety, but will unfairly negatively impact students of color.
---------------------------------------------------------------------------
    \20\ See, e.g., Issie Lapowsky, Schools Can Now Get Facial 
Recognition Tech for Free. Should They?, WIRED, Jul. 17, 2018; Ava 
Kofman, Face Recognition Is Now Being Used in Schools, but It Won't 
Stop Mass Shootings, THE INTERCEPT, May 30, 2018.
    \21\ See, e.g., FINAL REPORT OF THE FEDERAL COMMISSION ON SCHOOL 
SAFETY, Ch. 5, Dec. 18, 2018, available at https://www2.ed.gov/
documents/school-safety/school-safety-report.pdf.
    \22\ See, e.g., Benjamin Herold, To Stop School Shootings, Fla. 
Will Merge Government Data, Social Media Posts, EDWEEK, Jul. 26, 2018.
    \23\ U.S. Secret Service and U.S. Dep't of Educ., Threat Assessment 
in Schools: A Guide to Managing Threatening Situations and to Creating 
Safe School Climates (July 2004).
    \24\ See, e.g., Philip A. Goff, et al., The Essence of Innocence: 
Consequences of Dehumanizing Black Children, 106 J. OF PERSONALITY & 
SOC. PSYCHOL. 526 (2014), available at https://www.apa.org/pubs/
journals/releases/psp-a0035663.pdf; Rebecca Epstein, et al., Girlhood 
Interrupted: The Erasure of Black Girls' Childhood, CTR. ON POVERTY & 
INEQUALITY AT GEO. L. SCH. (Aug. 14, 2017), available at https://
www.law.georgetown.edu/poverty-inequality-center/wp-content/uploads/
sites/14/2017/08/girlhood-interrupted.pdf; John Paul Wilson, et al., 
Racial Bias in Judgments of Physical Size and Formidability: From Size 
to Threat, 113 J. OF PERSONALITY & SOC. PSYCHOL. 59 (2017), available 
at http://www.apa.org/pubs/journals/releases/psp-pspi0000092.pdf; 
Walter S. Gilliam, et al., Do Early Educators' Implicit Biases 
Regarding Sex & Race Relate to Behavior Expectations & Recommendations 
of Preschool Expulsions & Suspensions?, YALE U. CHILD STUDY CTR. (Sep. 
28, 2016), available at http://ziglercenter.yale.edu/publications/
Preschool%20Implicit%20Bias%20Policy%20Brief_final_- 
9_26_276766_5379_v1.pdf; Tony Favro, Discipline and civil rights in 
American State schools, CITY MAYORS, Nov. 22, 2011, available at http:/
/www.citymayors.com/education/usa-school-discipline.html; Wesley 
Wright, Fear of black students, unfair treatment rampant in Denver 
schools, black educators say, CHALKBEAT, Aug. 5, 2016, available at 
https://www.chalkbeat.org/posts/co/2016/08/05/fear-of-black-students-
unfair-treatment-rampant-in-denver-schools-black-educators-say/.
    \25\ You can find the full Model Code at http://
dignityinschools.org/take-action/model-school-code/.
    \26\ This chapter is not yet finalized, so there may be slight 
differences between the version attached and the soon-to-be-released 
final version.
    \27\ See Ava Kofman, Face Recognition Is Now Being Used in Schools, 
but It Won't Stop Mass Shootings, THE INTERCEPT, May 30, 2018.
---------------------------------------------------------------------------
    For these reasons, DSC and LDF encourage the subcommittee to work 
to prohibit the use of Federal resources to support efforts to 
``harden'' schools as such efforts actually render students less safe. 
The subcommittee should also work to provide more resources to schools 
and districts to both protect students' rights and promote positive 
school climates, including increasing the number of school counselors 
and social workers, as well as access to evidence-based and promising 
programs like Restorative Practices, Positive Behavior Interventions & 
Supports \28\ and trauma-informed care.\29\ For additional information 
and guidance on effective methods for supporting student safety and 
positive school climates, please see the Civil Rights Principles for 
Safe, Healthy, and Inclusive School Climates \30\ recently released by 
the Leadership Conference Education Fund. These measures get to the 
root of problems students are facing and proactively create safer 
environments for everyone in the school community.
---------------------------------------------------------------------------
    \28\ See Jenni Owen, et al., Instead of Suspension: Alternative 
Strategies for Effective School Discipline, Duke Center for Child and 
Family and Policy, 2015, available at https://law.duke.edu/childedlaw/
schooldiscipline/downloads/instead_of_suspension.pdf.
    \29\ See Katy O'Grady, Transforming Schools with Trauma-Informed 
Care, ASCA SCHOOL COUNSELOR, Jan. 2017, available at https://
www.schoolcounselor.org/asca/media/asca/ASCAU/Trauma-Crisis-Management-
Specialist/TransformingSchools.pdf.
    \30\ Available at http://civilrightsdocs.info/pdf/education/School-
Climate-Principles.pdf.
---------------------------------------------------------------------------
    Thank you for considering this letter. If you have any questions or 
concerns, please do not hesitate to contact Natalie Chap [.] or Nicole 
Dooley [.]
            Sincerely,
                                              Natalie Chap,
                 Campaign Coordinator, Dignity in Schools Campaign.
                                             Nicole Dooley,
                                  Senior Policy Counsel, NAACP LDF.
Encl: Dignity in Schools Campaign, ``Using an Intervention Support Team 
Model to Conduct ``Threat Assessments.''
                                 ______
                                 
                  Letter From Everytown for Gun Safety
                                September 24, 2019.
Representative Donald Payne, Jr.,
Chairman, Emergency Preparedness, Response, & Recovery Subcommittee of 
        the House Committee on Homeland Security, H2-176 Ford House 
        Office Building, Washington, DC 20515.
Representative Peter King,
Ranking Member, Emergency Preparedness, Response, & Recovery 
        Subcommittee of the House Committee on Homeland Security, H2-
        176 Ford House Office Building, Washington, DC 20515.
    Dear Chairman Payne and Ranking Member King: Everytown for Gun 
Safety, the largest gun violence prevention organization in the 
country, submits this letter in advance of the Emergency Preparedness, 
Response, & Recovery Subcommittee of the House Committee on Homeland 
Security hearing titled Engaging the Community: Perspectives on School 
Security. Earlier this year, Everytown released a report in 
collaboration with the National Education Association and American 
Federation of Teachers that goes into detail on the data on school gun 
violence and proposes a comprehensive set of proven effective solutions 
to strengthen schools' ability to intervene effectively when a student 
is at risk, increase physical security and preparedness, and address 
student access to firearms. The recommended school reforms are 
essential, including programs establishing evidence-based threat 
assessment teams, but it is without a doubt that strong gun safety laws 
are a critical component of any comprehensive plan to address school 
safety.
    The data shows that targeted school violence is overwhelmingly 
committed by students. From 1966 to 2016, nearly 79 percent of active 
shootings in schools throughout the United States were committed by a 
current student or recent graduate of the school.\1\ Research by the 
U.S. Secret Service on targeted school violence shows that in 93 
percent of cases there were behavioral warning signs that caused others 
to be concerned, and in 81 percent of incidents, other people, most 
often peers, had knowledge about the shooter's plans.\2\ These are 
critical moments when a school must have a program to intervene to stop 
students at risk from harming themselves or others. The U.S. Secret 
Service released a report providing guidance on how to develop an 
evidence-based threat assessment program, which includes addressing 
students' access to guns.\3\
---------------------------------------------------------------------------
    \1\ The New York Police Department specifically analyzed active-
shooter incidents from 1966-2016. Analysis finds that 79 percent of 
active shootings in schools involved shooters who were under 18; and 
were a current student or recent graduate of the school. New York City 
Police Department. Active shooters: Recommendation and analysis for 
risk mitigation. 2016. https://on.nyc.gov/2GlEbI1.
    \2\ United States Secret Service and United States Department of 
Education. The final report and findings of the safe school initiative: 
Implications for the prevention of school attacks in the United States. 
https://bit.ly/2oFpIwa. Published May 2002.
    \3\ National Threat Assessment Center. Enhancing school safety 
using a threat assessment model: An operational guide for preventing 
targeted school violence. United States Secret Service and U.S. 
Department of Homeland Security. https://bit.ly/2NKlwqD. Published July 
2018.
---------------------------------------------------------------------------
    The guns used in targeted school violence follow a pattern: Most 
mass shooters obtain their guns from family or friends. Studies show 
that in 68 to 80 percent of incidents, shooters obtain their guns from 
home, their relative's home or from friends.\4\ There have been many 
``comprehensive'' school safety plans proposed over the last 20 years. 
Few have effectively and thoroughly addressed the issue common in all 
school shootings: Easy access to guns by those at risk of committing 
harm. Everytown strongly urges the Committee to support three targeted 
gun safety policies that are proven effective interventions to prevent 
students from accessing firearms.
---------------------------------------------------------------------------
    \4\ United States Secret Service and United States Department of 
Education. The final report and findings of the safe school initiative: 
Implications for the prevention of school attacks in the United States. 
https://bit.ly/2oFpIwa. Published May 2002; Centers for Disease Control 
and Prevention. Source of firearms used by students in school-
associated violent deaths, United States, 1992-1999. MMWR Weekly. 2003; 
52(09):169-172; Woodrow Cox J, Rich S. `The gun's not in the closet.' 
The Washington Post. August 1, 2018. https://wapo.st/2TyDnTW.
---------------------------------------------------------------------------
    First, when family or law enforcement is made aware that a student 
or another person is a risk to themselves or others, and that the 
person has access to guns, they need the ability to go to court and ask 
a judge for a civil restraining order. These extreme risk protection 
orders, or ERPOs, can be issued only after a specific legal 
determination is made that a person poses a threat to him or herself or 
others. An essential component of the law allows courts to take 
immediate action if the evidence shows that the threat is imminent. 
These laws also contain significant due process protections to ensure 
that a person's rights are balanced with public safety. There is strong 
evidence that extreme risk laws can prevent acts of violence before 
they happen.
  <bullet> In Maryland, Montgomery County Sheriff Darren Popkin 
        testified that a recently passed ERPO law has been invoked in 
        at least 4 cases involving ``significant threats'' against 
        schools.\5\
---------------------------------------------------------------------------
    \5\ Broadwater L. Sheriff: Maryland's `red flag' law prompted gun 
seizures after 4 `significant threats' against schools. The Baltimore 
Sun. January 15, 2019. https://bit.ly/2Gdf6Qi
---------------------------------------------------------------------------
  <bullet> In Florida, an ERPO law passed in 2018 has been invoked in 
        multiple cases of potential school violence, including in the 
        case of a student who was accused of stalking an ex-girlfriend 
        and threatening to kill himself,\6\ and in another in which a 
        potential school shooter said killing 29 people would be ``fun 
        and addicting.''\7\
---------------------------------------------------------------------------
    \6\ Kennedy E. Tate student's AR-15, father's 54 guns removed under 
new red flag law. Pensacola News Journal. July 9, 2018. https://bit.ly/
2UHmaba.
    \7\ Lipscomb J. Florida's post-Parkland ``Red Flag'' law has taken 
guns from dozens of dangerous people. Miami New Times. August 7, 2018. 
https://bit.ly/2ORW56U.
---------------------------------------------------------------------------
    The Federal Commission on School Safety recently endorsed ERPOs as 
an effective tool to prevent school gun violence, and during his 
confirmation hearing before the U.S. Senate Judiciary Committee, now-
U.S. Attorney General William Barr said that ERPOs were ``the single 
most important thing we can do in the gun control area to stop these 
mass shootings from happening in the first place.'' The Senate 
Judiciary Committee recently held a hearing where there was bipartisan 
agreement that ERPOs are important tools to prevent gun violence. 
Twelve States, including Florida, and Washington, DC have passed ERPO 
laws since the Parkland shooting; 5 of them were signed by Republican 
Governors.\8\ In all, 17 States and the District of Columbia now have 
strong ERPO laws on the books.\9\ This tool needs to be available in 
every State and schools, families, and law enforcement need to be aware 
of how to use it.
---------------------------------------------------------------------------
    \8\ CO, DE, FL, HI, IL, MA, MD, NV, NY, NJ, RI, VT. Republican 
Governors signed bills in FL, IL, MA, MD, VT.
    \9\ The 17 States are: CA, CO, CT, DE, FL, HI, IL, IN, MA, MD, NV, 
NJ, NY, OR, RI, VT, WA.
---------------------------------------------------------------------------
    Second, we should encourage responsible firearm storage through 
legislative change and awareness campaigns. The most common source of 
guns used in school shootings is from the shooter's home, the homes of 
friends, or the homes of relatives. This is unsurprising, since nearly 
4.6 million American children live in homes with at least one gun that 
is loaded and unlocked.\10\ Responsible firearm storage laws, often 
known as child access prevention laws, require that people store 
firearms responsibly when they are not in their possession in order to 
prevent unauthorized access. Under these laws generally, if and when a 
person accesses a firearm and does harm with it, the person who failed 
to adequately store the firearm is liable. In addition to enacting 
responsible storage laws, policy makers should encourage a culture of 
responsible gun storage by increasing awareness of responsible storage 
practices. Storing household guns locked, unloaded, or separate from 
the ammunition is associated with reductions in the risk of self-
inflicted and unintentional firearm injuries among children and 
teenagers--up to 85 percent depending on the type of storage 
practice.\11\ For years, Moms Demand Action, the grassroots arm of 
Everytown for Gun Safety, has run a public safety program called Be 
SMART. This PTA-endorsed program focuses on fostering conversations 
about responsible storage among parents and children to help facilitate 
behavior change and address unauthorized access to guns, including the 
hundreds of unintentional shootings committed and experienced by 
children every year.
---------------------------------------------------------------------------
    \10\ Azrael D, Cohen J, Salhi C, Miller M. Firearm storage in gun-
owning households with children: Results of a 2015 national survey. 
Journal of Urban Health. 2018; 95(3): 295-304. Study defined children 
as under the age of 18.
    \11\ Grossman DC, Mueller BA, Riedy C, et al. Gun storage practices 
and risk of youth suicide and unintentional firearm injuries. Journal 
of the American Medical Association. 2005; 293(6)707-714.
---------------------------------------------------------------------------
    Third, background checks are a key foundation to enforcing our gun 
laws and are an effective tool for keeping guns out of the hands of 
people with dangerous histories. A 2019 analysis found that States with 
laws requiring background checks for all gun sales have homicide rates 
10 percent lower than States without them.\12\ As part of a 
comprehensive plan to prevent gun violence in schools, the Federal 
Government must act to require background checks on all gun sales so 
that shooters cannot easily purchase firearms. Current Federal law 
requires that background checks be conducted whenever a person attempts 
to purchase a firearm from a licensed gun dealer, however, current 
Federal law does not require background checks on sales between 
unlicensed parties. This means that people with dangerous histories can 
easily circumvent the background check system simply by purchasing 
their firearms on-line or at a gun show. A recent Everytown 
investigation showed that as many as 1 in 9 people arranging to buy a 
firearm on Armslist.com, the Nation's largest on-line gun marketplace, 
would fail a background check, including because they are minors under 
18.\13\ Among the prospective Amslist.com gun buyers in Florida in 
2018, 1 in 10 were under 21 years old and not eligible to purchase 
firearms under State law solely because of their age.\14\ And yet 
without background checks required on those sales, those individuals 
may have been able to get armed illegally and with no background check.
---------------------------------------------------------------------------
    \12\ Siegel M, Boine C. What are the most effective policies 
inreducing firearm homicides? Rockefeller Government Institute. 2019.
    \13\ Everytown for Gun Safety. UNCHECKED: OVER 1 MILLION ONLINE 
FIREARM ADS, NO BACKGROUND CHECKS REQUIRED. https://
everytownresearch.org/unchecked/. February 2019.
    \14\ Everytown investigators posted advertisements for firearms for 
sale in Florida. Investigators did not possess any of the firearms 
being listed for sale nor did they complete any transactions as part of 
this investigation. Investigators then conducted telephone, text, or 
email communications with prospective buyers and verified the identity 
of 111 individuals in Florida looking to purchase a firearm. By 
conducting searches of publicly available records, investigators were 
able to determine that 11 of these prospective buyers in Florida were 
under the age of 21 and prohibited from purchasing a gun in Florida 
solely due to their age.
---------------------------------------------------------------------------
    Finally, one solution that has not been proven effective and places 
schools at risk is authorizing teachers and school staff to carry 
firearms in schools. Arming teachers puts our children at greater risk 
and does nothing to stop active shooters or other forms of school gun 
violence. While the desire for action is understandable, the notion of 
a well-trained teacher acting as a last line of defense is not based on 
experience or research. Law enforcement, those we charge with 
protecting our schools, strongly oppose arming teachers. The National 
Association of School Resource Officers and the president and chief 
executive officer of the Major Cities Police Chiefs Association have 
all indicated their opposition to arming teachers. Law enforcement 
personnel who carry guns on a daily basis receive hundreds of hours of 
initial training and are generally required to continue their training 
throughout their careers.\15\ In the States that have laws that are 
designed to allow for armed school personnel, those armed personnel 
receive significantly less training than law enforcement. The laws vary 
widely, but not a single State requires teachers or school staff to 
undergo training that is akin to that completed by a full-time law 
enforcement officer. The simple fact is that greater access to firearms 
is strongly correlated with additional risk. When more guns are placed 
into schools, children will be more likely to access them.
---------------------------------------------------------------------------
    \15\ The average number of initial training hours that a law 
enforcement officer receives at a basic training academy is 840. Reaves 
BA. State and local law enforcement training academies, 2013. U.S. 
Department of Justice, Office of Justice Programs, Bureau of Justice 
Statistics. https://bit.ly/2pg0whI. Published July 2016.
---------------------------------------------------------------------------
    Everytown commends this subcommittee for taking up this important 
issue, and strongly urges Members to focus on strengthening gun safety 
laws as part of a comprehensive solution to keeping schools safe from 
gun violence.
            Sincerely,
                                     Robert B. Wilcox, Jr.,
  Deputy Director of Policy and Strategy, Everytown for Gun Safety.
                                 ______
                                 
      Letter From the National Association of School Psychologists
The Honorable Donald Payne,
Chairman, U.S. House Subcommittee on Emergency Preparedness, Response, 
        & Recovery, H2-176 Ford House Office Building, Washington, DC 
        20515.
The Honorable Peter King,
Ranking Member, U.S. House Subcommittee on Emergency Preparedness, 
        Response, & Recovery, H2-176 Ford House Office Building, 
        Washington, DC 20515.
    Dear Mr. Chairman and Ranking Member: Thank you for holding this 
important hearing to discuss the best practices for enhancing school 
safety and security. On behalf of the 25,000 members of the National 
Association of School Psychologists (NASP), we know first-hand that 
schools play a critical and irreplaceable role in keeping students safe 
and supporting their mental health. While schools remain one of the 
safest places for children, we cannot ignore the fact that acts of 
violence do occur on our school campuses, in addition to those that our 
students experience on the way to and from school and in their 
communities. This can include bullying, harassment, fighting, assault, 
and gun violence. Data from the Naval Postgraduate School's K-12 School 
Shooting database shows that 2018 was the worst year on record for 
school shootings and gun-related incidents. The Washington Post 
reported that more than 226,000 children have been exposed to gun 
violence at schools since Columbine.\1\ This reality in our country is 
completely unacceptable. Of all developed countries, the United States 
is the only Nation that continues to experience gun violence on a daily 
and pervasive basis.
---------------------------------------------------------------------------
    \1\ Valerie Strauss, ``Study: There's no evidence that hardening 
schools actually works'' (April 26, 2019) available at: https://
www.washingtonpost.com/education/2019/04/16/study-theres-no-evidence-
that-hardening-schools-make-kids-safer-gun-violence-actually works/.
---------------------------------------------------------------------------
    As Congress explores solutions to prevent school violence, it is 
imperative that we stay focused on facts and on what we know works. 
NASP urges Congress to focus on comprehensive efforts to improve school 
safety--a balance of physical and psychological safety measures that 
address all aspects of school safety; not just incidents of mass 
violence. Creating safe and supportive schools requires a team effort. 
We know that, together, we can create successful schools that prevent 
violence by simultaneously employing reasonable physical security 
measures, maintaining appropriate crisis preparedness and response 
teams and plans, and ensuring positive school climates in which 
students' academic, social--emotional, and mental and behavioral health 
needs are met. In all of these efforts, school psychologists play a 
critical role.
    In 2012, NASP--in collaboration with the National Association of 
Elementary School Principals, the National Association of Secondary 
School Principals, the National Association of School Resource 
Officers, the American School Counselor Association, and School Social 
Work Association of America--released a Framework for Safe and 
Successful Schools (attached). This resource outlines best practice and 
policy recommendations that we know improve school safety. In 2018, the 
author organizations, along with the National PTA, released 
Considerations and Action Steps for implementing the Framework for Safe 
and Successful Schools (attached). This document builds on the 
recommendations outlined in the Framework and gives school leaders 
concrete steps they can take to improve school safety. We urge Congress 
to seriously consider these policy recommendations, which include the 
following:
  <bullet> Schools must implement safety initiatives that balance 
        psychological and physical safety.--Effective school safety 
        efforts should utilize evidence-based practices to ensure the 
        well-being of all students in addition to their physical 
        safety. Reasonable building measures, such as secure entrances 
        and exits, lighted and monitored hallways, and check in-check 
        out systems for visitors, are important. However, an 
        overemphasis on extreme physical security measures alone, such 
        as metal detectors and arming school staff, has either no 
        effect or arguably negative effects on school safety.\2\ Such 
        measures may, in fact, undermine student perceptions of safety 
        and schools' ability to ensure an effective learning 
        environment. Multiple studies have found no evidence that any 
        pattern of visible security had beneficial effects on academic 
        outcomes, and heavy surveillance was modestly associated with 
        detrimental effects on academic outcomes.\3\ This is 
        particularly true for low-income, inner-city schools or schools 
        who serve racial and ethnic minority students.
---------------------------------------------------------------------------
    \2\ Addington, L, The Use of Visible Security Measures in Public 
Schools: A Review to Summarize Current Literature and Guide Future 
Research (2018).
    \3\ Fisher, Benjamin W. & Tanner-Smith, Emily E, Visible Security 
Measures and Student Academic Performance, Attendance, and 
Postsecondary Aspirations (2016).
---------------------------------------------------------------------------
    We must balance physical and psychological safety by taking 
        reasonable security measures while also engaging in a sustained 
        district- and building-level commitment to foster a welcoming 
        and supportive learning environment. It's especially important 
        to note that arming teachers is not the answer. Doing so places 
        an unrealistic, unreasonable burden on America's educators, has 
        the potential to cause more harm from unintentional or 
        inaccurate discharge of firearms, and can undermine the sense 
        of safe, supportive learning environments. The Heller v. 
        District of Columbia case reinforced that there are ``sensitive 
        spaces'' where gun prohibition is perfectly acceptable--
        including schools. Our Nation must focus on the approaches that 
        genuinely safeguard the well-being of our children and of the 
        school staff who work to educate, empower, and protect them 
        every day. Allowing anyone other than a commissioned law 
        enforcement officer to carry a gun at a school is not one of 
        these approaches.
  <bullet> Increase access to comprehensive mental and behavioral 
        health services and supports in schools.--Only a fraction of 
        youth in need of mental health services actually receive them, 
        and among those that do, the majority receive care in school. 
        Schools are an ideal place both to promote mental wellness and 
        to identify and support students struggling with mental health 
        issues. In these cases, collaboration among school staff 
        members, community members, students, and their families is 
        essential to ensuring that children receive care and effective 
        interventions.
    We must stress that the vast majority of people with mental illness 
        are not violent; in fact, individuals with mental illness are 
        more likely to be victims of violence. To conclude that the 
        presence of an issue like depression predisposes someone to 
        commit a violent crime perpetuates an incorrect stereotype and 
        maintains a stigma that often creates a reluctance to seek 
        treatment. Instead we must reduce stigma, improve access to 
        mental health services in schools, and continue efforts to 
        build strong relationships and connections at school. These are 
        critical factors in preventing harm and interrupting 
        individuals' pathways toward violence. These efforts also allow 
        for effective responses to violent acts directed at schools, 
        and providing effective crisis response following exposure to 
        trauma.
    Importantly, in order to more effectively meet the mental, 
        behavioral, and social-emotional health needs of students--to 
        address the needs of the whole child--we must increase the 
        number of school psychologists, school counselors, and school 
        social workers. There is currently a critical shortage of these 
        professionals, who are trained to guide school-wide prevention 
        and intervention, provide direct services to students in need 
        of support, help teachers and other school staff understand the 
        warning signs that individuals may be at risk of causing harm 
        to themselves or others, provide appropriate threat and suicide 
        assessments and supports to identified students, and provide 
        crisis response and recovery mental health supports.
  <bullet> Create welcoming, supportive learning environments.--
        Students need to feel connected and included in their school 
        communities. It is critical to enhance school connectedness and 
        trust between students and adults, as well as to reinforce open 
        communication and the importance of reporting concerns about 
        someone potentially hurting themselves or others. A key 
        component of a welcoming and supportive environment is the use 
        of effective, positive discipline strategies that focus on 
        teaching and reinforcing positive behavior, preventing and 
        addressing negative behavior, and keeping students in school 
        rather than pushing them out. Overly punitive discipline 
        strategies, like zero-tolerance policies, do not improve school 
        safety. Overreliance on suspension and expulsion contributes to 
        the school-to-prison pipeline. Furthermore, students who are 
        suspended or expelled are at increased risk of dropping out, 
        substance abuse, and other risky behaviors that could lead to 
        involvement in the criminal justice system. Schools can and 
        should address negative behavior and connect students to the 
        necessary supports needed to be successful, rather than pushing 
        them out.
  <bullet> Establish trained school safety and crisis teams.--Schools 
        and districts need trained school safety and crisis teams and 
        plans that are consistently reviewed and practiced. Training 
        should encompass on-going prevention and early intervention as 
        well as response and recovery in the event the unpreventable 
        occurs. This includes conducting effective lockdown drills, 
        collaborative planning with community responders, and training 
        school mental health professionals with skills and techniques 
        to support psychological recovery. A primary goal should be to 
        reinforce learning as well as safety.
  <bullet> Enact and uphold gun laws that prevent access to firearms by 
        those who have the potential to cause harm to themselves or 
        others.--NASP supports measures that will reduce access to 
        firearms by individuals who intend to harm themselves or others 
        and are in line with existing public safety measures designed 
        to protect American citizens. This includes eliminating 
        inappropriate youth access to guns; reinstating the Federal 
        assault weapons ban; keeping guns out of the hands of 
        individuals deemed at risk of hurting themselves and others; 
        improving awareness of safe gun practices, including secure 
        storage of firearms; and funding public health research on gun 
        violence. We will not solve the issue of school and community 
        violence by making weapons more accessible or increasing their 
        presence in our schools. Instead, we must do everything we can 
        to keep weapons out of the hands of those who intend to harm 
        others.
    The truth is that no amount of investment in physical security can 
guarantee absolute protection from gun violence, and while hardening 
schools with visible security measures initially may alleviate student 
and parent fears and make the community aware that schools are taking 
action, these measures have not been proven to decrease acts of 
violence in schools. The education sector of the market for security 
equipment services reached $2.7 billion in revenue in 2017 \4\--but a 
recent study by researchers at the University of Toledo and Ball State 
University found that there were no physical security practices with 
evidence indicating they had reduced such violence.\5\ This is why 
addressing the shortage and increasing access to school-employed mental 
health professionals is absolutely critical to tackling this difficult 
issue. These professionals provide valuable expertise on creating 
healthy school environments--free of bullying, harassment, and 
discrimination--where students are comfortable and able to get the 
support they need and adults are able to recognize a student in crisis.
---------------------------------------------------------------------------
    \4\ ``School security systems industry--US market overview 
(February 26, 2018) available at https://technology.ihs.com/600401/
school-security-systems-industry-us-market-overview.
    \5\ Khubchandani, Jagdish and Price, James, School Firearm Violence 
Prevention Practices and Policies: Functional or Folly? (June 2019).
---------------------------------------------------------------------------
    In order to make our schools safer, we must do more to address the 
underlying causes of violence. This means enacting legislation that 
will balance physical and psychological safety, increase access to 
comprehensive mental and behavioral health services in schools, and 
uphold meaningful gun safety regulations that will reduce inappropriate 
access to weapons. As Congress proposes legislation to curb acts of 
violence in schools, it is absolutely imperative that these efforts are 
grounded in research and best practice. If you have any questions or 
would like to follow up, please contact me [.]
            Sincerely,
                                  Kathleen Minke, PhD, NCSP
  Executive Director, National Association of School Psychologists.
       Attachment.--A Framework for Safe and Successful Schools*
---------------------------------------------------------------------------
    * The attachment has been retained in committee files and is 
available on-line at www.nasponline.org/schoolsafetyframework.
---------------------------------------------------------------------------
Attachment.--Policy Recommendations for Implementing the Framework for 
                      Safe and Successful Schools
    Implementing the Framework for Safe and Successful Schools \1\ 
requires policies and practices that support on-going efforts to 
establish comprehensive school safety programming. Following are policy 
and practice recommendations to consider when developing your action 
plan. Some recommendations may appear in multiple sections.
---------------------------------------------------------------------------
    \1\ Cowan, K. C., Vaillancourt, K., Rossen, E., & Pollitt, K. 
(2013). A framework for safe and successful schools [Brief]. Bethesda, 
MD: National Association of School Psychologists.
---------------------------------------------------------------------------
Integration of Services and Initiatives
  <bullet> Provide on-going, high-quality, relevant, and job-embedded 
        professional development to all school staff.
  <bullet> Encourage the use of professional learning communities or 
        other structured avenues to foster collaboration among school 
        staff.
  <bullet> Ensure that district and school building teams have 
        representation of diverse stakeholders, including principals, 
        teachers (general and special education), parents, school 
        security professionals and school resource officers (SROs), 
        school-employed mental health professionals (e.g., school 
        psychologists), and other specialized instructional support 
        personnel.
  <bullet> Engage in resource mapping to better understand available 
        resources and how they are utilized through the school or 
        district to support:
    <bullet> Instruction
    <bullet> Organization and management
    <bullet> Learning supports (e.g., mental and behavioral health 
            services).
  <bullet> Develop a process for regular examination of school 
        initiatives to improve student outcomes.
    <bullet> Are any initiatives redundant?
    <bullet> Are all initiatives directly related to the school 
            improvement plan?
    <bullet> Do you have staff buy-in?
  <bullet> Effectively engage parents and families in school 
        improvement and school safety efforts.
Related Resources
  <bullet> Assessing School Level and District Level Needs
  <bullet> Ready to Learn, Empowered to Teach: Guiding Principles for 
        Effective Schools & Successful Students
  <bullet> Ensuring High-Quality, Comprehensive and Integrated Student 
        Supports (NASP Position Statement)
  <bullet> NASSP Position Statement on Safe Schools
  <bullet> NASP Online Learning Center
  <bullet> NASP PREPaRE Training Curriculum
  <bullet> Leading Success Module on Safe and Healthy School 
        Environments
Implementation of Integrated Multitiered Systems of Support (MTSS)
  <bullet> Establish a process for universal screening for academic, 
        behavioral, and emotional barriers to learning.
  <bullet> Implement high-quality, rigorous curricula that address core 
        academic competencies, social-emotional learning principles, 
        mental and behavioral wellness, and positive behavior.
  <bullet> Establish a process for regularly reviewing student data 
        (both behavioral and academic).
  <bullet> Require a multidisciplinary, data-based decision-making team 
        comprised of diverse stakeholders, including principals/
        administrators, teachers (general and special education), 
        parents, school-employed mental health professionals (e.g., 
        school psychologists) and other specialized instructional 
        support personnel.
  <bullet> Ensure access to a range of high-quality, evidence-based 
        interventions to address the comprehensive needs of students.
  <bullet> Build upon existing district and State initiatives related 
        to MTSS (e.g., response to intervention and positive behavioral 
        interventions and supports).
  <bullet> Embed time for planning and problem solving into the staff 
        master schedule.
  <bullet> Explicitly include MTSS efforts in the school improvement 
        plan.
  <bullet> Braid available funding streams to scale up existing 
        efforts.
  <bullet> Embed MTSS principles into all relevant professional 
        development.
  <bullet> Leverage existing technical assistance available from State, 
        regional, and National centers.
Related Resources
  <bullet> Leveraging Essential School Practices, ESSA, MTSS, and the 
        NASP Practice Model: A Crosswalk to Help Every School and 
        Student Succeed
  <bullet> Integrated Model of Academic and Behavior Supports (NASP 
        Position Statement)
  <bullet> The School Counselor and MTSS
  <bullet> ESSA and Multitiered Systems of Support
  <bullet> ASCA specialist trainings/PD opportunities
Access to School-Based Mental Health Supports
  <bullet> Examine existing ratios of school psychologists, school 
        social workers, and school counselors.
    Work with district and State leaders to develop a long-term plan to 
        achieve recommended ratios of each profession.
  <bullet> Develop and implement a process for parents, teachers, and 
        students to refer themselves or others for mental health 
        support.
  <bullet> Provide annual (or biannual) professional development to all 
        school staff in mental health first aid, the appropriate 
        referral process, suicide prevention, and other relevant mental 
        and behavioral health topics.
    <bullet> Utilize existing school-employed mental health 
            professionals in the development and delivery of this 
            professional development.
    <bullet> Provide additional professional development to school-
            employed mental health professionals on current evidence-
            based practices.
  <bullet> Develop policies and procedures for conducting suicide risk 
        and threat assessments.
    <bullet> Require involvement of the school counselor, school 
            psychologist, or school social worker.
  <bullet> Conduct a needs assessment to evaluate existing and needed 
        supports.
    <bullet> Examine availability of services in all tiers (prevention/
            early intervention, targeted support, intensive support).
  <bullet> Implement universal screening for mental and behavioral 
        health concerns.
  <bullet> Ensure availability of evidence-based mental health supports 
        for students identified as being `at-risk' in universal 
        screening measures and other referral processes.
  <bullet> If your school or district maintains formal partnerships 
        with community agencies who provide mental and behavioral 
        health, establish clear expectations for communication and 
        collaboration among school-employed mental health professionals 
        and community-employed providers.
  <bullet> Braid available funding streams to scale up existing 
        efforts.
Related Resources
  <bullet> NASP Practice Model Implementation Guide
  <bullet> Mental and Behavioral Health Services for Children and 
        Adolescents (NASP Position Statement)
  <bullet> Shortages in School Psychology Resource Guide
  <bullet> School Psychologists: Qualified Health Professionals 
        Providing Child and Adolescent Mental and Behavioral Health 
        Services (NASP White Paper)
  <bullet> NASSP Position Statement on Mental Health
  <bullet> The School Counselor and Student Mental Health
  <bullet> Community Schools White Paper
  <bullet> School-Community Alliances Enhance Mental Health Services
Integration of School Safety and Crisis Preparedness Efforts
  <bullet> Require establishment of a dedicated safety/crisis response 
        team that includes, at a minimum, school principals/
        administrators, school-employed mental health professionals, 
        school security professional/SROs, community stakeholders, 
        parents, and other school staff as appropriate. Convene this 
        team on a regular basis.
  <bullet> Develop a memorandum of understanding (MOU) with school 
        security agency/local police department with clear articulation 
        of specific roles and responsibilities of school security 
        personnel or the school resource officer.
  <bullet> Examine existing ratios of school psychologists, school 
        social workers, and school counselors.
  <bullet> Work with district and State leaders to develop a long-term 
        plan to achieve recommended ratios of each profession.
  <bullet> Develop an emergency response plan with procedures for 
        regular review.
  <bullet> Provide on-going staff development on the school safety and 
        crisis plan that includes regularly-scheduled practice and 
        coordination with community responders.
Related Resources
  <bullet> Model School District Policy on Suicide Prevention
  <bullet> School Violence Prevention (NASP Position Statement)
  <bullet> NASP PREPaRE Training Curriculum
  <bullet> NASP Online Learning Center
Balance of Physical and Psychological Safety
  <bullet> Ensure annual (at least) collection and review of school-
        wide climate and school safety data.
    <bullet> Data collection should include teacher, parent, and 
            student perception of school climate and safety.
  <bullet> Include explicit goals related to school climate and school 
        safety in the school/district level improvement plan.
  <bullet> Regularly examine the use and effectiveness of extreme 
        physical security measures (e.g., metal detectors, armed 
        security).
  <bullet> Examine the use of these measures in conjunction with 
        student perception of school safety.
  <bullet> Develop and implement procedures (including anonymous 
        reporting) for students, staff, and families to report 
        potential threats or other concerning behaviors.
  <bullet> Promote mentoring programs and other efforts to ensure that 
        all students have a positive relationship with at least one 
        adult.
  <bullet> Develop and implement a process for parents, teachers, and 
        students to refer themselves or others for mental health 
        support.
  <bullet> Provide annual (or biannual) professional development to all 
        school staff--and students as appropriate--in mental health 
        first aid, the appropriate referral process, suicide 
        prevention, and other relevant mental and behavioral health 
        topics.
  <bullet> Ensure availability of evidence-based mental health supports 
        for students identified as being `at-risk' in universal 
        screening measures and other referral processes.
Related Resources
  <bullet> School Security Measures and Their Impacts on Students (NASP 
        Research Summary)
  <bullet> ESSA and School Climate
  <bullet> Best Practice Considerations for Active Shooter and Armed 
        Assailant Drills
  <bullet> School Safety: What Really Works
Use of Effective Discipline Practices
  <bullet> Create and communicate clear behavioral expectations for 
        staff and students.
  <bullet> Clearly articulate, and consistently enforce, consequences 
        for inappropriate behavior.
  <bullet> Routinely teach students appropriate behavior, and make sure 
        that staff model appropriate behavior.
  <bullet> Reinforce the display of appropriate behavior.
  <bullet> Establish a process for regularly reviewing student 
        discipline data (in conjunction with other available data 
        sources).
  <bullet> Require a multidisciplinary, data-based decision-making team 
        comprised of diverse stakeholders, including principals, 
        teachers (general and special education), parents, school-
        employed mental health professionals (e.g., school 
        psychologists) and other specialized instructional support 
        personnel.
  <bullet> Prohibit the use of zero tolerance policies.
  <bullet> Establish enumerated antibullying and harassment policies.
  <bullet> Establish procedures for responding to all reports of 
        bullying and harassment.
Related Resources
  <bullet> Bullying Prevention and Intervention in Schools (NASP 
        Position Statement)
  <bullet> Corporal Punishment (NASP Position Statement)
  <bullet> NASSP Position Statement on Corporal Punishment
  <bullet> NASSP Position Statement on School Discipline
  <bullet> A Framework for School-Wide Bullying Prevention and Safety
  <bullet> Effective School-Wide Discipline
                                 ______
                                 
    Statement of James ``Mo'' Canady, Executive Director, National 
            Association of School Resource Officers (NASRO)
                           September 25, 2019
    Thank you for inviting me to testify on behalf of the National 
Association of School Resource Officers. It is my honor to serve as the 
executive director for this outstanding group of law enforcement and 
education professionals. NASRO is a not-for-profit association founded 
in 1991 with a solid commitment to our Nation's youth. NASRO is 
comprised of school-based law enforcement officers, school 
administrators, and school security and safety professionals working as 
partners to protect students, faculty, and staff, and their school 
communities. The ``school resource officer'' (SRO) refers to a 
commissioned law enforcement officer selected, trained, and assigned to 
protect and serve an educational environment. I cannot emphasize enough 
how critical it is for officers to be carefully selected and specially 
trained to function in the school environment. This is always a factor 
in the success or failure of the SRO program.
    The SRO program is most effective when it is built on the 
foundation of interagency collaboration. Through a formal memorandum of 
understanding between a law enforcement agency and a school district, 
each collaborator has a clear and properly-enforced understanding of 
his or her role in the school environment.
    The role of the SRO should utilize the triad concept of school-
based policing, in which an SRO functions in a school environment in 3 
capacities: (1) As a law enforcement officer, (2) as a teacher or guest 
speaker, and (3) as an informal counselor or mentor. These strategies 
should be based on a set of well-established best practices, which 
NASRO has spent nearly 30 years crafting. The NASRO Board of Directors 
recently commissioned a group of dedicated association members to 
create a formal document of standards and best practices for school 
resource officer programs. On July 13, 2018, this important document 
was completed. A copy of these best practices is included with this 
written testimony.
    These standards are organized in 4 sections, each of which 
encompasses an essential component of a successful SRO program.
    The first section outlines administrative standards, including an 
outline of the definition and purpose of an SRO and recommendations for 
the composing of a thorough memorandum of understanding between a law 
enforcement agency and a school. An SRO should be a sworn, certified 
law enforcement officer assigned to a community-based policing program 
and actively working in a collaborative effort with the school 
district. When this definition is followed, the SRO program serves at a 
tremendous benefit to its school community. However, when the 
definition is not adhered to, the SRO program's effectiveness will, at 
best, be greatly hindered, and, at worst, be significantly detrimental 
to the school, the law enforcement agency, and the community. The No. 1 
goal of any successful SRO must be to ``bridge the gap'' between law 
enforcement and youth. Positive relationships between students and SROs 
lay a powerful foundation for the exchange of information. These 
relationships, along with those the SRO builds with the school 
administration and with parents, can and have averted acts of school 
violence before a shot is ever fired.
    The second section speaks to the importance of the selection 
process. The SRO position is a unique assignment in law enforcement, 
and it requires a unique officer to properly serve in it. Due to the 
nature of the assignment, the SRO will become one of the most well-
known officers in the community. The officer selected for this position 
must have law enforcement experience, be of good moral character, and 
have a sincere willingness to work with students.
    The third section outlines the essential details of an SRO's 
specialized training. Once the officer has been carefully selected, it 
is then critical that he or she be specifically trained to work in a 
school environment, in the triad approach. Every SRO should attend and 
complete NASRO's Basic SRO Course, which includes topics such as: 
Foundations of School-Based Policing, Understanding the Teen Brain, 
School Law, and Emergency Operations Plans. An SRO's training must be 
on-going as educational trends and school culture change and should 
include topics such as: Adolescent Mental Health, Threat Assessment, 
and Active Shooter Response.
    The final section highlights the make-or-break importance of 
interagency collaboration between the school district and the law 
enforcement agency. Proper collaboration between school officials and 
SRO's will most definitely be effective in preserving the campus from 
disruptive forces while nurturing and protecting youth who are 
compelled to attend school. This collaboration should be formalized in 
a Memorandum of Understanding.
    Relationship building is certainly an important factor in the 
success of an SRO program. The SRO must strive to build positive 
working relationships with the school administration. One way of 
helping to build these relationships can be through the SROs role on 
the school safety team. Properly trained SRO's are prepared to be a 
member of safety teams and can also take a leadership role in helping 
to develop teams where none exist.
    I spent nearly half of my law enforcement career in school-based 
policing. It was without a doubt the most rewarding period of my 
career. It was more than just a job. It became my life's work. I 
developed positive relationships with administrators, faculty members, 
students, and parents. I became an integral part of the Hoover City 
Schools District Crisis Team. By being a part of a school safety team, 
the SRO becomes fully engaged in crisis planning to include Prevention, 
Preparedness, Response, and Recovery. SRO's can provide value to the 
written plans for a school district. They can also assist with campus 
site assessments as well as conducting safety drills.
    The aspect of ``Recovery'' was not one that I had given a great 
deal of thought to during the early phase of my career in school-based 
law enforcement. It was not until the days following November 19, 2002 
that it became clear to me the importance of the role that a school 
resource officer can play in the recovery portion of a critical 
incident. The unthinkable had happened at our largest high school. One 
student had taken the life of another in the hallway during the change 
of class periods.
    This resulted in a very large crime scene that took some time to 
secure. The students had to remain in a modified lockdown for several 
hours. We all knew that this was putting quite a burden on teachers in 
particular. However, they did exactly what they were supposed to do, as 
they had been trained. The principal asked me to join him in a faculty 
meeting after the students were released. I took the opportunity to 
praise the staff for their good work. One of the reasons that faculty 
members were so well-prepared for an incident such as this, was due to 
the school's commitment to maintaining a solid school safety team.
    I believe that this faculty meeting was actually the beginning of 
the recovery process. Plans were developed for the next day. We thought 
that our most important job on November 20 would be to keep this from 
happening again. To keep weapons out of the school. To make sure that 
no retaliation occurred. While all of those things were important, it 
paled in comparison to the need of the student body to be comforted and 
reassured. The need for trusted and caring adults became the more 
important issue in this recovery process. The school resource officers 
were certainly still focused on security but we were most definitely 
more engaged in the mental and emotional recovery process. The reason 
for this is because we were much more than just a law enforcement 
presence. We were trusted adults and we helped to make a difference in 
the lives of children during the days prior to and most definitely 
following November 19, 2002.
    Trained and committed police officers are well-suited to 
effectively protect and serve the school community. School resource 
officers contribute by ensuring a safe and secure campus, educating 
students about law-related topics, and mentoring students as informal 
counselors and role models. Over the last 29 years, the National 
Association of School Resource Officers has become the world leader in 
school-based policing. We have trained thousands of officers based on 
the Triad model of school-based policing and these officers are having 
a positive impact on the lives of children every day.
    As ``The World's Leader in School Based Policing,'' NASRO has 
regularly spoken to the critical need for best practices for SRO 
programs. We are proud to have authored Standards and Best Practices 
for School Resource Officer Programs. This important document was 
created in the furthering of our mission to keep every school and every 
student safe.
                                 ______
                                 
   Standards and Best Practices for School Resource Officer Programs
    The Standards and Best Practices presented here are separated into 
two classifications: Mandatory (M) and Recommended (R) to identify the 
importance of each Standard and Best Practice.
                                Forward
                      1.0 purpose of the standards
1.1 General
    This publication represents a standard for domestic and 
international agencies and departments. This Standards and Best 
Practices for the School Resource Officer Programs was developed and is 
maintained by the National Association of School Resource Officers, 
Inc., (NASRO) a section 501(c)(3) IRC membership association 
established pursuant to Chapter 617 of the laws of the State of 
Florida.
1.2 Applicability
    This document contains professional standards and recommended best 
practices for law enforcement agencies both within and outside of the 
United States, regardless of size or level of government (Federal/
national, State/provincial or local).
    NASRO has adopted this Standards and Best Practices for the School 
Resource Officer Programs and supports the need for the standards to be 
used as a guide for new and existing SRO units and for the best 
practices to be reviewed and adopted by all law enforcement, school 
safety agencies and school boards, as recommended.
    NASRO has adopted these standards and best practices as the basis 
for future law enforcement certification or accreditation and supports 
the need for the standards to be used as a guide for all SRO law 
enforcement administrations and operations.
1.3 Intent
    These standards and best practices are intended to provide a 
foundation of safe operating practices in the performance of the unit's 
mission and were formulated based on what has been identified as the 
two highest priorities of school-based law enforcement programs:
    1. Safety first in all aspects of the operation.
    2. Provide excellence in SRO services in support of the agency's 
        mission.
1.4 Scope
    The scope of this document is intended to encompass all aspects of 
SRO law enforcement and has been divided in 4 major sections: 
Administration, Selection, Training, and Collaboration. The subsections 
are intended to encompass the primary aspects of SRO law enforcement 
unit administration and operations.
           2.0 the major benefits of adopting these standards
    Agencies are strongly encouraged to adopt and implement the 
standards and best practices outlined in this publication. They have 
been designed as industry standards intended to foster a universal 
application of best practices throughout the SRO law enforcement 
community. Although adoption and implementation of these standards and 
best practices is strictly voluntary, agencies that choose to adhere to 
them set themselves apart from others, becoming exemplars of SRO safety 
and operational excellence.
2.1 Safe, Effective, and Cost-Efficient SRO Law Enforcement Operations
    Compliance with these standards and best practices provides 
agencies with a foundation upon which a culture of safe operating 
practices may be formulated and establishes a mark of excellence to 
further develop and enhance the SRO unit's professionalism, efficiency, 
and overall effectiveness.
2.2 Greater Accountability with the Agency
    These standards and best practices provide the respective agency 
chief, sheriff, or department head sound training principles, personnel 
qualification requirements, clearly defined lines of authority, and 
examples of accepted industry standards that support informed decision 
making and resource allocation.
2.3 Controlled Liability Insurance Costs
    Compliance with these standards and best practices may allow for 
agencies to more easily purchase SRO law enforcement and liability 
insurance, increase the limit of their insurance coverage, and, in many 
cases, lower their insurance premiums and/or gain other financial 
incentives.
2.4 Stronger Support from Government Officials and the Community
    By complying with these standards and best practices, agencies 
establish credibility as professional operations, which provide safe, 
cost-effective, and essential SRO support to law enforcement operations 
in a variety of missions.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
                     Letter From Sandy Hook Promise
                                September 26, 2019.
The Honorable Donald Payne Jr.,
Chairman, Subcommittee on Emergency Preparedness, Response, and 
        Recovery, 103 Cannon House Office Building, Washington, DC, 
        20515.
The Honorable Peter King.
Ranking Member, Subcommittee on Emergency Preparedness, Response, and 
        Recovery, 302 Cannon House Office Building, Washington, DC, 
        20515.
    Dear Chainman Payne and Ranking Member King: At Sandy Hook Promise, 
we believe that school violence is preventable when you know the signs. 
We are pleased that the Subcommittee on Emergency Preparedness, 
Response, and Recovery is examining this critical issue during today's 
hearing on ``Engaging the Community: Perspectives on School Security.'' 
As you take on this work, we encourage you to prioritize prevention and 
hold up proven evidence-based programs that can help stop tragedies 
before they happen.
    We are among the family members whose loved ones were killed in the 
mass shooting at Sandy Hook Elementary School that took the lives of 20 
precious first-graders and 6 of their dedicated educators on December 
14, 2012. Together, we formed Sandy Hook Promise, a national nonprofit 
committed to preventing gun violence before it happens by delivering 
no-cost, evidence-based prevention programs to our schools that train 
students and adults to know the signs of gun violence and intervene to 
stop a potential tragedy. We have trained over 7.5 million youth and 
adults and averted multiple school shooting, suicide, and other violent 
threats across all 50 States.
    While threats to our schools can come from the outside, the 
committee should consider that most school violence occurs between 
students. The Rural School and Community Trust reviewed nearly forty 
years of data and found that 90 percent of school-based mass violence 
events occurred in middle and high schools, and in these events, 65 
percent of violent attacks were committed by students. Through our Know 
the Signs programs, students and school personnel are taught to 
recognize the signs of potential interpersonal violence and self-harm 
and take action to get help and stop a tragedy. Empowering and training 
our students is especially important because we know that they are 
often the first to see warning signs of violence and self-harm in their 
peers, particularly through social media.
    Research shows that our students are already helping to avert 
tragedies. A recent report on averted school shootings showed that when 
school shootings have been averted, it was largely due to students 
speaking up about a potential threat before harm could occur. The 
Police Foundation's Averted School Violence Project, developed with the 
support of the Community Oriented Policing Services (COPS) Office, 
tracked and evaluated 51 instances of school violence over 2 years that 
were averted, avoided, or somehow stopped. They found that 68 percent 
of all averted violent threats were stopped because a student saw 
something and spoke up, leading the Police Foundation to name 
prevention programming as their top recommendation for preventing 
school shootings. The Department of Homeland Security echoed this 
recommendation in their 2018 report on K-12 school security, stating 
that ``the importance of detecting and addressing concerning behavior, 
thoughts, or statements cannot be overstated. In fact, preventing 
violence by detecting and addressing these red flags is more effective 
than any physical security measure.''
    At Sandy Hook Promise, we have worked diligently to create 
opportunities for prevention programs to grow and reach more students 
across the country, eliminating financial and geographic barriers for 
schools. In March 2018, we worked with bipartisan champions in Congress 
to pass the STOP School Violence Act which makes much-needed grants to 
States, localities, school districts, and Tribal communities to bring 
evidence-based violence prevention programs to their students. These 
grants have already helped to train millions more students in suicide 
and violence prevention. STOP funds are also being used to provide 
school personnel with threat assessment training that can help them 
better triage threats early and adopt a flexible, problem-solving 
approach to disciplinary matters that encourages a more positive school 
climate in which students feel treated with fairness and respect.
    Suicide is the second-leading cause of death for middle and high 
school age youth, and that is why it is critical that suicide 
prevention be part of a holistic approach to protecting the health and 
safety of our students. Much like other forms of violence in schools 
and among young people, the most effective approach to preventing these 
costly suicides is detecting warning signs early and acting on them 
before a tragedy can occur. We know that 70 percent of individuals who 
go on to complete suicide told someone about their plans or gave some 
other noticeable warning sign.
    We are proud to have worked with House champions to recently 
introduce H.R. 2599, the Suicide and Threat Assessment National 
Dedicated to Universal Prevention (STANDUP) Act in response to the 
nation's growing youth suicide crisis. The STANDUP Act would encourage 
more States and tribes to implement student suicide awareness and 
threat assessment training by conditioning the receipt of the Substance 
Abuse and Mental Health Services Administration's (SAMHSA) mental 
health program grants--Project AWARE grants--on the adoption of these 
State-wide policies. This is the first of many steps we can take to 
ensure that all our students have access to proven, life-saving 
programs, and we urge members of this Committee to support this 
legislation.
    We thank you for holding today's hearing on school safety. There is 
no single solution to stopping this epidemic of school shootings and 
tragedies. The challenge must be met with urgency and the resources 
that our students and schools deserve. We stand ready to work with 
every member of this Committee to protect our children from violence.
            Sincerely,
                                               Mark Barden,
                                                 (Daniel's father).
                                            Nicole Hockley,
                                                     (Dylan's mom).

    Mr. Payne. I want to thank the witnesses for their valuable 
testimony today and the Members for their questions.
    The Members of the subcommittee may have additional 
questions for the witnesses and we ask that you respond 
expeditiously in writing to those questions.
    Pursuant to the committee rule VII(D), the hearing record 
will be open for 10 days without objection.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 11:52 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

Questions From Chairman Donald M. Payne, Jr. For Kathy Martinez-Prather
    Question 1. Texas recently passed HB 4342, which requires an 
architect to serve on the Texas School Safety Center board. What is the 
importance of having an architect involved in school safety?
    Answer. Protecting the health, safety, and welfare of building 
occupants is fundamental to what architects do. Design is particularly 
fundamental to the phases of prevention and mitigation in overall 
hazard planning. Architects have always been integral for safety 
features, such as ingress and egress and severe weather safety. Over 
the course of the last 2 decades, architects have worked with school 
communities across the country to design and create safer schools in 
response to repeated acts of deadly violence targeting students and 
educators. An architect can ensure that all stakeholder perspectives 
and ideas are incorporated into a new or redesign of a school--from 
first responders and mental health advocates to engineers as well as 
parents and students. They have the training to ensure a holistic 
approach is taken to design a school--one that will ensure it remains a 
welcoming learning environment, while addressing safety. That's why it 
is important for school officials to work with architects early in the 
process of their addressing the physical security of their building 
stock. Architects can and will be at the forefront of finding and 
developing new building standards and codes that can make schools safer 
at the critical design stage. This is one of the reasons that Texas 
Governor Abbott appointed an architect to his school safety task force 
that he established within the first 48 hours after the shooting at 
Santa Fe High School.
    Question 2. Are schools in Texas adequately planning for how they 
might respond to a possible chemical or biological event, whether 
that's an attack or an industrial accident or some other incident, to 
protect students? Is this something the Federal Government needs to be 
more active in promoting? If so, how?
    Answer. Texas schools have been involved in multi-hazard emergency 
operation planning for several years now. There is certainly more work 
to be done and new and unforeseen threats to be considered all the 
time. The Texas School Safety Center is rolling out new training 
related to emergency operation planning and identifying threats and 
hazards. Chemical and biological events are particularly difficult to 
identify and plan for. In many instances a district may not even be 
aware of the threat a particular industrial site may pose. It is our 
goal to continue working with schools to better identify and define 
threats and prepare for possible incidents.
    One significant role the Federal Government could play is providing 
funding for outlets for information and training for these types of 
incidents. We are also in the process of establishing protocols for 
reviewing emergency operation plans and one area that is lacking is 
readily-available information for entities, such as ours, to identify 
and establish the types of threats at school locations. We are in the 
conceptual stages of how to gather information from multiple databases 
to be able to identify hazards by school locations. For example, while 
reviewing emergency operation plans we need the ability to be able to 
look up a school address and see that the school is within so many feet 
of a railroad track, is within or adjacent to the blast zone of a 
pipeline, is within a defined distance of a chemical or industrial 
plant. The ability to have that type of readily-available information 
could greatly assist with helping schools know what to plan for and how 
to train.
    Question 3. The Texas School Safety Center has run a school safety 
clearinghouse for several years. Can you provide any lessons learned 
that might be useful to DHS as they establish a Federal clearinghouse?
    Answer. Provide as much free on-line training as possible. There is 
a great deal of commercial training and information on the market and 
some of it is very good but it can be expensive. Providing information 
and especially training is a valuable commodity that many districts 
cannot afford. There are also many different methods and ideologies 
around school safety and security and it is important to not let best 
practices become vendor-driven. As a clearinghouse you will find that 
there are many solutions floating around and often they are seeking a 
problem to land on and proliferate. In many instances they have been 
developed from one perspective, based on one incident, or sized to one 
need. It is vitally important to look at things from a holistic view 
and understand them from the perspective of the people utilizing the 
information and putting into practice, from the students, to the 
teacher, district employees, and first responders.
    Question 4. Have you seen the U.S. Department of Homeland Security 
actively engage with schools in Texas to improve preparedness? Where do 
you think they can be the most effective in helping to improve school 
safety?
    Answer. Assisting State entities in identify emerging threats or 
trends and best practices for prevention, mitigation, and response is 
critical for planning purposes.

                                 [all]
</pre></body></html>
